<html>
<title> - CONFIRMATION OF ARNE DUNCAN</title>
<body><pre>[Senate Hearing 111-306]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-306

                      CONFIRMATION OF ARNE DUNCAN

=======================================================================

                                HEARING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,

                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                                   ON

    CONFIRMATION OF ARNE DUNCAN, OF ILLINOIS, TO BE SECRETARY, U.S. 
                        DEPARTMENT OF EDUCATION

                               __________

                            JANUARY 13, 2009

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                                 senate




                  U.S. GOVERNMENT PRINTING OFFICE
46-551 PDF                WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001






          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

               EDWARD M. KENNEDY, Massachusetts, Chairman

CHRISTOPHER J. DODD, Connecticut      MICHAEL B. ENZI, Wyoming
TOM HARKIN, Iowa                      JUDD GREGG, New Hampshire
BARBARA A. MIKULSKI, Maryland         LAMAR ALEXANDER, Tennessee
JEFF BINGAMAN, New Mexico             RICHARD BURR, North Carolina
PATTY MURRAY, Washington              JOHNNY ISAKSON, Georgia
JACK REED, Rhode Island               JOHN McCAIN, Arizona
BERNARD SANDERS (I), Vermont          ORRIN G. HATCH, Utah
SHERROD BROWN, Ohio                   LISA MURKOWSKI, Alaska
ROBERT P. CASEY, Jr., Pennsylvania    TOM COBURN, M.D., Oklahoma
KAY R. HAGAN, North Carolina          PAT ROBERTS, Kansas
JEFF MERKLEY, Oregon

           J. Michael Myers, Staff Director and Chief Counsel

     Frank Macchiarola, Republican Staff Director and Chief Counsel

                                  (ii)






                            C O N T E N T S

                               __________

                               STATEMENTS

                       TUESDAY, JANUARY 13, 2009

                                                                   Page
Harkin, Hon. Tom, a U.S. Senator from the State of Iowa, opening 
  statement......................................................     1
Enzi, Hon. Michael B., a U.S. Senator from the State of Wyoming, 
  opening statement..............................................     2
Durbin, Hon. Richard, a U.S. Senator from the State of Illinois..     4
    Prepared statement...........................................     6
Duncan, Arne, Chief Executive Officer of the Chicago Public 
  Schools, Chicago, IL...........................................     8
    Prepared statement...........................................    13

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    Dodd, Hon. Christopher J., a U.S. Senator from the State of 
      Connecticut, prepared statement............................    49
    Letters of Support...........................................    51

                                 (iii)

  

 
                      CONFIRMATION OF ARNE DUNCAN

                              ----------                              


                       TUESDAY, JANUARY 13, 2009,

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:02 a.m. in 
room SD-430, Dirksen Senate Office Building, Hon. Tom Harkin, 
presiding.
    Present: Senators Harkin, Mikulski, Murray, Reed, Sanders, 
Enzi, Alexander, Burr, Isakson, Murkowski, Hatch, Roberts, and 
Coburn.
    Also Present: Senator Durbin.

                  Opening Statement of Senator Harkin

    Senator Harkin. Good morning. The Committee on Health, 
Education, Labor, and Pensions will come to order.
    Our Chairman, Senator Kennedy, has asked me to chair this 
morning's hearing of this committee.
    A special welcome to Mr. Arne Duncan, who has been 
designated by President-elect Obama to lead the Department of 
Education in the new administration.
    Since 2001, Mr. Duncan has been chief executive officer of 
the Chicago public school system. Prior to joining the Chicago 
Public Schools, he was director of the Ariel Education 
Initiative, which seeks to create high-quality educational 
opportunities for inner-city children on Chicago's South Side.
    As a leader of Chicago Public Schools, Mr. Duncan has 
earned a national reputation for turning around a large, 
diverse, urban public school system.
    Mr. Duncan, there is no question that schools across 
America can benefit from the same kind of fresh thinking that 
you have brought to the Chicago Public Schools. As you know 
very well, perhaps our greatest educational challenge is to 
improve the performance of urban and rural public schools 
serving high-poverty communities.
    As I mentioned to you last week when we met in my office, I 
have been deeply influenced by the writings of Jonathan Kozol. 
In his book ``Savage Inequalities,'' he talked about what 
happens in these high-poverty neighborhood schools, and I 
quote,

          ``One consequence of medical and early education 
        denial is the virtual destruction of learning skills of 
        many children by the time they get to secondary 
        schools.''

    In our Nation's 35 largest cities, the dropout/attrition 
rate is 50 percent or worse. So Mr. Duncan, this is just one 
more crisis and challenge facing the incoming Obama 
administration. If you are confirmed by the Senate, we will be 
counting on you for bold and aggressive leadership.
    In addition, we need a new commitment to education funding 
from the incoming administration. Reform without new resources 
is just so much wishful thinking. Over the last 7 years, 
however, the title I program has been underfunded by $55 
billion, and we have failed to advance on our commitment to 
fund the education of children with disabilities.
    We need a fresh perspective on No Child Left Behind, a 
program that you are intimately acquainted with as a big-city 
school administrator. The challenges you have faced in Chicago 
are faced by districts all across the country.
    As we have talked about, the challenges facing special 
education have long been a priority of mine. It is time for the 
Federal Government--and I don't mean just you, but all of us--
to make good on our promise to fully fund the Individuals with 
Disabilities Education Act.
    With regard to higher education, a top priority for the 
next Secretary must be to ensure that no young person is denied 
access to college for lack of access to a reasonable loan.
    Should you be confirmed, you will be asked, along with your 
counterpart at the Department of Health and Human Services, to 
expand access to early education. The President-elect laid out 
a bold agenda that, if enacted, would increase access and 
improve the quality of early education. It would also require 
more from the Secretary of Education than has been asked of any 
of your predecessors.
    The Secretary also has the important responsibility of 
administering the career and technical education and adult 
education programs. With so many people out of work and looking 
to retool for new jobs, these programs are more important than 
ever.
    Mr. Duncan, we look forward to hearing your ideas for 
change and reform. More broadly, members of this committee are 
looking forward to hearing your commitment to consult and 
collaborate with us in the months and years ahead. This is a 
very diverse committee, with members who represent a wide 
variety of expertise and points of view.
    When we met last week in my office, you expressed your 
openness to learning from members of this committee and from 
educators across the country. That attitude will serve you 
well.
    Mr. Duncan, I admire your commitment to public service and 
to public education in particular. You have very impressive 
credentials and experience, as well as the confidence of the 
President-elect.
    Again, I welcome you to the committee. I look forward to 
your remarks.
    With that, I will yield to our distinguished Ranking 
Member, Senator Enzi.

                   Opening Statement of Senator Enzi

    Senator Enzi. Thank you, Mr. Chairman, and thank you for 
holding this hearing.
    Confirming the President's nominees is one of the most 
important constitutional duties of the Senate. And in terms of 
our country's future, education is one of the most critical 
issues we have to address.
    I first met Mr. Duncan in Chicago a little over 3 years ago 
at an announcement by Secretary of Education, Spellings, of a 
pilot program for supplemental educational services. Even 
before we met, I was aware of the efforts he was making to 
reform Chicago Public Schools, always focusing on what is best 
for children.
    He supports charter schools, public school choice, and 
merit pay for teachers and school leaders. His belief in 
holding schools accountable for results and maintaining 
transparency about school performance through public reporting 
has led to improved student achievement.
    Your track record with a major urban school district is 
well known. But I must warn you that I am particularly 
concerned about the unique challenges that rural and frontier 
schools and students face, and I will remind you of these 
challenges as we work on issues such as the reauthorization of 
No Child Left Behind, or whatever we call it next time. Or as I 
sometimes say, ``no rural child left behind.''
    Since the fall of 2005, we have seen ongoing improvement in 
education that our children receive in our Nation's schools. I 
would say that even with the progress we have made, it has not 
been enough. I believe that education is a key factor in 
securing a sound economic future for our country. Everyone, 
regardless of their background, needs access to quality 
education and training throughout their lives.
    Education has been a bipartisan issue, and we need to keep 
it that way. In fact, I believe that no major piece of 
education authorizing legislation has been passed by the Senate 
or sent to the President's desk that didn't have strong 
bipartisan support.
    The HELP Committee has established a successful track 
record of getting legislation across the finish line and signed 
by the President. I attribute that success to focusing on the 
80 percent that we agree on, while trying to find a third way 
for the remaining 20 percent.
    There are going to be areas where we disagree, but my hope 
and expectation is that by focusing on solutions, we can 
produce meaningful results for our students and their families, 
for teachers, principals, and administrators.
    Congress and the Department of Education need to work 
together to make sure that every school has the tools and the 
flexibility needed to help students develop the knowledge and 
skills required to be successful in the 21st century. We still 
have too many students leaving high school and college without 
completing their programs of study.
    More students need to graduate from high school, on time, 
prepared to successfully enter college or the workforce. We 
also need to increase the number of students who enter college 
and complete their program of study. They should not leave with 
little to show for their time except bills and debt.
    Some postsecondary education is critical to at least 8 out 
of 10 jobs being created. Over 6,000 students drop out every 
day, which means that for every school hour, upwards of 275 
students drop out. For those students, over their lifetime, we 
will lose about $74 million in lost wages and revenues. That is 
too great a price to pay for the student, for the community, 
for our Nation.
    I look forward to working with Mr. Duncan to chart a future 
course for the education success of all of our students. When 
Mr. Duncan and I spoke last week, we discussed our mutual 
belief that we need to improve the number of students who 
successfully enter and complete postsecondary education 
programs.
    We have to build on the successes of No Child Left Behind. 
We have to coordinate efforts across programs, including career 
and technical education and workforce programs under the 
Workforce Investment Act, and reduce the barriers 
nontraditional students face to obtaining education that will 
provide the knowledge and skills they need to be successful in 
the 21st century. Our country's future depends on our ability 
to reach this goal.
    I have a number of questions for you, some of which I will 
ask during question and answer. It is likely, however, there 
will be questions I won't be able to ask and will provide for 
your written responses to be included in the record. So that we 
can accelerate consideration of your nomination, I would 
appreciate your quick response to these questions.
    I do apologize. I will have to leave the hearing early. We 
have some other Cabinet-level positions that are being 
confirmed or heard at this point, as well as a few health 
issues we are trying to work on.
    In closing, I would like to again thank the Chairman for 
calling this hearing. I would also like to thank Mr. Duncan for 
his willingness to take on the challenges of the Federal role 
in improving education for all students throughout their 
lifetime.
    Thank you, Mr. Chairman.
    Senator Harkin. Thank you, Senator Enzi.
    We welcome our distinguished Assistant Majority Leader to 
the committee, another great champion of public education in 
this country, for the purposes of introduction, Senator Dick 
Durbin.
    Welcome, Dick.

                      Statement of Senator Durbin

    Senator Durbin. I want to thank Senator Harkin, Senator 
Enzi, Senators Mikulski, Alexander, and Hatch for joining us, 
and all the members of the HELP Committee.
    It is my honor to appear before you today to introduce my 
friend Arne Duncan, who is the choice of President Obama to 
serve as Secretary of the Department of Education.
    When Mayor Daley took a look at the great city of Chicago 
and its future, he decided there were two things that had to be 
done. First, you needed to bring safety to the neighborhoods 
and, second, quality to the schools. Arne Duncan was chosen as 
the CEO of Chicago Public Schools in the year 2001. For 7\1/2\ 
years, he has tackled the challenge of turning around the 
troubled schools in the city of Chicago. Chicago Public Schools 
is the third-largest school district in America with all the 
challenges of an urban school district--over 90 percent 
minority, over 90 percent poverty.
    Arne is a leader. He has consistently surpassed 
expectations with hard work and clear dedication. If you take a 
look at how he grew up, you can understand it. His mother had a 
center in Hyde Park for inner-city kids, poor kids to go to, to 
be tutored. Arne would finish his day in the classroom in his 
school and then go over to his mother's center and tutor other 
kids. That is how he grew up. That was his after-school 
activity.
    Many of his views about urban education were shaped by that 
experience, and you will learn about them during the course of 
this hearing. He also worked in the nonprofit sector with John 
Rogers at the Ariel Fund, identifying key schools where 
investments could be made and a difference could be made. 
Eventually, he was tapped by Mayor Daley to step back into the 
public sector, and he did willingly.
    He has adopted a whole class of children and sent them to 
college. He started a school in Chicago built around financial 
literacy. Along the way, incidentally, he played a little 
basketball--that seems to be a recurring theme with the new 
Obama administration--including some time when he played 
professional basketball in Australia.
    In his senior year at Harvard--I read this morning--as co-
captain, his greatest moment was in playing Duke and leading 
his teammates, scoring 20 points. Harvard lost, but it was 
quite a game effort.
    [Laughter.]
    Mr. Duncan. Not enough.
    Senator Durbin. It is his work in the Chicago Public 
Schools that really stands out. I have had the honor of knowing 
and working with Arne for many years. We have been to so many 
different events at schools and press conferences.
    I even recalled with his wife, Karen, this morning when 
Claire and Ryan and Arne and I were both holding shovels, 
digging a playground at a public school in a very muddy setting 
in the city of Chicago. So I know that he is a hands-on leader.
    He lights up when he talks about the latest school that is 
beating the odds on a new program, reaching students who had 
been written off. He doesn't sugarcoat the challenges he 
encounters along the way. He is straightforward, thoughtful, 
honest, and decisive.
    Last year, I visited a high school in Chicago and met with 
a group of students and then walked through the school. After I 
had finished that, I called Arne directly. I said to him, 
``Arne, I don't think I have ever complained to you about a 
school that I have visited. But that high school is out of 
control. I can't believe that anybody is learning anything 
there, as I walk through the corridors and look in the 
classrooms.''
    He said, ``I will look into it.'' Two weeks later, he 
called me, and he said, ``You were right. It was an experiment 
with the principal that didn't work, and he is moving on. We 
are bringing in somebody else.''
    I liked that. Here is a person who listened, followed up, 
and did the right thing.
    Today, Chicago enjoys a reputation as a model of school 
system reform, and Arne's leadership has had a lot to do with 
it. Over 7\1/2\ years, he has raised test scores, lowered 
dropout rates, boosted college enrollment, opened more than 100 
new schools, and expanded after-school and Saturday programs.
    Through it all, he has maintained good relations with the 
business community, with the unions, and elected officials, 
even as he pushed tough reforms. Arne Duncan understands that 
real and meaningful change in our toughest schools depends on 
the participation and cooperation of everybody.
    He knows when to compromise, and he knows when to hold 
firm. One of the toughest challenges he has had is closing a 
school. If you can imagine the reaction in the neighborhood and 
from the families and from the teachers, and he has weathered 
that storm time and again, never blinked, knowing that some of 
those schools that were failing just had to be closed for the 
best interests of the kids.
    No other district in the country has been as aggressive 
about holding schools accountable for performance and willing 
to try new, innovative methods to improve schools. I think that 
is the spirit we need in the Department of Education.
    American education is at a critical moment. Thirty years 
ago, the United States ranked first internationally in 
graduating students from high school and college. Today, our 
Nation ranks 15th.
    This is not the time for America to fall behind. It is time 
to raise the bar. We need to make sure every student has a 
chance to excel.
    This is a challenge and a priority for the Obama 
administration. I can remember speaking to the President-elect 
just days after the election, and we talked about the 
Department of Education, and a lot of names were mentioned. I 
said to him, and he nodded in agreement, ``You know, we have 
somebody right here in Chicago who would be an extraordinary 
Secretary of Education.''
    Well, I am honored today to have the opportunity to 
introduce him to you in a formal way. I know that most of you 
have already had a chance to meet him.
    We are going to miss him in Chicago, if the Senate confirms 
him, and I believe it will. We will know that he will be an 
excellent Education Secretary, and the students of America and 
their families couldn't have a stronger advocate on their 
behalf.
    I am sorry that I have to step away at this point, but I 
will now turn it over to my friend and, I hope, the next 
Secretary of the Department of Education, Arne Duncan.
    [The prepared statement of Senator Durbin follows:]

                  Prepared Statement of Senator Durbin

    President-elect Obama has asked Arne Duncan to serve as 
Secretary of the Department of Education.
    Arne Duncan was appointed CEO of Chicago Public Schools in 
2001. Since then, we have watched him tackle the challenge of 
turning around troubled schools in Chicago. Chicago Public 
Schools is the 3rd-largest school district in America with all 
the challenges of any urban school district.
    Arne is a leader. He has consistently surpassed 
expectations through his hard work and clear dedication to 
Chicago's children. Arne understands the challenges of urban 
education. Education has been his life--starting as a child, 
when he spent every afternoon at his mother's tutoring program 
for inner-city children.
    Many of his views about urban education were shaped by this 
experience, and you will learn more about those views over the 
course of this hearing.
    Arne also worked in the non-profit sector. He adopted a 
whole class of children and sent them to college. He started a 
school in Chicago built around financial literacy.
    You might also have heard that Arne has played basketball 
all his life-including professionally in Australia. He will 
tell you that the discipline and teamwork that he acquired on 
the court has helped him off the court.
    But it is his work with the Chicago Public Schools that 
really stands out.
    I have visited many Chicago schools with Arne, stood with 
him at public events and press conferences, and followed his 
reform efforts closely. He lights up when he's talking about 
the latest school that is beating the odds or a new program 
reaching students who had been written off. But he doesn't 
sugarcoat the challenges he encounters along the way. He is 
straightforward, thoughtful, and honest.
    Today, Chicago enjoys a reputation as a model of school 
system reform, and I credit Arne's leadership--his work ethic, 
his focus, and his determination.
    Over 7\1/2\ years, Arne has raised test scores, lowered 
dropout rates, boosted college enrollment, opened more than 100 
new schools, and expanded after-school and Saturday programs.
    Through it all, he has maintained good relations with 
business leaders, unions, and elected officials--even as he 
pushed forward tough reforms. Arne Duncan understands that 
real, meaningful change in our toughest schools depends on 
participation from all parties.
    Arne knows when to compromise and he knows when to hold 
firm. One of his toughest reforms was closing down low-
performing schools in Chicago. It was very controversial. But 
Arne knew that these schools were failing their students, and 
he never blinked. Today, the children who were in those schools 
are much better off.
    No other district in the country has been as aggressive 
about holding schools accountable for performance or as willing 
to try new innovative methods of improving schools. He will 
bring the same high standards and focus on innovation to the 
Department of Education.
    American education is at a critical moment. Thirty years 
ago, the U.S. ranked 1st internationally in graduating students 
from high school and college. Today, we rank 15th.
    This is not the time for America to fall behind. It's time 
to raise the bar. We need to make sure that every student who 
wants a college education receives the academic preparation and 
financial support they need to achieve their goal. Every 
student who wants a college education should have the academic 
preparation and financial support they need to achieve their 
goal.
    This is a challenge and a priority for the Obama 
administration. Arne Duncan is the right leader to carry that 
agenda forward. He has my complete confidence and highest 
recommendation.
    Arne has been a tremendous asset to my state of Illinois. 
Chicago will miss his leadership. But he will be an excellent 
education secretary. The students of America could not have a 
stronger advocate on their behalf.
    It's an honor to introduce my friend, a great educator and 
a great leader, Arne Duncan.
    Senator Harkin. Senator Durbin, thank you very much, and I 
know you have other business to attend to as the assistant 
leader. Thank you very much for the introduction and for all 
your help and your support for Mr. Duncan.
    Mr. Duncan, welcome to the committee. In keeping with the 
tradition that Senator Kennedy has set for this committee, I 
always ask the nominee to first introduce the family members 
who are with you. We would like to know who all your family 
members are.
    Mr. Duncan. Sure. I would be proud to do that. Behind me is 
my wife, Karen, and my children, Claire and Ryan. If you guys 
could please stand.
    Claire is 7 years old, and Ryan is almost 5.
    [Applause.]
    Senator Harkin. A great-looking family. A handsome son, and 
since I raised two daughters, I am partial to daughters, 
obviously.
    [Laughter.]
    I think Claire is just beautiful, and is she going to try 
out for the part of ``Annie'' in a school play?
    [Laughter.]
    Mr. Duncan. They will be busy writing and drawing 
throughout the confirmation process.
    Senator Harkin. Mr. Duncan, again, your statement will be 
made part of the record in its entirety. You can proceed as you 
so wish.

   STATEMENT OF ARNE DUNCAN, CHIEF EXECUTIVE OFFICER OF THE 
              CHICAGO PUBLIC SCHOOLS, CHICAGO, IL

    Mr. Duncan. Thank you so much.
    I want to thank Senator Kennedy in his absence. We had a 
great conversation yesterday.
    I want to thank Senator Enzi. Senator Harkin, I want to 
thank you for agreeing to chair this hearing and for your 
tremendous commitment to children, particularly those who are 
disabled and have not had the opportunities historically. Thank 
you so much for your leadership.
    This is an extraordinary time in our country, an 
extraordinary time to be working on education. I want to begin 
by talking about something that I think the public hasn't 
picked up on enough that Senator Mikulski articulated 
extraordinarily well as we talked last week. I have really 
enjoyed my conversations with all the Senators over the past 
few days.
    She talked about what she called the ``Barack effect,'' the 
``Obama effect.'' What we have with the President-elect and his 
wife are two people who are living symbols, who embody the 
value of education.
    They come from humble backgrounds, humble beginnings. 
Because they worked so hard, because they are so committed to 
becoming great people, what they did educationally was 
extraordinary.
    Children throughout our country today, whether it is inner-
city Chicago, whether it is rural Iowa or Wyoming, children 
around the country look at those two and say, ``They worked 
hard. I can do it, too.'' What you see is children saying not 
just, ``I want to be the President like the President-elect.'' 
They are saying, ``I want to be smart like the President-
elect.''
    We have a time, collectively, as a country, to capitalize 
on something I think is simply extraordinary. Never before has 
being smart been so cool and working hard been so cool.
    I think we have a chance to build upon not just the 
substance of the education plan, but the symbolism of what the 
President-elect and his wife represent. I think that is going 
to be very, very special and that every child in this country 
has the chance to look at them and say, ``If I work hard, look 
what I can accomplish.''
    The President-elect views education as both a moral 
obligation and an economic imperative. In the face of rising 
global competition, we know that education is the critical, 
some would say the only, road to economic security.
    Quality education is also the civil rights issue of our 
generation. It is the only path out of poverty, the only road 
to a more equal, just, and fair society. In fact, I believe the 
fight for a quality education is about so much more than 
education. It is a fight for social justice.
    I come to this work with three deeply held beliefs. First, 
that every child from every background absolutely can be 
successful. Rural, suburban, urban, gifted, special ed, ELL, 
poor, minority--it simply doesn't matter. When we, as adults, 
do our job and we give them opportunities to succeed, all of 
our children can be extraordinarily successful.
    Second, maybe the flip of that, when we fail to properly 
educate children, we, as educators, perpetuate poverty, and we 
perpetuate social failure. That is not something that I want to 
be a part of.
    Third, our children have one chance, one chance at a 
quality education, so we must work with an extraordinary sense 
of urgency. Simply put, we cannot wait because they cannot 
wait.
    As we look ahead, I will begin with the President-elect's 
strong commitment to reform at every level and the compelling 
vision that he spelled out during his campaign. I am 
extraordinarily hopeful about what we can accomplish by working 
together.
    First, he talked about the need to dramatically improve 
both access to early childhood opportunities and to have more 
high-quality opportunities there, and we know that the quicker 
we get to students, the earlier we get them involved in high-
quality early childhood programs, the better they are going to 
do in the long-term.
    Second, at the K to 12 level, we want to continue to 
dramatically raise standards and increase teacher quality.
    Third, as those students progress from early childhood on 
to K to 12 and then on to higher education, we want to ensure 
greater access there and strengthen institutions like our 
community colleges--which you mentioned, Senator Harkin--which 
are critically important and can play a huge role, giving 
people a second chance, retooling skills, and getting back into 
the workforce.
    As we look at those three buckets of work--increasing 
access and opportunity for early childhood, strengthening what 
we are doing to K to 12, and increasing access to higher 
education--there are two themes that I think need to run 
through all of that work that are very important to me.
    First, we must do dramatically better and we must continue 
to innovate. We must build upon what works, we must stop doing 
what doesn't work, and we have to continue to challenge the 
status quo. That spirit of innovation has been hugely important 
and will continue to be very, very important to me going 
forward.
    Second, we must recognize and reward excellence. There are 
extraordinary teachers, principals, district leaders, State 
school chiefs, and community college presidents throughout this 
country. We have to elevate the teaching profession, we have to 
build upon this next generation of leaders in our schools and 
our State boards, and we have to find ways to scale up what 
works.
    There are great, great pockets of excellence as we look 
across every State in this country. We have to find ways to 
scale up what works, to shine a spotlight on those educators 
who are doing an extraordinary job and going above and beyond 
the call of duty every single day.
    I am absolutely convinced that if we can create better 
opportunities and raise expectations for everyone from our 3-
year-olds to our 23-year-olds, if we can continue to innovate 
and challenge the status quo every single day, and if we can 
recognize and reward excellence throughout the country, I am 
absolutely convinced that we can transform education here in 
America.
    Let me close briefly by just telling you a few things about 
myself. I have spent the past 10 years working for the Chicago 
Public Schools. I have been very fortunate to have that 
opportunity. For the past 7\1/2\ years, I have been the CEO of 
the Chicago Public Schools.
    Our work is not done. There is a long way to go, but at the 
same time, we are proud of our progress. We have had 7 
consecutive years of rising test scores, rising graduation 
rates, and reductions in dropout rates.
    We have done everything we can to increase our time with 
children. I think our school day is too short, our school week 
is too short, our school year is too short. We have 150 
community schools. We opened 200 schools on Saturdays this past 
year. We brought 15,000 freshmen back to school a month early 
during the summer on a voluntary basis because we wanted to get 
them off to a great start.
    We are trying to really do everything we can to enhance the 
teaching profession. We have gone from 11 national board-
certified teachers to over 1,200. We have gone from 2 
applicants for each teaching position to over 10.
    We have tried to make Chicago the place, the Mecca 
nationally for people who are passionate about public education 
and want to make a difference in students' lives. We have tried 
to create great new opportunities in neighborhoods that have 
been historically underserved, and I would argue have been 
underserved for decades.
    We have closed schools for academic failure when we needed 
to do that. Those are not easy decisions to make. Very 
significantly, we have opened over 100 great new schools, again 
focusing primarily on communities that have been underserved. 
We couldn't be more proud of the opportunities that children in 
those neighborhoods now have that haven't been there for far 
too long.
    Perhaps the number I am most proud of is that last year our 
graduating seniors collectively won over $150 million in 
competitive grants and scholarships. Given the fact that so 
many of our children are the first in their family to go to 
college, so many of our children are new to the country, we are 
so proud that colleges and universities around the country are 
recognizing the talent that our students have.
    I tell them all the time that these are not gifts. These 
are investments in the future. People believe in what our 
students can accomplish as they go forward.
    Twenty years ago, you may recall the former Secretary of 
Education Bill Bennett called the Chicago Public Schools the 
worst district in the Nation. We are proud to have made 
significant progress since that time and to really be a model 
of national reform. Again, the hard work is going to continue 
there, and it is far from done.
    In the 6 years prior to joining Chicago Public Schools, I 
was fortunate to work with my best friend John Rogers and, 
along with my sister, to set up the nonprofit side of his 
business, the Ariel Foundation. We did two things. We ran an I 
Have A Dream program from 1992 to 1998. My job and my sister's 
job and the job of a great team of volunteers for those 6 years 
was to take 40 sixth graders and work with them all the way 
through high school--to tutor them, to mentor them every day, 
to work with their families to give them the opportunity to be 
successful.
    At the end of that, we were proud that 87 percent of our 
students graduated on time, and 65 percent went on to college. 
The class one year ahead of us from that school, Shakespeare 
Elementary, had a 33 percent graduation rate, meaning 67 
percent did not graduate. Sixty-seven percent the year before 
didn't graduate. Eighty-seven percent of our class did.
    What we were trying to demonstrate is that, again, given 
students from high-poverty areas, given the challenges, with 
long-term support, with long-term opportunity and guidance, our 
students can be very, very successful.
    About half way through that, in 1995, we started our own 
small public school, the Ariel Community Academy, which today 
remains one of the highest-performing neighborhood inner-city 
schools in Chicago. It has a very innovative financial-literacy 
curriculum, and I think it is a model from which we can learn a 
great deal going forward.
    Those experiences, managing Chicago Public Schools, setting 
up a nonprofit, obviously were extraordinary learning 
opportunities for me. But I have to be honest, and Senator 
Durbin talked about it, probably the most important opportunity 
I had, the most formative experience of my life was the first 
10 years of my life, growing up as a part of my mother's inner-
city tutoring program.
    Before I was born, in 1961, she began this program. She 
raised my sister and brother and I as a part of it. Literally, 
from the time we were born, we were there every day, and then 
every day after-school, and I ended up taking a year off from 
college between my junior and senior year to work with her 
full-time.
    Most of my friends were becoming or thinking about becoming 
investment bankers and lawyers. I didn't quite think that was 
what I wanted to do in my life. I wanted to find out if this 
really was what I wanted to do. It was just an extraordinary 
experience.
    There, everyone is taught to help everyone else. Probably 
my first job was as a 5-year-old, washing the books and 
cleaning tables at the end of the day. The 10-year-olds teach 
the 5-year-olds. The 15-year-olds teach the 10-year-olds. You 
learn by being taught and by teaching others.
    I grew up with a set of children who didn't look like me, 
very few of whom came from two-parent homes, and all of whom 
were desperately poor. They went on to do extraordinary things. 
One, Michael Clarke Duncan, is a Hollywood movie star. Another 
one, Kerrie Holley, who actually taught me for many of those 
years, is one of IBM's leaders internationally.
    Another one, Corky Lyons, is now a brain surgeon. Another 
one, Ronald Raglin, is part of my senior management team in 
Chicago Public Schools. All of these guys came from one little 
corner, 46th and Greenwood, on the South Side of Chicago.
    What I saw, again, from the time I was born, was that 
despite challenges at home, despite challenges in the community 
that were sometimes unimaginable, our young people can be very, 
very successful. If we stay with them, work with them hard 
every single day, have the highest of expectations, and 
challenge them, amazing things can happen.
    That was a formative experience. It was exhilarating, but I 
have to be honest. It was very, very tough, and we faced some 
real challenges.
    One of my earliest memories was when I was about 6 years 
old, in 1970, the church that we were working out of was fire 
bombed by the Blackstone Rangers. I remember salvaging what we 
could from the church and walking around the block to another 
church, carrying crates of books, and asking that minister to 
allow us to come and work.
    Our lives were threatened. My mother's life was threatened. 
I remember leaving work one night, and a guy coming by and 
saying if we came back the next day, we would be killed.
    We had an interesting conversation that night at home at 
dinner. Our dinnertime conversations were maybe a little 
different than those of other families. We tried to figure out 
what to do and really decided that you can't run. Once you 
start running, you will be chasing your shadow eventually. We 
showed up the next day, and luckily, he didn't.
    Unfortunately, given the level of violence in the 
community, many friends I had did not make it, and there were 
many people I was very close to who were killed growing up. 
Those experiences, when you are young, shape you, and I would 
go so far as to say scar you, in ways that are difficult. For 
me, they increased the tremendous sense of urgency about this 
work of giving every child a chance to be successful.
    I have thought a lot about, as I have gotten older and 
became a father and raised my two children, what compelled my 
mother to take her three young children into this community 
every single day and to face those kinds of challenges? Why did 
my father support my mother and his three young children doing 
this?
    I think the answer is pretty simple, but also profound. 
They did this work every single day simply because this work 
was so important and because this work is bigger than all of 
us.
    Finally, I just commit to you one thing: That if you see 
fit to support my nomination today, I will do everything in my 
power to work with the same sense of commitment, the same 
urgency, and most importantly, the same courage for the next 4 
years that my mother has exhibited for the past 48 years.
    Thank you so much.
    [The prepared statement of Mr. Duncan follows:]
                   Prepared Statement of Arne Duncan
    Mr. Chairman, Senator Enzi, and members of the committee, I am 
deeply grateful for the opportunity to appear before you today as 
President-elect Obama's nominee for Secretary of Education. I am 
humbled by the collective wisdom, insight and experience of this 
committee and the full Congress, and by the vision and purpose of the 
new administration. Above all, I am honored and inspired by the call to 
serve America on an issue that is so important to our future.
    I am joined here today by my wife, Karen, and my children, Claire 
and Ryan--so you can see that my interest in this issue is more than 
professional.
    In today's era of global economics, rapid technological change and 
extreme economic disparity, education is the most pressing issue facing 
America. Preparing young people for success in life is not just a moral 
obligation of society. It's an economic imperative. As President-elect 
Obama has said many times, ``The Nations that out-teach us today will 
out-compete us tomorrow.''
    Education is also the civil rights issue of our generation--the 
only sure path out of poverty and the only way to achieve a more equal 
and just society. In a world where economic success is tied more 
closely than ever to educational opportunity, we are condemning 
millions of children to be less than they could be by consigning them 
to schools that should be so much more. That is a blight on our country 
and a brick on our progress.
    If I am confirmed as Secretary of Education, I will work closely 
with you and with all of Congress, with the President, and with 
educators across America to bring about real and meaningful change in 
the way our schools teach and our children learn because we need to get 
better faster. Children have only one chance for an education and 
children who are in school now need a better education today if they 
are to thrive and succeed tomorrow.
    I look forward to working with the HELP Committee because you offer 
so much experience and knowledge on this issue. Chairman Kennedy has 
long been the champion of educational opportunity for all. Senators 
Enzi and Kennedy and the entire HELP Committee have done great work on 
critical education legislation in the 110th Congress, including:

    <bullet> The Head Start for School Readiness Act;
    <bullet> The America COMPETES Act;
    <bullet> The College Cost Reduction and Access Act; and
    <bullet> The Higher Education Opportunity Act.

    I am eager to hear your ideas for how the Department of Education 
can work with the States, and support local school districts. Having 
been a school superintendent for 7 years, I know that having a strong 
partner in Washington is critical--but I also know that an overbearing 
Federal bureaucracy can impede innovation and progress. I look forward 
to working with you in the years ahead to strike the right balance.
    Education has been my life's work, starting on the South Side of 
Chicago where I grew up along with my sister and brother, as a part of 
my mother's inner city after-school tutoring program, Sue Duncan's 
Children's Center, where I learned to, as she says ``cherish every 
child.'' Her remarkable courage and dedication has been a constant 
source of inspiration to me. The Children's Center is an example of the 
type of partnership needed to support the learning of every child--in 
this case though a partnership among parents, community volunteers, 
school staff, philanthropies, and a university. With different sets of 
partners, examples like this across the country, in urban districts and 
rural communities, have demonstrated that, given opportunity and 
support, every child can learn. As the President-elect has said, these 
kids are our kids, and their education is the responsibility of us all.
    I come to you after serving as the head of America's third-largest 
school district, serving over 400,000 mostly poor and mostly minority 
students. I am very proud of Chicago's progress. We have had 7 years of 
steady gains in test scores and attendance. Our dropout rate has 
steadily declined while college enrollment rates have risen. We have 
improved the quality of teaching through better recruiting and more 
support for existing teachers. We've held teachers and school leaders 
accountable for the performance of our children--all of our children. 
Where they've succeeded, we've rewarded them for their work. We worked 
hard to involve parents more deeply in the education of their children, 
recognizing that schools and teachers are no substitute for a mom or 
dad who reads to their kids and makes sure the day's homework is done.
    This has not always been easy or without difficult choices. Chicago 
has been one of the few districts that have held accountable 
chronically low-performing schools--making the tough decision to close 
them down and reopen them with new leadership, new staff and new 
educational approaches. For the most part, the results of our school 
turnaround program have been dramatic--boosting test scores, attendance 
and school morale. For all of our progress, however, I am fully aware 
that challenges remain--in Chicago and in schools across America.
    President-elect Obama has proposed a bold agenda for meeting our 
educational challenges. I want to briefly outline his priorities.
    First, we must invest in early childhood education. Too many 
children show up for kindergarten already behind. Many never catch up. 
The President-elect's ``Zero-to-Five'' proposal calls for:

    <bullet> Greater supports for working parents with young children;
    <bullet> Early-learning challenge grants to States;
    <bullet> Voluntary universal pre-school quality enhancements; and
    <bullet> More resources to build on the successes of Head Start and 
Early Head Start.

    The President-elect also plans to establish a Presidential Early 
Learning Council to better integrate pre-school programs and resources.
    Second, we know that teacher quality must be addressed on many 
levels: recruitment, preparation, retention, and compensation. As a 
member of the HELP Committee, Senator Obama worked with many of you to 
include teaching residency programs in the Higher Education Opportunity 
Act. I know, from Chicago's experience, that residency programs work 
and President-elect Obama will make them a priority.
    President-elect Obama and I will also work with you and with school 
leaders across America to ensure that our teachers are treated and 
valued as professionals. We must promote career advancement programs so 
that successful teachers can be instructional leaders for their 
colleagues. We must enable teachers to collaborate and learn from each 
other as members of strong professional communities. We must expand 
teacher compensation based on performance. For any of this to be 
effective, we must do more to develop and support strong and effective 
principals.
    Third, we know that only about 70 percent of high school students 
graduate. America once led the world in high school graduation, and now 
we're falling behind other industrialized Nations. We can't continue 
down this path. We must identify students at risk of failure by the 
middle school years if not earlier--and target interventions to them. 
We have begun this work in Chicago, investing heavily in ninth grade 
transition programs. I look forward to sharing our experience with you 
and working with you on this issue.
    We also know that many students who manage to graduate subsequently 
struggle in the workplace or in college. We have to increase rigor in 
high schools to prepare young people for the next stage of life--by 
boosting advanced placement participation, raising standards, and 
increasing learning opportunities so that they have the support they 
need to meet those higher standards.
    I know that the reauthorization of No Child Left Behind will be a 
priority for the 111th Congress. I have seen first-hand the impact of 
the Federal law on our students and schools. I have seen the law's 
power and its limitations. I agree with the President-elect that we 
should neither bury NCLB nor praise it without reservation. I support 
the core goals of high standards for all--black and white, poor and 
wealthy, students with disabilities, and those who are just learning to 
speak English. Like President-elect Obama, I am committed to closing 
achievement gaps, raising expectations and holding everyone accountable 
for results.
    Fourth, we must make sure that our citizens have the means and the 
encouragement to aim for education and training beyond high school. 
Nearly half of the Department of Education's budget is committed to 
helping Americans pay for college. More than 5 million students from 
modest backgrounds receive Pell Grants, the most important financial 
aid program in the Nation. President-elect Obama is committed to 
boosting Pell Grant funding and also ensuring that inflation does not 
eat away at their value.
    One of the President-elect's signature proposals is the American 
Opportunity Tax Credit--$4,000 for college in exchange for 100 hours of 
community service. This is more than a financial aid program. It's 
really a statement of our broader values: if you serve your neighbors, 
clean up the environment, care for the elderly, or tutor at the 
elementary school, you deserve help in paying for college. If 
confirmed, I look forward to working with Congress, the President and 
the Treasury Department on this proposal.
    Mr. Chairman, I congratulate and thank this committee and your 
colleagues in the House for the timely action you took to make certain 
that students would be able to get their Federal loans even in the 
midst of the unprecedented problems in the credit markets. Prompt 
action by the Congress and the Education and Treasury Departments 
prevented disruptions for students across the country. Eight million 
people of all ages take advantage of Federal loan programs. If 
confirmed, my first priority with respect to student aid will be to 
ensure that 100 percent access to student loans continues. Beyond 
access to loans, we need to make sure that the aid programs are managed 
in a way that protects taxpayers from unnecessary cost and risk, 
prevents students from taking on excessive and expensive debt, and 
offers borrowers affordable ways to repay their loans.
    Federal aid is critical to helping millions of Americans attend 
college. Unfortunately, many talented young people who could and should 
be going to college are not taking advantage of that opportunity. Part 
of the issue is inadequate financial aid, but we must also ensure that 
students have the information and guidance they need to make good 
decisions and maximize the aid they can receive under current programs.
    We should streamline the financial aid process by implementing the 
President-elect's proposal to allow students to apply for aid by simply 
checking a box on their tax forms. Enormous amounts of time and energy 
are wasted badgering kids to fill out this needlessly complex form. 
College counselors, teachers, parents and others are all pressed into 
service because it is so complicated. That's time they could spend more 
productively thinking about what to do with their lives, where to 
attend college, and planning their future. I applaud Congress for 
providing new tools under the Higher Education Opportunity Act to 
simplify the aid process. I vow to work closely with the higher 
education community and the Internal Revenue Service to advance this 
effort.
    We also want to support community colleges, which serve almost 40 
percent of America's college population. For some, community college is 
a more affordable route to a Bachelor's degree, while for others it's 
about getting job skills in growing fields like health care and 
technology. Many community college students are adults who are 
returning to school after years in the workforce or after raising a 
child. The President-elect has proposed additional support for 
community colleges and I want to work with you on that as well.
    I also want to applaud the committee's efforts to boost college 
enrollment for students with disabilities, curb tuition hikes, and help 
more students to complete college. I want to underscore this issue of 
student success in college. I have seen talented students graduate from 
high school in Chicago, only to find they were not able to build on 
that success in college. Some responsibility may lie with their 
preparation, but it may also be that the college failed to provide the 
engaging courses and the support and guidance that would have led that 
student to a degree and to a great future. This is not only the 
student's loss, but the Nation's as well. This is an issue that the 
committee has recently addressed, making important advances: improving 
oversight for the accreditation process; insisting on more data about 
student success; and shining a light on the issue of college cost. If 
confirmed, I am ready to implement this legislation. Indeed, the timing 
of the regulatory process means that I will be working on these issues 
from day one. Secretary Spellings and her entire staff have been 
extremely helpful and cooperative on this transition process--
especially with respect to issues that require immediate action. I am 
grateful to her and will look to her for input as we move forward.
    There are many other issues that the new Administration and 
Congress will need to tackle, including:

    <bullet> Appropriately supporting students with disabilities, 
making sure that they are assessed fairly, and making real and 
necessary learning gains to meet their full potential;
    <bullet> Helping English language learners to be successful, not 
only in learning our common language, but in gaining the knowledge and 
skills they need for success;
    <bullet> Promoting innovation that accelerates student learning; 
and
    <bullet> Aligning our education system not only to prepare students 
for the jobs of the future, but also for the responsibilities of active 
citizenship in our democratic society.

    Under the leadership of President-elect Obama, I am deeply 
committed to working with you to meet these challenges, to enhance 
education in America, to lift our children and families out of poverty, 
to help our students learn to contribute to the civility of our great 
American democracy, and to strengthen our economy by producing a 
workforce that can make us as competitive as possible. This is a matter 
of great urgency for me, and I know it is for you as well
    I also want you to know that it has always been my working style to 
be completely open and accessible. I believe that the best solutions 
are reached when every stakeholder has a voice and an opportunity to be 
heard. It's OK to disagree on issues, but it's not OK to refuse to 
listen and consider everyone's views. No one person alone has all of 
the answers, but together, I am absolutely confident that we can find 
all the answers we need.
    I look forward to working with you, with your staff, with your 
constituents, with the White House and with people all across America 
who recognize that the education of our children is our solemn 
obligation, our fundamental responsibility, and our greatest 
opportunity.
    Thank you for the chance to appear before you today. I am happy to 
answer any questions.

    Senator Harkin. Mr. Duncan, thank you for that very 
inspiring and elegant statement. We appreciate that.
    It is my understanding that the committee has received a 
number of letters from individuals and organizations in support 
of Mr. Duncan's nomination. I ask unanimous consent that those 
letters be inserted in the record at the appropriate place, 
without objection.

    [Editor's Note: The information previously referred to may 
be found in Additional Material.]

    Senator Harkin. I know that Senator Enzi has other 
commitments he has to go to, and I will yield to him. In 
keeping, again, with Senator Kennedy's strictures, we will have 
5-minute rounds. We will start with Senator Enzi.
    Senator Enzi. Thank you, Mr. Chairman, for this extreme 
courtesy.
    I thank Mr. Duncan for both his enthusiasm and his 
expectations.
    One of the questions I have been asking all nominees that 
come before this committee is--and I am always hoping for just 
a one-word answer. This committee turns out a lot of 
legislation, and it is because of the great working 
relationship between the majority and the minority.
    If confirmed, will you pledge to cooperate in this type of 
a working relationship with all Senators on the committee, 
Democrat or Republican, by promptly responding to any written 
or phone inquiry, sharing information as soon as it becomes 
available, and directing your staff to do the same?
    Mr. Duncan. Absolutely.
    Senator Enzi. Thank you.
    And finally, if confirmed, do you agree that regulations 
promulgated under your authority should be based on legislative 
authority?
    Mr. Duncan. Yes.
    [Laughter.]
    Senator Enzi. Thank you.
    I do have some questions that I would ask about rural 
education, about the Federal Family Education Loan and about 
preschool programs. I would mention that 12 years ago, I think, 
we had 115 preschool programs. We are down to 69 preschool 
programs. We keep trying to make the ones that are authorized 
more effective and better funded, and I hope you will 
participate in that process.
    We know that a lot of IDEA kids are faced with an uncertain 
future once they leave high school, and we will be interested 
in your approaches to that along with greater alignment of high 
school graduation requirements so that high school students 
meet with college entry requirements, as you have done in 
Chicago.
    I am very impressed with your presentation, and I thank you 
for your willingness to take on this job. I will be submitting 
questions in writing.
    Thank you, Mr. Chairman.
    Senator Harkin. Thank you, Senator Enzi.
    Mr. Duncan, back in the 1980s, then-President Reagan had 
asked a group of business people to set up a committee to look 
at education in the United States and to look at it from the 
hard-headed business standpoint, not the sort of soft-sided 
social sciences type of standpoint, as to what was needed in 
education.
    This group met, Jim Renier, I think, was the head of it. He 
was the head of Honeywell at the time. Then it spilled over 
into the first President Bush's administration.
    I remember the first report came out. If I am not mistaken, 
it was 1989. I had assumed the chairmanship of the 
Appropriations Committee on Education at that time, and he 
delivered a copy to my office.
    Now I had never met Mr. Renier, a very successful 
businessman, and he wanted to deliver the report. He wanted to 
point to the executive summary. The executive summary of this 
2- or 3-year involvement of all these business leaders was 
summed up thusly.
    ``We must understand that education begins at birth, and 
the preparation for education begins before birth.''
    They got it. This was in the 1980s. As we discussed then 
and later on that so many of these kids come to school, they 
have had terrible diets. They have had a television as a 
babysitter for 4 years. They have come from really tough homes 
and tough neighborhoods, as you have pointed out. Maybe they 
don't have parents who read to them and take care of them, love 
them a lot.
    They come to school, and we try to patch and fix and mend. 
A lot of times during those early formative years, as you know, 
is when the brain really develops. That is when learning really 
starts. Yet so many of these kids, we get them in kindergarten 
maybe, or if there isn't a kindergarten, first grade, and we 
have a tough time.
    It has not been really the purview of the Department of 
Education in this area. That has sort of been over with the 
Department of Health and Human Services. Somehow, we have got 
to break this down. The two of you have got to get together.
    We have got to get this melded so that we really focus on 
that early childhood education, whether it is Early Head Start, 
Head Start programs--how that is melded into education. 
Somehow, we have to make sure that every child comes to school 
ready and able to learn.
    Any thoughts that you might have on that, I would 
appreciate.
    Mr. Duncan. I just echo your sentiments. I think there is 
nothing more important we can do than get our children off to a 
great start in their life. As you said, we have children--we 
see it all the time--who are in kindergarten, who have been 
read to, who come to school absolutely fluent in reading. And 
you have other children, tragically, that don't know the front 
of a book from the back of a book.
    How are even the best kindergarten teachers supposed to 
handle that great spread in their classroom? It is very, very 
difficult.
    The best thing we can do is to get to our children as young 
as possible to give them the highest quality of programs, to 
make sure what we are doing, frankly, isn't just babysitting 
and glorified babysitting, but really getting those early 
literacy skills, those early socialization skills intact so 
that children enter kindergarten ready to learn and ready to 
read.
    I absolutely commit to working in partnership with Senator 
Daschle and with the HHS team in trying to do something 
dramatically better for the country around early childhood. We 
need to increase access. We need to increase quality, and we 
need to make sure that we are getting to our children as young 
as we can.
    This is a better investment than all of the money we spend 
in prisons down the road. Whether it is from an economic 
standpoint, whether it is from a human-potential standpoint, 
this is the right thing to do, and I will commit to do whatever 
I can to work in partnership with him and with HHS to do 
something dramatically better for children.
    Senator Harkin. I am glad to hear that. We have just got to 
somehow break this thing down and get these two together in how 
we focus education on these young kids.
    I will be, as a member of this committee, but also as the 
chairman of the Appropriations Committee, looking for 
suggestions and advice from you on how we might do that, and 
also from Senator Daschle and, of course, the President. I want 
the President involved in this.
    Mr. Duncan. Well, as you know, the President has talked 
about setting up this early learning commission, this early 
childhood commission, which I think is very important. I think 
we have to look at this not as leaders of bureaucracies, but 
just practically: What is right for children?
    Whatever is right for children, we just need to get it 
done. I want to bring that spirit to this work.
    Senator Harkin. I appreciate that very much. Thank you, Mr. 
Duncan.
    Now I will yield to Senator Alexander.
    Senator Alexander. Thanks, Mr. Chairman. Thanks very much.
    This brings back memories for me, Mr. Duncan. Eighteen 
years ago, I came before this committee sitting in your place, 
my family behind me. I was very innocent, and I nearly got my 
head taken off by the Democratic majority, which included 
Senator Kennedy, Senator Harkin, and a number of others.
    We later developed a very good relationship.
    Senator Mikulski. Aww.
    [Laughter.]
    Senator Alexander. That toughened me up, Barbara.
    That is not going to happen to you, and it is not just 
because you are a Democratic nominee before a Democratic 
majority. President-elect Obama has made several distinguished 
Cabinet appointments. From my view of it all, I think you are 
the best.
    I hope I still think that a year from now, but that is 
clearly my view today. I am very impressed by what you have 
been able to accomplish and what you have been able to do.
    As I mentioned to you, you will find your Cabinet seat is 
at the end of the table. You are at the bottom of the line of 
succession. If the country wakes up and finds you reassuring it 
that everything is all right, that means everything is really 
in trouble.
    Mr. Duncan. We are in big trouble.
    Senator Alexander. We are in big trouble by the time we get 
there, but I am very impressed by what you have been able to 
accomplish.
    I hope we can talk more about standards and whether they 
should be--there is a difference between national and Federal 
standards, standards imposed from Washington. I hope we can 
talk more about--and Senator Mikulski and I have had several 
conversations about this--whether our well-meaning rules and 
regulations about higher education in some cases actually 
interfere with cost and quality. I hope we can talk more about 
that.
    I hope you will use the--as you follow up on Senator 
Harkin's suggestion--the new Head Start approval included 
centers of excellence, which governors may pick in their States 
to try to use the large amount of Federal money already 
appropriated for early childhood in a coordinated way and show 
good examples.
    The two areas I would like to hear from you about are ones 
that after a long time of looking at education come--seem to me 
is the most important. It seems to me that parents are first, 
and teachers and principals are second, and everything else is 
about 5 percent. It is very hard to pass a better parents law.
    How are you going to be able, using the Teacher Incentive 
Fund or other ideas, to help the country do more of what you 
did in Chicago to reward outstanding teaching? And second, how 
are you going to be able to help persuade the country that 
public charter schools are basically places to give those 
outstanding teachers a chance to use their common sense to help 
the children that have been delivered to them to help succeed?
    Mr. Duncan. Those are great questions, and I look forward 
to spending a lot more time with you, Senator. I learned a lot 
just in our brief conversation last week and look forward to 
continuing to pick your brain regarding some ideas.
    In the education business, talent matters tremendously. We 
can have the best curriculum. We can have the best technology. 
We can have a great facility. If we don't have great teachers 
in every classroom, the rest of it just isn't as important.
    Whatever we can do to, again, support great teaching, 
recognize it, reward it, grow it, that is the most important 
thing we can do. Leadership matters. It is a cliche. Any good 
school in Chicago, and I would venture to say across the 
country, any good school we see, there is a good principal 
there.
    It is much harder to build a good school than it is to tear 
it down. I have seen great principals build a school over a 
decade, and 6 months after they are gone, if you don't have the 
right succession plan in place, that school is a disaster. So 
we are in the talent business.
    One of the best things I think Secretary Spellings has 
done--and I have learned a lot from her, and she was a great 
partner to us in Chicago--was the Teacher Incentive Fund, that 
we were able to use to recognize and reward excellence in some 
of the toughest communities of Chicago.
    This has been done in partnership with the union. This has 
been led by a group of great teachers. I have a teacher 
advisory council that I work with every single year. They 
shaped this program. They built it, and we thought we had some 
great ideas. We got a very significant grant from the 
Department of Education. We wondered if anyone would be 
interested. We had 120 schools show interest.
    The more we can reward excellence, the more we can incent 
excellence, the more we can get our best teachers to work in 
those hard to staff schools and communities, the better our 
students are going to do. I plan on spending a lot of time 
thinking about how we continue to innovate and how we continue 
to incent great talent to come into teaching and then keep that 
great talent once it is there.
    Second, obviously, I have been a strong supporter of 
charter schools, and I will just take a brief second why I 
think that is important for us.
    First, we have been very, very strict about who we allow to 
open a school. This has not been ``let a thousand flowers 
bloom.'' We have had a very rigorous front-end process before 
we allow a group to open a school. We turn down many more 
applicants than we actually select. We only want the best doing 
this work.
    Once we approve a group, we give them significant autonomy, 
and we want to free them from the bureaucracy and give them a 
chance to innovate. We also have a 5-year performance contract 
and clear accountability, and I think that combination of 
autonomy and accountability is very, very powerful. One without 
the other, and I think the balance gets a little bit out of 
whack.
    Ultimately, what I say is that these are our children. 
These are our tax dollars. If you ask any second or third 
grader, they don't know whether they are going to a traditional 
school or a magnet school or a gifted school or a charter 
school. A third grader, all they know is does my teacher care 
about me? Does the principal care about me? Are they working 
hard?
    The more we create great schools of any form or fashion, 
the better our children are going to do. We have to improve 
dramatically.
    Our dropout rate is unacceptably high in Chicago. It is 
unacceptably high around the country. We have to continue to 
build upon what works, do a lot more of it. Things that aren't 
working, we have to have the courage to challenge the status 
quo.
    Senator Alexander. Thank you, Mr. Chairman.
    Thank you, Mr. Duncan.
    Senator Harkin. Thank you, Senator Alexander.
    As I said, Mr. Duncan, you can see we have a lot of 
expertise on this committee. Another one who is also an expert 
in education, Senator Mikulski.
    Senator Mikulski. Thank you, Senator Harkin.
    Good morning, Mr. Duncan, and to your family and to John 
Rogers as well.
    I certainly enjoyed our conversation together, and based on 
that and reviewing your record, it will be my intention to 
support you for confirmation. I think you are a high-altitude, 
high-achieving guy, and I think you will absolutely lead our 
Department of Education.
    I want to thank you for agreeing to serve. You have a great 
momentum going in Chicago, and your family is well established. 
Your children are in grade school. We know that with you coming 
to Washington, you are essentially going to be going through 
the same things that our first family is.
    I want to thank Karen for being willing to sign up and suit 
up as well and your girls for being willing to do this.
    The others, I want to acknowledge the presence of Mr. John 
Rogers, the founder and chairman and executive leader of Ariel 
Mutual Fund, your best friend, as you said. Mr. Rogers, would 
you stand up? I would like the committee just to note your 
presence.
    Mr. Rogers is a real financial entrepreneur, started a 
mutual fund, and made, by all Morningstar ratings, one of the 
most solid mutual funds in America. While he has been involved 
in financial investments, he also put his money into social 
investments.
    Mr. Rogers, I want to thank you and hope this friendship is 
sustained. He is going to need all of the pals he can get. The 
Obamas are getting a dog. You get one, too.
    [Laughter.]
    Mr. Duncan. We got a cat.
    Senator Mikulski. Mr. Rogers, I am not saying this to 
flatter you. Really, if more Wall Street guys had spent time on 
Main Street the way you had, I think both Wall Street and Main 
Street would have been better off.
    Now, Mr. Duncan, you talked about our conversation with the 
``Obama effect.'' I would like to follow that up in my 
questions with you related to teachers. Let me say this to my 
colleagues.
    One week from now, we will be heading to the platform for 
the inauguration of President-elect Obama. America will then 
see what I think it is already experiencing, three things. The 
Obama family itself--our President-elect, our first lady, the 
Obama girls.
    What they are seeing is a wonderful family, where the 
family is intact. The family relates to each other. There is a 
strong mother, a strong father, and all the wonderful things 
they do. I think that is going to create its own effect.
    There is the Obama administration that wants to put the 
hopes and dreams of the people who voted for this new President 
into action. That is your job. What we all have a chance to do, 
all of us, including the Congress, is to harvest the Obama 
effect.
    I believe that there is a new spirit in the country, that 
people want to serve. Not only do they want to sign up for 
public service and come to work in Government or in teaching or 
in my field, social work, or whatever. They want to be involved 
and make a difference.
    What we are seeing is teachers are re-invigorated like they 
have never been. Young people want to come in to public 
service. What we are seeing is even with students in my own 
hometown of Baltimore for a summer math program, instead of 10 
kids, over 100 showed up, and more on a waiting list. They 
actually came even wearing Obama buttons.
    This gifted Maryland Teacher of the Year, when she said to 
this little boy, ``What do you want to be? '' And he said, 
``Smart.'' She felt she had to leave the room, that in her 25 
years in Baltimore public schools, no kid had ever said, ``I 
want to be smart.''
    This is what is out there in America, and this is what I 
hope that we can achieve. That is what I mean by the Obama 
effect, where we can really make a difference.
    Now this takes me to teachers. Every school reform begins 
at finger-pointing teachers. Teachers are the first in line to 
be blamed, and they are first in time to be regulated. If the 
Security Exchange had regulated Wall Street the way we regulate 
teachers, we wouldn't be in this financial mess.
    Now, my question is, given the Obama effect, how do you see 
recruiting and retaining and retooling our teachers because 
they are the front line in the classroom?
    Mr. Duncan. One of the biggest reasons for our success in 
Chicago has not been anything that I have done. It has been the 
extraordinary hard work of teachers and what they are doing 
every single day. I think there is this groundswell of young 
folks who are committed, who are passionate and want to make a 
difference.
    We have an extraordinary opportunity, and frankly, given 
the tough economic times, that actually helps our chances of 
recruiting great, great talent to come into the teaching 
profession.
    I intend to take some of the lessons that we learned going 
from 2 to 10 applicants for each teaching position in Chicago. 
I want to take some of those lessons, travel the country, and 
get the best and brightest from our universities around the 
country to come into teaching.
    We have a generational change. We have a baby boomer 
generation that is moving toward retirement. We are going to 
see significant turnover, and we have a chance to bring in just 
an extraordinary generation of talented folks into teaching.
    I look forward to that. I am excited by that opportunity, 
and again----
    Senator Mikulski. How will you retain them? Because what we 
observe in Maryland is many of our most talented leave after 3 
years.
    Mr. Duncan. Yes. You need great mentoring programs. You 
need great support. What you find, unfortunately, is some young 
people who are idealistic and come into it for all the right 
reasons. They don't feel listened to. They don't feel 
supported. They struggle with classroom management skills. And 
guess what? Two or 3 years later, they leave.
    We know teaching is an art. It is not a science. Your best 
teachers don't get there until 10, 15 years into the 
profession. We have to retain those great teachers.
    How do you do that? You do it through great mentoring 
induction programs. You do it through clear career ladders so 
they can see a way to grow and continue to improve their 
skills. You do it by training principals to really support 
those buildings.
    I view principals as CEOs. They have to manage their team. 
They have to create a climate where folks want to work. Where 
you see great leadership from the principal's seat, you see 
real stability within their workforce.
    Great mentoring induction programs, particularly in those 
early years, are absolutely critical for helping those young 
teachers be successful. Any first-year teacher, the best first-
year teacher in the world, is going to struggle. This is 
extraordinarily hard work.
    We have to help our great teachers get through those tough 
times and get through those nights when they go home crying, 
thinking, ``I am never going to be any good at this,'' and get 
them over the hump and give them a chance to be successful 
long-term.
    Senator Mikulski. Well, thank you. My time is up.
    Mr. Chairman, if I could just ask Mr. Duncan to do one more 
thing? It doesn't require an answer.
    Senator Alexander talked about higher ed regs, but I want 
to talk about Congress. We tend to look at things in a boutique 
way. We love to pass lots of legislation, where we either look 
for single solutions or silver bullets.
    Could you work with us to identify those things where it is 
too many good-old micro line-item programs, and we can then 
work with you and get real bang for the buck and harvest this 
Obama effect?
    Mr. Duncan. I appreciate that. We have to be focused. We 
can't be all things to all people. We have got to try and be 
world class and work extraordinarily hard in a couple of high-
leverage activities. That is what I want to do.
    Senator Mikulski. Go Obama.
    [Laughter.]
    Senator Harkin. Thank you very much.
    Next would be Senator Roberts. But Senator Murray has to 
leave, and Senator Roberts has graciously ceded to Senator 
Murray for this round of questions.
    Senator Murray. Thank you so much for your accommodation. 
Thank you, Mr. Chairman. I have to go replace another chairman 
who is doing an oversight hearing as well.
    Mr. Duncan, thank you so much for agreeing to do this 
tremendously important job, and for the sacrifice of your 
family as well. I saw your wife shaking her head at the dog. 
Just so you know, it is not going to happen back there.
    Mr. Duncan. I am well aware.
    [Laughter.]
    Senator Murray. I really appreciate it. It is tremendously 
important that we have somebody at the head of this agency who 
is really going to tackle a lot of issues to get this country 
back on track.
    I think education is no doubt one of the most important 
issues that we have to tackle with this new Congress and 
administration. As a former educator myself, it is very near 
and dear to my heart.
    In this time of economic turmoil, I can think of no better 
way to improve our economy and maintain that competitive edge 
for the coming decades than investment in skills for our 
students today to make sure they can secure good jobs tomorrow.
    We want to create a new green energy economy. We want to 
have a strong healthcare system. We need mechanics and laborers 
who have the ability to weld and those kinds of skills, too. We 
have a lack of people today with the skills to fill high-skill 
jobs.
    When I travel around my State, business leaders, local 
community leaders tell me, ``We have job openings. We have 
people who are unemployed. We don't have the skill set matches 
to make sure the unemployed have those jobs.''
    Making sure that we empower our local communities to 
provide a pathway for all of our students to the careers of 
tomorrow is extremely important. I will be introducing 
legislation this year to bring those communities and employers 
and schools together to help provide those pathways for our 
students to succeed.
    I wanted to ask you this morning how you think, as 
Secretary of Education, you can help our communities identify 
and create ways for all of our young people today to get the 
skills they are going to need tomorrow?
    Mr. Duncan. There has been a disconnect between educators 
and the business community. I think we should really work hand-
in-hand. As you said, there are jobs that are going unfilled 
because we are not preparing students, and yet we struggle with 
unemployment rates.
    We need to think more about a host of skills--nursing being 
one--that are never going to be exported, that are never going 
to go overseas, where people can come out of high school and 
get some additional training and be extraordinarily successful.
    Community by community, city by city, State by State, we 
need to really be working in partnership in helping to prepare 
our students for 21st century skills. I think we have a moral 
obligation to do that. We have a huge opportunity to do that.
    We need to think about apprenticeship programs and 
internships and giving our students a chance to get a sense for 
why this work is so important and the opportunities they have. 
Some of our young people don't live in communities where many 
people are working. It is hard for them to even imagine what 
that looks like.
    By working in partnership with the business community, by 
listening, by creating better educational opportunities and 
really exposing our students to the opportunities that are 
available, we can do a lot better.
    Senator Murray. Well, I appreciate that. The mantra of the 
last 8 years has been No Child Left Behind. I would like to see 
that changed so that every child has the skill we need.
    Mr. Duncan. Yes.
    Senator Murray. I hope that we can work on that together.
    My colleagues had a chance to talk to you about early 
childhood education, an issue near and dear to my heart. I hope 
that you and the Secretary of HHS can break down some of those 
barriers and work together on Head Start and early childhood 
education as well. I assume you will do that.
    In just the minute I have left, I did want to mention, Mr. 
Chairman, that we have had several issues requiring the 
oversight of our Federal student loan program over the past 
Administration. Hundreds of millions of dollars in subsidies 
were improperly paid to some of our lenders.
    Today, community college students are struggling to get 
loans at a time when we need them to be getting good skills. We 
see the credit crunch affecting this. It will require a lot of 
strong oversight from you.
    In my last few seconds here, if you could comment on that 
because I am extremely concerned about it?
    Mr. Duncan. As am I. I want to commend this group here in 
Congress and Secretary Spellings for working to shore up some 
of those challenges. We need to view all of these issues 
through the lens of what is right for our students, who are 
trying to improve and trying to go to the next level. That is 
how I am going to view this.
    We need to expand access. We need to expand affordability 
and to create more opportunities for students. This is an area 
where I want to spend a lot of time and attention.
    One thing that hasn't come up that is just a real basic 
thing I want to try and work on early is the actual form, the 
financial aid form for going on to college, the FAFSA form. I 
don't know if any of you have completed one lately, but you 
basically have to have a Ph.D. to figure that thing out. In and 
of itself, it is a huge barrier.
    Think about all of our children who are first generation or 
ELL students, and who are trying to do well and succeed: the 
form itself is a hindrance.
    Impediments like that--anything that isn't working in the 
best interests of our students who are desperately trying to go 
on to some form of higher education--community colleges, 2-year 
colleges, 4-year universities, whatever it might be--we have to 
be smart and pragmatic and thoughtful in trying to remove those 
barriers.
    Senator Murray. Well, thank you very much. Thank you for 
the conversations we have had, and I do look forward to working 
with you as the head of this critical agency.
    Senator Roberts, Senator Harkin, thank you so much for your 
accommodation.
    Senator Harkin. Thank you, Senator Murray.
    Senator Roberts.
    Senator Roberts. I thank you, Senator Murray, and Boeing 
forever. A little inside comment there, Mr. Duncan.
    I don't ride with the expert education posse. I simply read 
to kids. I used to be a classroom teacher before Senator 
Alexander got his head taken off by Senator Harkin, which he is 
pretty good at doing that on occasion, and usually it works 
pretty well.
    At any rate, thank you for coming by my office. Thanks for 
the very good, good, good visit. I think you have made an 
excellent statement. You are making an excellent impression. I 
think you are going to come through with flying colors.
    I have three questions, and the answer to the three are 
yes. So we can get done real fast.
    [Laughter.]
    Impact Aid is based on enrollment figures from 2 years ago. 
Then we have the BRAC. We have several Impact Aid areas in 
Kansas due to Fort Riley and Fort Leavenworth. We need to 
address this issue to make sure that our schools are up to date 
and adequate with large increases in student enrollment. I know 
you will do that, right?
    Mr. Duncan. Yes, sir.
    Senator Roberts. Science and math competency is 
increasingly essential to this country. We had a science and 
math program in one of the bills we passed last year. All of 
the committee supports that not only because of the global 
economy, but because of national security.
    I know that you are a strong supporter on what needs to be 
done to encourage students to pursue studies in math, science, 
and technology, right?
    Mr. Duncan. Yes, sir.
    Senator Roberts. Now here is the one that if there are any 
cameras, they will start clicking.
    [Laughter.]
    They don't click at me, but they will click at you. It is a 
funny thing. You will sit there like this, and you will say 
something terribly important, and obviously, they won't take 
your picture. If you raise your hand like this or point or 
maybe pound a fist like that----
    [Laughter.]
    Yes, OK, get ready, guys. Because this is the biggie. This 
is the biggest unfunded mandate that the U.S. Congress has 
foisted on the American public and the American school system 
ever since conceived.
    Thirty years ago, we promised that we would pay 40 percent 
of the excess cost of educating a special needs youngster, 
IDEA--40 percent. Now we are nowhere near--I think it is 14 
percent now, Mr. Chairman. I don't know.
    Senator Harkin. Sixteen.
    Senator Roberts. Sixteen. Well, it is 16 in Iowa. It is 
only 14 in Kansas. At any rate----
    [Laughter.]
    That needs to be changed. I think Senator Harkin, Senator 
Hagel, and myself were the three musketeers who voted for full 
funding, full funding for IDEA. Think of what would happen to 
the school districts all throughout Illinois or Kansas or Iowa 
or Oklahoma or wherever, if, in fact, we paid that, which is 
simply an unfunded mandate.
    It is a good program. On the other hand, if you had a 
school that is really doing its job and they are doing a great 
job with the special need kids, under No Child Left Behind, you 
don't measure growth, all of a sudden you can be penalized. We 
talked about that.
    I guess my question to you is or my statement to you is, 
please, help us to do everything we can to get that funding up 
to 40 percent. As far as I am concerned, it ought to be fully 
funded. I am sure you will do that, right?
    Mr. Duncan. I appreciate your tremendous commitment here, 
and I can just say I have lived on the other end of the 
unfunded mandate to the tune--
    Senator Roberts. Wave your arms so they can take a picture.
    [Laughter.]
    No, that is surrender.
    [Laughter.]
    That is what the French do. We don't do that. You know, 
give it a chop. There, like that. Come on, guys. OK.
    Mr. Duncan. I have lived on the other side of the unfunded 
mandate to a tune of about $250 million. So I know. I have 
lived how tough the flip side of that is.
    Though you didn't ask about it, I just want to commend you 
on the reading to children that you do here. I think it is the 
Everyone Wins! program that you and a few other Senators 
participate in, which I think is something that would be great 
for me and my team to do to really stay connected to kids in 
classrooms. I look forward to learning more about that and 
perhaps joining you in that program.
    Senator Roberts. Well, you made a commitment to come out to 
Kansas City or actually to real Kansas, which is west of there, 
and read to kids, which I do a lot. It is the Reading Is 
Fundamental program. It has been around for about 35 years. 
Then we had the first lady, Laura Bush, come out and read to 
our youngsters.
    I only read to second and third graders. You can take the 
fourth graders. They are a little too sharp for me.
    Mr. Duncan. Stick to your sweet spot.
    Senator Roberts. That is a good comment.
    [Laughter.]
    Tom, write that down for me.
    All right. Do you know why those teachers left after 2 
years that Senator Mikulski was talking about? It is called 
money. It is called raising a family.
    Now if you are not married, if you are a single teacher, 
OK. It is called money. We talked about opening up the back 
door to education, to people who have had experience in 
business and the military, whatever. I know that there is all 
the rigmarole that you have to go through to get there from 
here to become eligible for whatever criteria each State has.
    The one I love the best is the standard deviation test, 
which nobody uses because you can't have enough time to use the 
thing. I suppose it is helpful for somebody sitting there who 
dreamed it up, but anything we can do to help in regards to 
teacher pay. I don't expect you to have any sudden answers to 
that.
    That has been a real problem, except for IDEA. If we could 
fund IDEA, guess what would happen? All sorts of good things 
would happen.
    I am done. Thank you.
    Mr. Duncan. Thank you.
    Senator Harkin. Mr. Duncan, you have just observed what I 
have said many times, that Senator Roberts is a rarity here on 
the Hill. He is actually as funny as he thinks he is.
    [Laughter.]
    Senator Reed.
    Senator Reed. Well, thank you very much, Mr. Chairman.
    Welcome, Mr. Duncan.
    Mr. Duncan. Thank you.
    Senator Reed. I think the President has made a very wise 
choice. Your experience and your commitment is obvious, and I 
think you will make a real difference in the Department of 
Education. I welcome your appointment very, very much. Welcome 
to your family.
    I think it is significant that so much of what we have all 
talked about--Senator Alexander, Senator Mikulski, Senator 
Murray--has been teacher preparation, teacher retention. As we 
discussed in our meeting, and I absolutely agree with you, that 
that is probably the key, the key point of leverage in any 
education system.
    Last year, in Title II, the Higher Education Act, we tried 
to focus on the preparation of teachers, trying to induce 
education schools to provide a clinical experience, trying to 
have a plan for mentoring and continuity afterwards. That is 
the law. I would hope you would be able to tell us you are 
going to put your shoulder behind the law and money behind it 
to make these provisions in title II very effective and real in 
the process.
    Mr. Duncan. We need to work with higher education to really 
make sure, as you said, that teachers are being very well 
prepared for the practical reality. And yes, you need the 
pedagogical skills. Yes, you need the theory and the 
philosophy. You need to be in classrooms working with children 
and getting used to that.
    There is one university that we have worked with back home, 
Illinois State, that actually has students spending 6 months in 
the communities with us. We have actually sort of created a 
dorm-like setting in Little Village, a Hispanic community in 
Chicago, where students live for 6 months, become part of the 
community, part of the culture, and teach in classrooms. That 
kind of thinking outside of the box, I think, is extraordinary.
    There are teacher residency programs. I think there is 
great talent that, frankly, doesn't come through higher 
education or through schools of education. We have done a lot 
around alternatively certified teachers. We have brought 1,200 
alternatively certified teachers in.
    We have, again, a wealth of talent and commitment and 
interest around this country, and the more we can harness that 
and bring it into our classrooms, there are only benefits for 
our children by doing that well.
    Senator Reed. Well, again, I hope you can harness those 
practical experiences you have to the title II legislation and 
really provide the kind of movement on this mentoring and 
induction problem.
    Mr. Duncan. Yes.
    Senator Reed. There is another area which complements this, 
and legislation that I was pleased to co-sponsor with the 
President-elect, the School Improvement Through Teacher Quality 
Act, which would provide a separate source of funding right to 
title I schools for this whole issue of mentoring not just the 
first- and second-year teachers, but the whole school 
community.
    Because I think, in addition to retaining teachers--we have 
focused on that--school improvement is a direct function of the 
ability to continually mentor and upgrade the skills of every 
teacher. Can you comment upon that? Can you support that 
initiative?
    Mr. Duncan. I just think the day we stop learning and 
growing is the day that we start to let our students down. 
Whether it is 2-year teachers, whether it is 5-year teachers, 
whether it is a 20-year veteran, we all have to continue to 
learn and grow and get better at what we do.
    I think that, philosophically, that is exactly the 
direction we have to go. What you see around the country is you 
see your best teachers continuing to improve their skills and 
get better. They set an extraordinary example, and we have to 
make that the norm and do everything we can to support those 
efforts.
    I talked earlier about these career ladders for teachers. 
How do you help teachers continue to grow and learn, take on 
additional leadership skills?
    Some great teachers want to become principals, and that is 
fantastic. Some great teachers want to teach for their 35-, 40-
year careers, and we need to really support them and enable 
them to have a high impact and great leadership as they 
progress throughout their career.
    Senator Reed. Well, thank you very much.
    Let me quickly switch gears in the remaining minute or so. 
At the higher education level, we have and I have been 
particularly active in supporting the LEAP program, Leveraging 
Education Assistance Partnership. It is, as the name implies, a 
grant program, a partnership between the State and the Federal 
Government.
    We try to incentivize the States to put money in to help 
low and moderate income students with financial assistance. 
This is part of the whole panoply of Pell Grants, Stafford 
Loans, assistance to people who need assistance, that have 
talent but need the resources to go to college.
    I would hope that you would not neglect this part, the LEAP 
program, that you could successfully incorporate it to 
complement these other efforts.
    Mr. Duncan. I just really appreciate your tremendous 
leadership on this issue. Again, we have to dramatically 
increase access and affordability for all students to go on to 
some form of higher education. I think that is what your work 
is about. That is what you are trying to accomplish.
    To conclude, I really appreciate your leadership and look 
forward to doing everything we can collectively to get more 
students, particularly students from poor communities and poor 
families, particularly first generation students, not just 
thinking about college, but graduating from high school. Those 
are the students that need these opportunities, and we have to 
do everything we can to support them and help them to be 
successful.
    Senator Reed. Well, thank you very much, and good luck. 
Thank you.
    Mr. Duncan. Thank you.
    Senator Harkin. Thank you, Senator Reed.
    Senator Coburn.
    Senator Coburn. Thank you, Mr. Chairman.
    Welcome. Probably the most important question that hasn't 
been asked is the rumor that you can beat Barack on the round 
ball court. Is that true?
    Mr. Duncan. We have a lot of fun together.
    Senator Coburn. That is what I thought.
    [Laughter.]
    He knows how to answer questions already, doesn't he?
    A couple of things, just specific. One of the problems that 
we are having today with special ed is a ruling that has come 
out of the Department of Education on the fabulous special ed 
teachers that we have, that not only do they have to be highly 
qualified in one area, they have to be highly qualified in 
every area in which they teach.
    In Oklahoma, we are experiencing, or we are about to 
experience, the loss of our best special ed teachers because if 
they don't have a master's degree in every area, they are no 
longer going to be eligible to teach those kids who need their 
skills. My hope is that you will help us solve this dilemma 
before we lose some of the greatest teachers we have throughout 
the country.
    A second point that I would make is--and I actually talked 
to President-elect Obama last night about your nomination and 
our conversation. One of the things that has given hope and 
promise for change in this country is his declaration that 
line-by-line reviews are going to take place in every agency.
    Government programs that aren't performing, that are 
wasteful, duplicative, or obsolete are going to be gone. Paying 
for commitments for new programs by eliminating the ones that 
aren't working, and rooting out redundancy, and the fact that 
every Federal contract above $25,000 is going to be 
competitively bid.
    Is it your intention to honor that as you work in the 
Department of Education?
    Mr. Duncan. I think our resources are desperately scarce, 
and I think as much as we want to fund more for education, we 
can never do enough. I think we have a moral obligation to use 
every dollar wisely.
    It is easy to start things. It is much harder to stop doing 
things, and we have struggled with that in Chicago. We want to 
do everything we can to get every scarce dollar to schools and 
communities and children that need them the most.
    Senator Coburn. You do plan on doing a line-by-line review 
within your department?
    Mr. Duncan. I will need a team to help me do that. I can't 
do it alone. Again, my focus is taking scarce resources and 
putting them into those high-leverage activities that are 
making the biggest difference. That is the only way we can----
    Senator Coburn. OK. I am trying to get you on record saying 
you are actually going to perform the review, as he promised 
that we would do, that we would do a review of the agencies.
    Mr. Duncan. I would be happy to. I need to. I have to 
perform a review to figure out what is working and what is not.
    Senator Coburn. OK. The only other question, I must say I 
have been very impressed with my conversation with you and the 
research that I have performed and your commitment not to an 
idea, but to our kids and the future of this country.
    One of the things that the President-elect and I did was 
the Transparency and Accountability Act. He is going to work 
hard to make it happen, but I am going to ask you the question 
anyhow.
    Under that law, you are required, every agency in the 
Federal Government all the way down to the United Nations and 
our contributions, are required to report where the money goes, 
who gets it, the contracts, the subcontracts, the grantees, and 
the subgrantees. Will you assure this committee that you will 
enforce that within the Department of Education in compliance 
with that law?
    Mr. Duncan. Yes, absolutely. Again, that is simply how we 
have done business back in Chicago, that every contract above 
$25,000 is competitively bid and goes through the board. Again, 
we have this obligation to spend tight tax dollars absolutely 
as wisely and thoughtfully as we can.
    Senator Coburn. All right. Thank you.
    Mr. Chairman, I have no other questions.
    Senator Harkin. Thank you very much.
    I guess back and forth, but Senator Isakson goes next.
    Senator Isakson.
    Senator Isakson. Thank you very much, Mr. Chairman.
    First of all, I have been involved in education my entire 
public service career and never had a more enjoyable 
conversation with anyone than I had with you when we met the 
other day. I want to commend you on what you have accomplished.
    Although I did not hear your testimony because I am on 
Foreign Relations, and Mrs. Clinton is going through that 
confirmation today, if everything you said earlier before I got 
here is equal to what you said in my office, you are going to 
be a great Secretary of Education.
    Mr. Duncan. Thank you.
    Senator Isakson. Senator Coburn raised a question and then 
asked a second one. The first one never got asked, and I want 
to start with that. The highly qualified requirements of No 
Child Left Behind in practical application, particularly with 
regard to special needs, do not work.
    You and I talked about this in my office when we met, and I 
talked to you about alternative certification, which I learned 
is something you had an interest in as well. It is probably the 
only way we reach the demand of having enough teachers in the 
21st century to teach our children.
    Would you address that subject, particularly in regards to 
highly qualified and special ed?
    Mr. Duncan. Let me take both of them, and they are related. 
Obviously, as I stated earlier, I have been a big fan of 
alternative certification. Over the past 5 years, we have 
brought in 1,200 alternatively certified teachers. These are 
people with great skills and experiences--chemical engineers, 
biologists, physicists--who want to come work with our 
children.
    These are folks that historically were locked out of public 
education. Couldn't come teach our kids. We tried to break down 
those walls and give them an opportunity to make a difference 
with our students.
    In terms of looking at sort of the highly qualified rules 
for teachers, as we go into No Child Left Behind 
reauthorization, we need to really think again what is 
practical, what is right for teachers, what is right for 
students. Where things are working, we need to stick with them 
and stay the course. Where things are impractical or have had 
consequences that were maybe unintended, we should just be 
thoughtful and pragmatic and fix those things.
    Senator Isakson. I appreciate that recognition. You know, 
you will be under a lot of pressure, and I imagine we will, 
too, as members of the Senate and members of the House, to 
dismantle parts of No Child Left Behind. I think it is 
important to recognize that it has achieved its stated purpose, 
which is improving or lowering the gap between those who are 
inner-city poor title I kids, rural poor kids and the best 
achieving, and that in math and reading comprehension they are 
improving.
    I will acknowledge there is some work that needs to be done 
to improve it, and two other areas I want to mention real 
quickly. One is the assessment of special needs kids. It is 
very difficult to have a one-size-fits-all paper and pencil 
assessment vehicle for special needs children, who have a 
multiplicity of problems all individual and unique to 
themselves.
    I have long advocated letting the IEP, which is the 
individual education program that the parent and the teacher 
come together every year and decide on, to be the determining 
factor for what the assessment of a special needs child is, and 
I would appreciate your response to that.
    Mr. Duncan. I appreciate your thoughtfulness. Senator 
Harkin and I had a lengthy conversation about this. I really 
tend to agree with you. I think we need just to be thoughtful 
and pragmatic about this, and to have a one-size-fits-all 
mentality doesn't make sense in this category.
    If you look at the ELL population as well, you want to have 
assessments that accurately assess students' abilities. If you 
give any child an assessment that they can't read or can't 
comprehend, what benefit is that to the child? What are we, as 
adults, learning from that? Probably more importantly, what 
lessons or what messages are we sending to children?
    Working with teachers, working with parents, working with 
school psychologists or social workers, working with whomever 
else might be engaged, we can be thoughtful and figure this out 
at a local level.
    Senator Isakson. I think I have got enough time for one 
more question that begs an answer of some distance probably. 
One of the other major issues is the issue of AYP, and one 
disaggregated group failing to meet AYP and an entire school 
becoming ``needs improvement'' when, in fact, by and large, it 
is achieving at very satisfactory rates.
    Oftentimes--particularly in rural systems, but also in 
urban systems--it is the disaggregated special needs group that 
will cause that to happen. You and I discussed the growth model 
or disaggregated circumstances or some way to bridge from ``not 
achieving'' before you go into ``needs improvement.'' Would you 
address that subject?
    Mr. Duncan. Yes, and what I really do respect about what 
has happened in the past is that we now have to disaggregate 
data. We have to look at subgroups. We can't hide behind the 
aggregate and sweep children under the rug who historically 
have not been, frankly, served well. I think that is very, very 
important.
    Having said that, to label a school itself as a failure, an 
entire school, because one child and one subgroup didn't hit a 
mark or didn't hit a bar, to me, represents a lack of pragmatic 
logic.
    If individual children need additional support and 
additional tutoring, let us do that. Let us make sure the 
medicine fits what is going on there. Let us not take too blunt 
an instrument to an entire school or to a school community 
where that doesn't make sense.
    I am a big fan of the growth model. I am really interested 
in how much students are learning and gaining and growing each 
year. The best teachers in the world take kids who are very far 
behind and accelerate their rate of growth. They may not hit an 
absolute target that year, but those teachers are not failures. 
In fact, they are actually heroes.
    Again, I want to find those students, and just take one 
quick moment on this because this is important. If the average 
child, let us say, is gaining 1 year's growth in math or 
English for a year's instruction. If, in a given classroom, and 
we see this throughout the country, we have students gaining 
1.7 years, 2 years of growth for a year's instruction, those 
teachers are doing a Herculean job, and we need to recognize 
that. We need to reward that. We need to incent that.
    Senator Isakson. Well, my time is up. I will just comment, 
the biggest challenge our teachers face in America is the 
discipline challenge with students in the classroom. To you and 
your wife, who have done such a great job with Ryan, who is so 
well behaved, I hope you can do that with every child in 
America's classrooms.
    [Laughter.]
    Mr. Duncan. They are on their best behavior today.
    Senator Harkin. Thank you, Senator Isakson.
    Senator Sanders.
    Senator Sanders. Thank you, Senator Harkin.
    Mr. Duncan, thanks so much for coming in the other day. 
Enjoyed our conversation. And thanks for the work you have done 
in Chicago.
    Let me start off by making this point and asking you to 
comment on it. We talk a lot about wasting money in Government, 
and one of the ways we waste money is by not putting funds into 
prevention, allowing situations to deteriorate, whether it is 
in healthcare and education or many other areas.
    In America today, Mr. Duncan, as you probably know, 18 
percent of our children live in poverty. That is, by far, the 
highest rate of poverty for children of any major country on 
Earth. Meanwhile, the other side of that equation is we have 
more people in jail than any country on Earth, including China. 
Amazing fact.
    In your judgment, is there a correlation between the high 
rate of childhood poverty and the fact that so many kids drop 
out of school, intellectually drop out by the time they are 8? 
Do drugs, do crime, do self-destructive activity. We end up 
spending $50,000 a year keeping them in jail rather than 
investing in education, rather than investing in childcare.
    Part of that question, what are you going to do to deal 
with the disaster in terms of childcare and early childhood 
education so that in Vermont and all over this country, working 
families today at the most important moment in a child's life 
cannot find high-quality, affordable childcare?
    Mr. Duncan. Well, as the President-elect has talked about 
repeatedly, and he has a huge passion and commitment around 
this, he totally understands, totally gets the fact that the 
best thing we can do for children is give them access to high-
quality early childhood programs.
    The more we are getting to our young children before they 
hit kindergarten, the more this is not glorified babysitting, 
but really getting their early literacy skills, their early 
socialization skills intact, so they hit kindergarten ready to 
read and ready to learn, the better our students are going to 
do.
    As a country, if we can invest more in education and less 
in jail cells, I think that is absolutely what we all have to 
be thinking about.
    Senator Sanders. Specifically with regard to childcare, do 
you agree that our current early childhood education situation 
is totally inadequate? What can you tell us will happen in the 
next 4 years?
    Mr. Duncan. Well, again, as the President-elect has said 
repeatedly, he wants to increase not just the quality, but also 
access to early childhood education. I will tell you in Chicago 
we have each year increased by 1,000 to 1,500 seats the number 
of children able to go into high-quality programs for 3- and 4-
year-olds.
    The President has, from day one, reiterated his tremendous 
commitment to improving both the quality and the access around 
the country.
    Senator Sanders. Would you agree that our goal should be 
that every parent in this country should be able to find access 
to high-quality, affordable childcare?
    Mr. Duncan. I think we have to move toward that opportunity 
for universal access. Again, the more we are getting to our 
children early, the better they are going to do.
    Senator Sanders. In terms of prevention and protecting 
people's well being and saving money--I know Senator Harkin has 
been a leader on this. In terms of healthcare, primary 
healthcare, I know in Vermont, we are beginning to have a 
little bit of success with dental facilities in schools, 
healthcare facilities.
    Does the idea of bringing healthcare into the schools so 
that we can detect kids' problems early on make sense to you?
    Mr. Duncan. This is a larger point, and I touched upon it 
earlier in my statement. I think the more our schools become 
community centers, the more they become centers of community 
and family life, the better our children can do.
    The days in which schools are open 6 hours a day, and the 
child goes home for a peanut butter and jelly sandwich at 2:30 
p.m. with mom at home--that doesn't work for two-parent working 
families. That doesn't work for single moms working two or 
three jobs. That doesn't work for, in Chicago, 9,000 homeless 
children.
    Senator Sanders. It certainly doesn't work in Vermont. The 
world has changed, and we have not recognized that anymore.
    Mr. Duncan. The more we are creative in thinking about how 
our schools are open not 6 hours, but 12 hours and Saturdays 
and over the summer, the more we are co-locating services--GED, 
ESL, healthcare clinics--the more those schools become the 
centers of community life, the better our children are going to 
do.
    Senator Sanders. Now I know that President-elect Obama has 
been very strong on this issue, as I am, and I am sure many 
other members of this committee are. That is the concept of 
expanded education.
    To make it clear that after-school programs should be 
available, that Saturday programs should be available, that 
summer programs should be available so kids, especially lower 
income kids, don't lose what they have learned. Does that make 
sense to you?
    Mr. Duncan. It has been a huge fight and passion of mine in 
Chicago. Many of the opportunities I had going to a great 
private school in Chicago--the things that were the norm for 
me, a chance to experience arts enrichment or cultural 
enrichment or debate or model U.N. or chess--are somehow seen 
as extra, not important for public school children.
    We have fought very, very hard to dramatically increase--
whether it is during the school day or, again, during the 
nonschool hours--opportunities for every child to develop their 
skills, to develop their unique interests and talent, and give 
them reason to be motivated to come to school every single day.
    Maybe it is the chess team. Maybe it is debate. Maybe it is 
yearbook. We want every child to have those kinds of 
opportunities to grow their unique skills and interests.
    Senator Sanders. Well, Mr. Duncan, I am certainly going to 
very strongly support your nomination, and I look forward to 
working with you. You have just an enormous responsibility on 
your shoulders because we have not done well by the kids of 
this country, and there is so much to be done. I look forward 
to working with you to make those changes.
    Mr. Duncan. Thank you so much.
    Senator Sanders. Thank you, Mr. Chairman.
    Senator Harkin. Thank you, Senator Sanders.
    Senator Burr.
    Senator Burr. Thank you, Mr. Chairman.
    Arne, welcome. My apologies for my tardiness. I was 
downstairs with the President's nominee for energy.
    Mr. Duncan. You have got a few things going on.
    Senator Burr. Clearly, I, in one morning, have the two 
smartest nominees that the President has made in you and Dr. 
Chu, and that makes it challenging. More importantly, when Tom 
Coburn was asking his questions and you answered, I realized 
that competitive bidding is something that is not unfamiliar in 
Illinois, is it?
    [Laughter.]
    Mr. Duncan. I apologize on behalf of my State.
    Senator Burr. First question, most important, did you watch 
the Wake-Carolina game on Sunday night?
    Mr. Duncan. I didn't, but I saw the results, yes.
    Senator Burr. For a guy who takes great pride in having 
close games against Duke, I think it would stimulate you 
greatly to see Carolina get beat. It was a good game.
    I was going to ask you about the FAFSA, but you are on the 
record. We need to change it. This is insane. Let me go to a 
couple of other areas, if I can.
    The United States is now the only industrialized Nation in 
the world where a kid has a lesser chance of graduating from 
high school than their parents did. Last year in the United 
States, we graduated 70 percent of our 9th through 12th graders 
on time. In my State of North Carolina, it is 69 percent.
    If you are African-American, it is 55 percent. If you are 
Latino, it is 52 percent. Some studies suggest that if you take 
the 12 largest metropolitan areas in the country, that the 
high-water mark for African-American graduation, 9 through 12, 
on time is 25 percent.
    That is what is fueling the prison construction and prison 
costs, welfare payments that are increasing, food stamp 
payments that are increasing. Because today's 21st century 
economy requires a minimum of a high school diploma not to be 
able to fill out an application, but to be invited for an 
interview.
    We are fooling ourselves if we believe that, as a country, 
we can sit here with a 70 percent graduation rate from high 
school on time and that those other 30 percent of our kids are 
going to have the tools to compete. It is not going to happen.
    I know from the conversation you and I have had that you 
get it. As Secretary of Education, what are you going to do to 
try to change that?
    Mr. Duncan. A couple of quick comments, and this is a huge 
issue. I think what you have seen is the United States hasn't 
so much fallen behind as other countries have passed us. Other 
countries have taken this much more seriously, and whether you 
look at high school graduation rates or college graduation 
rates, we have been sort of stagnant or dropped a bit. Others 
are really soaring.
    That is not a good thing from any view. From an economic 
standpoint, from a human standpoint, we have to do something 
dramatically better.
    A couple of thoughts. Despite those very, very sobering 
statistics that are real and that present huge challenges, we 
today have examples--not just in Chicago, but around the 
country--of extraordinary schools in the heart of our toughest 
communities where 95 percent of students are graduating, where 
the overwhelming majority are going to college and, guess what, 
graduating from college.
    These examples, frankly, are new probably in the last 10 to 
15 years. I want to push very hard to scale up what works, to 
continue to innovate. We don't have to look overseas for great, 
great examples. We can learn something there, but we have them 
in our back yards across this country today.
    We have a chance to take to scale those things that are 
making a difference in students' lives, and there is a set of 
extraordinary schools and programs that are doing that every 
single day.
    Second, I think we have to continue to shine a spotlight on 
this dropout issue, and I intend to do that. We have to tell 
the story--the good, the bad, the ugly. Unfortunately, it is 
not something any of us can be proud of.
    I am proud that we have seen 7 years of reductions in the 
dropout rate in Chicago, but it is still unacceptably high. We 
have to, as a country, challenge ourselves to change those 
numbers pretty significantly.
    I would argue that while third grade test scores are 
important and that is how many of us were measured, if my third 
grade test scores are fantastic and my dropout rates are too 
high, I am not helping my students be successful. I am not 
changing their lives.
    In as many ways as I can, both from the bully pulpit as 
well as strategically, I want to shine a spotlight on this and 
see if we can reverse those trends significantly.
    The final thing I will say, and you know this so well, is 
that if we are serious about reducing the dropout rate, we 
can't wait until 11th or 12th grade. Those kids are gone. They 
are on the streets. We have had a huge push on dramatically 
changing what happens between eighth and ninth grade.
    That ninth grade year is so critical to us. We have to stem 
this problem before it begins, and I am committed to trying to 
do that.
    Senator Burr. You mentioned college graduation, the success 
from that. Every year, more than a million full-time, first-
time degree-seeking students start college. Yet fewer than 40 
percent of those students pick up their degree in 4 years, and 
barely 60 percent pick up their degree in 6 years.
    My question is going to be sort of strange to you. How long 
should the Federal Government be obligated to extend Pell to a 
full-time student who can't find a way to graduate?
    Currently, we extend Pell for 18 months. If that were 
extended to--or excuse me, 18 semesters. If that were 
extrapolated for a full-time student, that would mean that they 
could stay in 9 years, and we would still be subsidizing what 
most students achieve or try to achieve in 4 years. Do we need 
to rethink this?
    Mr. Duncan. That is a good question that I don't know the 
answer to and need to take a look at it. I will say a couple of 
things. I think, again, we have to really think about how we 
try to dramatically increase the high school graduation rate 
and the college graduation rate.
    I absolutely recognize that there are many students, 
particularly, who might be 22, 23, coming back to school to be 
retrained and to get those skills they need to enter the 
workforce today. There are many folks who need to work part-
time and maybe raise a family. It might be a single mom who is 
taking classes in the evening and trying to make ends meet, and 
I want to do everything we can to support those folks.
    I don't have a concrete answer to your--should there be a 
final cutoff at the end of the day? For young people who are 
trying to go to the next level and see going back to school as 
a way to do that, I want to be supportive of those efforts.
    Senator Burr. Well, I hope for those that are shocked by 
the 70 percent graduation rate in high school, that they are 
even more shocked today to hear that barely 60 percent of our 
higher education students graduate in 6 years.
    Mr. Duncan. Yes.
    Senator Burr. I think that should be shocking to most of 
us.
    Mr. Chairman, could I indulge you for one more question 
since it is just you and me and the Senator from Vermont?
    Arne, you and I talked last week about attracting the best 
and the brightest teachers in our classrooms. Especially as it 
relates to low-income, underperforming schools, how crucial 
that is to the success of that school and to the students.
    In North Carolina, three school systems--Guilford, 
Charlotte-Mecklenburg, Cumberland--have gone to a pay-for-
performance model. You did that in Chicago. They have been 
successful at the attraction of talent. You were successful and 
continue to be at the attraction of talent.
    What can you do as Secretary to help put pay for 
performance in the game for more systems, and is that one of 
the models that we should try to increase the ability for 
systems that are failing to get the teachers they need?
    Mr. Duncan. I think the challenge of getting great talent 
into the communities that need it most is a huge one. Let me 
tell you, it is one of the areas where I am, frankly, most 
optimistic because I have seen, every day, extraordinary talent 
walk away from other jobs, other professions, other 
opportunities because they are so committed to these children 
and these communities, and they want to make a difference. We 
have to find a whole host of ways to support that great talent 
go where it needs to go.
    I stated earlier one of the things that most helped us, and 
for which I really want to commend Secretary Spellings, was the 
Teacher Incentive Fund. The Department of Education created a 
significant fund. It was of great benefit to us in Chicago and 
other places, and that is something that I want to not just 
support, but potentially increase.
    That is a piece of it. We want to reward excellence. You 
want to get great folks working where you want them and where 
you need them the most. We talked earlier about creating real 
career ladders and leadership opportunities for teachers to 
stay there. I think we can't do enough to reward and recognize 
and incent excellence and get the best and brightest working in 
communities where great talent has fled historically.
    Historically, there has been an out migration of that 
talent. We have to find ways to reverse that and bring those 
folks in. I know we can do it. I have seen it happen. I want to 
work very hard in that area.
    Senator Burr. Well, let me thank you for your comments 
today. More importantly, let me thank you and your family for 
your willingness to do what you are doing.
    Mr. Chairman, it is important that I point out this is not 
only a guy that gets it, he gets better as time goes on. As a 
sophomore, he fouled out of the Duke game.
    [Laughter.]
    As a junior, he scored 20 points and was instrumental in 
almost pulling off a victory, and I think this is a talent we 
need to expeditiously get in place. I encourage the Chair to 
move it quickly.
    Thank you.
    Mr. Duncan. Thank you, sir.
    Senator Harkin. Thank you, Senator Burr.
    I was just making some notes here, Mr. Duncan, on talking 
about teacher quality and enticing teachers and getting the 
best teachers. I am sure you must be familiar with Wendy Kopp 
and Teach For America.
    A high percentage of those students who graduate and join 
Teach For America eventually stay in teaching. All of the data 
that I have seen indicates that they have become very excellent 
teachers.
    Yet, we don't put much money into it. I asked for the 
figure. I fund it through our Appropriations Committee at the 
level of $14 million for a year. They could use a substantial 
amount more than that.
    Give me your thoughts on Teach For America and how it might 
also help provide quality teachers.
    Mr. Duncan. Sure, I am happy to do that, and I am a huge 
fan of Wendy's. Let me just start there. I think there is a 
generation of what I call education entrepreneurs who are 
really helping to change the face of education. Wendy Kopp is 
one of them. John Schnur is here today, who runs New Leaders 
for New Schools, which trains great principals to go into 
communities that have been underserved.
    We have seen a great, great partnership with Teach For 
America in Chicago. Actually, I worked on that before I got 
this job. When I was working for the previous CEO, Paul Vallas, 
I helped to bring Teach For America to Chicago. They have done 
an extraordinary job, again, of bringing the best and brightest 
from around the country into teaching.
    Many stay. What has been interesting to me and that I 
didn't fully appreciate or understand early on was that not 
only are there great teachers coming through the program, but 
it is a great pipeline of talent. Many of the new schools that 
we have opened, a disproportionate percentage of the principals 
who are running those schools are Teach For America alumni.
    You get these people who have this great vision and this 
entrepreneurial spirit and a willingness to innovate. The 
leader of my curriculum for all of my high schools, for 110 
high schools, is a Teach For America alumni. We have many Teach 
For America alumni within my management team.
    Yes, they produce great teachers. Programs like that bring 
talent into our field where we desperately need that kind of 
talent. I want to support the whole generation that Wendy Kopp 
and John Schnur and others represent, who I think are changing 
the face of public education. I want to do everything I can to 
support their efforts.
    Again, if something is working, we need to scale it up and 
do a lot more of it and do it as fast as we can.
    Senator Harkin. There is another program called Follow The 
Leaders program, but I will talk to you about that----
    Mr. Duncan. OK. I am not familiar with that one.
    Senator Harkin. We have it in Iowa and a few other States, 
and we have been funding it. All of the indications are that it 
has been a great success. We will look at that more later on.
    I am glad that you are supportive of Teach For America, 
even though Wendy went to a different school than you did. I am 
glad you are not holding it against her because she went to 
Princeton, right? You are not holding it against her?
    Mr. Duncan. I could care less about any of that.
    Senator Harkin. Mr. Rogers here will keep you on track on 
Princeton.
    Two other things, just for the record, we talked in the 
office about kids with disabilities. It came up again. And you 
know about the 1 percent and the 2 percent rule.
    Mr. Duncan. Yes.
    Senator Harkin. It has the effect right now of just cutting 
out 30 percent of kids with disabilities and saying we don't 
even have to account for them. As I said to you in the office, 
that would be like saying to any minority group 30 percent of 
you just don't count.
    We wouldn't do that for African-Americans or Latinos or 
anybody else. I hope that you will take a look at that 2 
percent rule and give us some suggestions on a new policy that 
would be more supportive of kids with disabilities.
    Mr. Duncan. I absolutely commit to you to doing that, and I 
philosophically absolutely agree with directionally where you 
want to go on this.
    Senator Harkin. I have two other areas. One of the results 
of No Child Left Behind that I have seen in Iowa and other 
States that I have visited, and I hear it a lot, is that, 
because of the testing requirements for reading and math, that 
one of the first teachers to go because of the lack of funding 
is usually the art teacher or the music teacher or the phys ed 
teacher. Those are the first ones to go.
    I want to just focus on the physical education part of it. 
Right now, 10 million young people are considered overweight. 
According to the Department of Health and Human Services, by 
2010, 20 percent of children and youth will be obese.
    Yet, less than 10 percent of our schools are providing 
physical exercise every day to the kids, less than 10 percent, 
1 out of 10, or its equivalent for the entire school year. 
Almost a quarter of all schools do not require students to take 
any physical education at all.
    I use a quote from a principal, I have to say, in Atlanta. 
A principal who said, in response to the fact that they had 
built an elementary school without a playground, ``We are in 
the business of educating kids and not letting them play on 
monkey bars.''
    Very short-sighted. Very short-sighted.
    When I was a kid, not only did we have 15 minutes in the 
morning and 15 in the afternoon and a half hour at lunch, we 
did an hour a day of physical exercise.
    Then, when we went home in the evening, we played pick-up 
basketball. We played sandlot baseball. We didn't have TV and 
things like that. We didn't have Nintendos and those kind of 
games.
    Today, when kids are less active after school, and they are 
doing more on Nintendo games and talking together on their 
Facebooks and things, we don't even do anything in school for 
these kids. I have co-sponsored legislation, the Fit Kids Act. 
I don't need to get into that. Somehow, we need your leadership 
to start prodding schools to build in physical exercise every 
single day for these kids.
    Now the other part of that equation is what they eat. Now I 
wear another hat as chairman of the Agriculture Committee, as 
you know, and this year is the reauthorization of the child 
nutrition bill. We have got to get better food to our kids in 
school for their breakfast and for their lunches and for their 
snacks.
    That is half of it. The other half is we have got to get 
them exercising, too, during the day.
    I look to you. You told me your wife is a physical 
education teacher and an athletic director at a K to 12 school. 
I am really glad you have someone close to you that will talk 
to you about the need for physical exercise for our kids in 
school.
    I know about your own background, too. I know that you also 
keep physically fit. Would you just address yourself a little 
bit to this lack of physical exercise for kids, especially in 
elementary school?
    Mr. Duncan. Sure. My wife will absolutely keep me on the 
straight and narrow on this one. It is a huge issue you bring 
up, and there aren't easy answers. The more we instill in our 
children early in life these habits that will last them a 
lifetime, the better they are going to do.
    We try to do what we can to expand those opportunities 
before school, during the school day, after school. We have had 
great nonprofit partners who have helped us do that in Chicago 
in running programs. We had a group of our high school students 
actually run the Chicago marathon. When students are exposed to 
those kinds of opportunities, it is going to change them for 
the rest of their life.
    We have to find ways to do this. I will just say, 
personally, I was lucky to go to school where I had PE 4 days a 
week and recess. I was one of those young boys who would have 
had a very hard time sitting through a full day of school and 
would have been tough on my teachers.
    Just from a personal standpoint, I know how critically 
important it is to have those breaks and have a chance to get 
up and run around a little bit. Again, I worry a lot about the 
sedentary nature of so many of our young people today. As you 
said, not just during the school day, but after school.
    The more we can, from the early stages, build habits--and 
again, the kids love this. This is fun. They like to eat 
healthy. They like to get out and run around and play. None of 
the stuff we have done has been mandated. The kids are looking 
for these kinds of opportunities.
    We need to be creative. We need to think about the use of 
time. We need to think about great nonprofit partners who can 
come in and provide these kinds of opportunities. I would 
argue, frankly, that at the end of the day, this is going to 
help us a lot academically. This doesn't take away from our 
core mission. This is central to that core mission.
    I want to find ways to be creative and think it through and 
see if we can expand significantly over time the number of 
young people with these kinds of opportunities that will shape 
them until the day they die.
    Senator Harkin. As I have said many times to Secretary 
Spellings, both in open meetings and in meetings in my office, 
No Child Left Behind ought to mean that we are not leaving them 
behind in their health either. That ought to be just part and 
parcel of No Child Left Behind. How do we build that into the 
structure to meet certain goals?
    I mean, if we are going to meet certain goals in testing on 
reading and math, why shouldn't we have certain goals in terms 
of their body mass index, their exercise, their heart rates, 
their obesity index, all those kinds of things that we can 
build in? That ought to be a part of it, I would think.
    Mr. Duncan. Again, this has just been so hugely important 
to me and my wife and to our family, and I fully intend to look 
at this very seriously.
    Senator Harkin. Thank you very much, Mr. Duncan.
    I see that another great leader on child nutrition is also 
here, Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman. I appreciate 
the opportunity to work with you on the childhood nutrition and 
your comments about just the physical health of our children 
and share your comments.
    Mr. Duncan, it is a pleasure to meet you. We haven't had an 
opportunity to speak one-on-one. I look forward to that. I will 
tell you my first impressions of you are very strong and very 
favorable.
    You have got a beautiful family behind you. I am quite 
pleased that your young son is sitting there reading books 
instead of amusing himself with the latest electronic gadget. 
As a mom of two boys, I know that it is tough to kind of keep 
them in their seats. But you are doing right.
    I welcome your wife. If you ever have any questions about 
what we need to be doing in our schools and to engage our kids, 
don't forget to ask your own. I am always asking for input from 
my boys and learning a lot.
    My first request to you is a big one. I do have high hopes 
that you will fulfill it. I extended an invitation to both 
Secretary Paige, when he was Secretary of Education, and 
Secretary Spellings, when she was Secretary of Education, to 
come to Alaska to see some of our challenges as they relate to 
how we are able to educate children in a State that is as vast 
and as broad as it is.
    Secretary Paige, as we were traveling across the State--
this was at a time when Alaska was trying to get an exemption 
from the provision that said if you fail to meet AYP, you have 
to send your kids to the next closest school. Well, that school 
that we flew to from Nome to Savoonga was the same distance as 
between Washington, DC, and New York City.
    As we were flying over the ocean, looking down over the 
icebergs, he is very quiet, and he says to me, he says, ``I 
thought I knew what rural was.'' He said, ``I am getting a 
different picture.''
    We would like to show you a different picture in Alaska not 
only of our challenges, but how we have been very creative in 
our use of tele-education and distance learning and how we are 
able to meet some of our challenges. That is my first request 
to you, and I would welcome your family to join you in that. I 
think it would be a real eye-opener.
    Kids, we will show you some bears and some other things 
like that that might make it more interesting.
    I do want to make sure that you are aware of some of the 
challenges that our Alaska Natives deal with. One of the things 
that we have learned from No Child Left Behind that has been 
made more clear with the statistics is, our education 
statistics are not anything to be proud of as they relate to 
our Alaska Natives in terms of achievement, dropout rates, 
college enrollment. The gaps are wide, and they are 
unacceptable, and we are working aggressively to deal with it.
    You know that the Federal Government has a trust 
responsibility with relationship to our Alaska Native tribes, 
but we don't have Bureau of Indian Affairs schools or funding 
to address that. What Congress had authorized was the Alaska 
Native Educational Equity Act, and this act provides funding 
for programs like the remedial and gifted education, dropout 
prevention, community engagement--a whole variety--curriculum 
development, teacher training, and recruitment.
    The competitive grants that are funded under this program, 
we believe, are making a difference. They are still very, very 
necessary to ensure that Alaska Native children have 
educational equity with their nonNative peers across the 
country.
    I just use this time to make sure you are aware of it and 
to ask for your commitment to work with us to ensure that we do 
have continued funding for these programs.
    Mr. Duncan. I appreciate your comments, and I have never 
been to Alaska. I would absolutely take you up on the offer to 
go there.
    Senator Murkowski. Wonderful. Thank you.
    Mr. Duncan. My daughter's favorite animal is the polar 
bear. She is a polar bear nut. If we could see some polar 
bears----
    Senator Murkowski. You don't want to get too close to those 
guys.
    Mr. Duncan. You and a number of other Senators have been 
really courteous and offered me the chance to come out and 
visit some schools with you, and I need to get out. I need to 
listen. I need to learn. There is a whole lot I need to 
comprehend and to figure out.
    I will absolutely take you up on that request. I would be 
honored to do it.
    Senator Murkowski. Great. The other thing that I would let 
you know in terms of priorities and things that I am working 
on, in addition to healthy children, I mentioned the dropout 
rate, the graduation rate. In Alaska, again, our numbers 
overall, not just with Alaska Native students, but our dropout 
rate is not acceptable.
    This is an initiative that I am taking on and looking to 
work with several of my colleagues. I want to know that we can 
work with you on this. I know that Senator Burr had mentioned 
it to you. I know it has been an initiative of Senator Obama, 
when he was in the Senate.
    I am just looking for your commitment to work with me on 
what I feel is a very, very important area.
    Mr. Duncan. It is a huge issue, and I don't think there is 
a State in this country that could be really, really proud of 
that number. As a country, I don't think we can proud of what 
that number is today.
    It is something that I need to have a laser-like focus on. 
This is complex in many factors. I want to spend a lot of time 
figuring out how we dramatically increase the graduation rate. 
Obviously, not overnight, but over time.
    When our children drop out today, as you well know, we 
basically condemn them to social failure. There are no good 
jobs out there today with a 9th grade, 10th grade education. It 
just doesn't exist.
    I have often said in Chicago that if you go back 30 years 
ago, there was an acceptable dropout rate. You could drop out 
and go work in the stockyards and steel mills, and you could 
support a family and own your own home and do OK.
    As we know, that is a distant memory from a bygone era and 
we have to work collectively to be creative, to be thoughtful, 
to innovate, and to try, over time, to significantly change 
those numbers, which I think, frankly, none of us can be really 
proud of today.
    Senator Murkowski. Well, I appreciate that statement. I 
think we recognize that it is not just some decision in senior 
year of high school that a young man or woman decides, ``I am 
done with this. I am out of here.''
    Mr. Duncan. Right.
    Senator Murkowski. These decisions or these thoughts come 
about much, much earlier in middle school. One thing that I 
would like to have an opportunity to chat with you about in the 
future, we have put a great deal of focus with No Child Left 
Behind on the early years and giving those basics. Now we are 
looking at the high school end and making sure that we have 
taken care of our students there.
    I just got through the middle school years, thank goodness, 
with my sons. There is--we don't put the focus on those ages 
when kids are--kids are either checking in or checking out. We 
can't have a gap in any part of this educational system where 
it is kind of OK for you to slough. It is kind of OK to not 
have that incentive there to perform well.
    I don't want our kids in those middle school years, when 
adolescence is hitting them and all kinds of things are coming 
at them, to say, ``Well, education is just not a priority for 
me now.'' I would hope that that would be an area that we would 
also be able to work together and focus on.
    Mr. Duncan. No, again, I just appreciate your thoughtful 
comments, and I am a big fan of Geoffrey Canada, who runs the 
Harlem Children's Zone in New York. He was asked a question--I 
was on a panel with him recently--and people were saying, ``Is 
it early childhood? Is it high school? Is it middle school?'' 
And he said, ``It is all important.''
    Senator Murkowski. Yes.
    Mr. Duncan. It is complex, but that is the truth. That we 
have to start early, we have to stay with kids all the way 
through, and it makes the job harder. It is more comprehensive. 
It is more complex. But it is the absolute truth.
    We have to have a continuum from birth to whatever it is, 
22, 23, 24, or 25, whatever it might be, of real opportunities, 
of real high expectations, and really driving students to be 
successful. If we think there is a magic bullet at one point, 
we are really kidding ourselves. It is not that simplistic.
    I wish there was a magic bullet. Our lives would be a lot 
easier. As you know as a parent, it is just not that simple, 
and we have to have this continuum of opportunity and high 
expectations all the way through and continue to challenge kids 
every single day.
    Senator Murkowski. Well, Mr. Duncan, I appreciate your 
comments, I certainly like what I hear, and will look forward 
to working with you. Again, I will welcome you to Alaska when 
that time is appropriate.
    Mr. Duncan. Thank you so much. That would be an 
extraordinary opportunity.
    Senator Murkowski. Look forward to it.
    Thank you, Mr. Chairman.
    Senator Harkin. The only advice I have, Mr. Duncan, is go 
there in the summertime.
    [Laughter.]
    Thank you.
    Senator Sanders.
    Mr. Duncan. I will plan it well.
    Senator Harkin. Senator Sanders.
    Senator Sanders. Thank you, Senator Harkin.
    Mr. Duncan, I know you have been to Vermont, and we don't 
have polar bears. We would love to welcome you to our State 
because there are a whole lot of educators there who have a lot 
to say. Summertime is also a good time.
    I would be remiss if I didn't touch on higher education 
because my wife is the president of a small college. I think 
your point about looking at our problems as a continuum are 
absolutely right. There is no magic bullet anywhere along the 
line.
    I think one thing that happens is if young people--
elementary school, middle school, or high school--get the 
feeling they are never going to make it to college, they kind 
of drop out intellectually and do self-destructive activities.
    Now I don't have to tell you, because you know it better 
than I do, that we have a crisis in terms of the affordability 
and access to college in America today. We have hundreds of 
thousands of qualified young people who have given up on the 
dream.
    Equally alarming is the fact that millions of young people 
will leave school $20,000, $30,000, $40,000, $50,000 in debt. 
Graduate school, $100,000 in debt. They carry that burden on 
their shoulders for many, many years. It also heavily 
influences their choice of careers.
    You want, I want, Senator Harkin wants the best people in 
this country to go and become a teacher or a childcare worker. 
Well, they aren't going to do that if you leave school with a 
$50,000 debt.
    In the last couple of years, we have begun to make some 
progress, a little progress, but nowhere near enough. We passed 
a debt forgiveness proposal, which says that if you go into 
teaching, for example, after 10 years of work in a nonprofit 
organization, your debt will be forgiven. Well, 10 years is a 
long time.
    Can you give us some specificity as to how we can make 
college opportunity more affordable for the young people of 
America so that more of them can go to college and so that more 
of them will not leave college with these very oppressive 
debts?
    Mr. Duncan. As you well know, the President-elect is just 
passionate and absolutely committed on this. He has set a real 
goal for us of increasing the Pell Grant amounts. He has set a 
goal of passing the American Opportunity Tax Credit. He has 
talked a lot about loan forgiveness for folks that want to go 
into teaching and go into other professions.
    I think what has been so appealing to me about his vision, 
it is really to me this idea of reciprocity or mutual 
responsibility. That we are going to give you these 
opportunities, but also expect you to come back to the 
community and help out. I think that spirit is so important.
    I think there are some very significant ways going forward 
that we can work together with you, with the President-elect, 
to increase access, to increase affordability, and to your 
point, Senator, to make sure that those folks who would prefer 
to teach and not go to Wall Street, that they not be compelled 
to go in a different direction because of their loan 
obligations.
    I remember well the conversation with your staffer, who is 
facing very, very significant loan challenges.
    Senator Sanders. Here she is.
    Mr. Duncan. Yes.
    Senator Sanders. She is still facing those obligations.
    Mr. Duncan. Again, we want to get the best and brightest to 
come into these fields, and we need to find ways to make it 
possible for them to chase their dreams.
    Senator Sanders. Well, thank you very much for that, I 
think, excellent answer.
    On a very specific issue, there is the work-study program 
in college, and most of the money, as we discussed in my 
office, which I just recently learned as well, goes to on-
campus activity--working in the library, working in the 
cafeteria. Do you think we could take a look at expanding that 
so that students get work-study money working as a mentor in a 
public school or a childcare center?
    Mr. Duncan. Yes, that was a great point. That is an area 
where I need to really learn more, and that was the first time 
I had heard that was talking to you.
    As I talked about earlier, we have hundreds and hundreds of 
college students, probably thousands, who are in our schools 
every single day in Chicago. My mother's inner-city tutoring 
program has been staffed for years and years by phenomenal 
talent from the University of Chicago and others. That has been 
sort of the lifeblood of her program.
    I need to better understand the facts and the challenges of 
what needs to happen there. Philosophically, if you could get 
more students these kinds of opportunities, I think the 
benefits for our children around the country would be great.
    I think, very importantly, when our college students get 
exposed to the possibilities of teaching and the possibilities 
of working in community centers and healthcare clinics, that 
may influence their career choices.
    I think there are lots of benefits there, and I want to 
understand the intricacies or the challenges. Directionally, I 
love where you are trying to push.
    Senator Sanders. OK. Thank you very much, Mr. Duncan. 
Again, what an opportunity you have to transform education and 
improve the lives of millions of young people, and I am very 
excited about the possibility of working with you.
    Mr. Duncan. I am thrilled with the possibility as well. 
Thank you.
    Senator Harkin. Well, Mr. Duncan, thank you very, very much 
for being so candid. Again, my thanks for your willingness to 
take on this task.
    You have, as you can see, a lot of support here in this 
committee on both sides of the aisle. I have no doubt that you 
will be confirmed, I hope unanimously, from this committee and 
also by the Senate.
    You have a big job ahead of you. I don't think there is any 
Secretary whose decisions, whose statements, public posture has 
more effect on the American people intimately than yours. Maybe 
the Secretary of Health, too. Maybe. Education affects every 
family in America.
    How we progress as a country and how we are going to 
maintain our standard of living, our way of life, and provide 
for equality of opportunity for all our kids really comes down 
to what kind of education system we have.
    You know, the Secretary of Defense always gets a lot of 
publicity and stuff. I have thought about this a lot. The 
Secretary of Defense and the committees here that fund 
defense--and I am on that Appropriations Committee--they are 
charged with the responsibility of defending America.
    The Secretary of Education, along with the Secretary of 
Health and Human Services, they have the task of defining 
America, who we are and what we are as a people and how we 
progress and what kind of society we are going to be.
    I look forward to your leadership, as well as that of your 
counterpart in Health and Human Services, for taking the 
leadership in defining America perhaps better than what we have 
had in the past.
    I don't mean just the recent past. I mean just in all of 
our past, that we redefine America truly as a country where 
someone like you, coming from your background, can get the kind 
of education you had. Where someone like me, whose mother was 
an immigrant and whose father was a coal miner, can get to 
where I am.
    Where kids of color, where kids whose parents are recent 
immigrants and who have English as a second language, who are 
struggling to learn the language, where they can also see that 
America is for them, too.
    I don't mean to be overly heavy on this, but having been 
here for so many years and serving on both the Appropriations 
Committee and on this wonderful committee--we really have to do 
better in education in this country and on health and human 
services. I look upon the two of you as working together.
    It is a big job. From what I know of you and from your 
appearance here this morning, I think you are up to it. I look 
forward to working with you and doing all we can to better 
define America as really that land of opportunity for all our 
kids.
    I thank you very much, Mr. Duncan. I thank all of your 
family for being here.
    The record will be kept open for additional questions that 
may be proffered to you in writing, and we look forward to your 
early confirmation and swearing in.
    Mr. Duncan. Thank you so much. I think this is just an 
extraordinary opportunity to do something better for our 
country's children, and I am amazed by those possibilities. I 
look forward to working very closely with you and your 
colleagues to make that happen.
    Senator Harkin. Thank you.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

                   Prepared Statement of Senator Dodd

    Thank you Chairman Kennedy. I want to welcome and 
congratulate Mr. Arne Duncan on his nomination to be Secretary 
of the Department of Education.
    I've served on this committee for 26 years, and rarely have 
I seen a time where the potential to make a positive impact on 
our Nation's education system has been so great. Over the 
coming months, as we face difficult economic times, there will 
be many discussions on the importance of making smart 
investments--how can we best make the critical decisions needed 
to rebuild our economy?
    Today, we all recognize that if our children fall behind 
for a decade, America falls behind for a century. It's that 
simple. The flip side of that equation is that if we get the 
challenge of educating our children right--and I believe we 
can--everything else will follow. Whatever the issue, America's 
leadership--its economic and national security--rests on her 
commitment to educate and prepare our children to succeed in a 
global economy, from pre-k to college.
    To be sure, no one knows this better than my colleague, 
Chairman Kennedy. From his shared commitment to early childhood 
education to his work last year reauthorizing the Higher 
Education Act, Senator Kennedy has worked tirelessly to provide 
quality education to all Americans. I look forward to 
continuing our work together to improve our Nation's schools.
    Mr. Duncan, I know you recognize that the state of our 
education system is troubling. One out of four high school 
freshmen fails to graduate within 4 years. Among those who do 
make it to graduation, only a third have the skills they need 
to succeed in college. American students are finding it more 
difficult to compete against their international peers in our 
increasingly interconnected world. Despite the efforts we have 
made in education, we are failing to meet the needs of students 
of all ages across the Nation.
    That is why I am encouraged that President-elect Obama has 
chosen you to lead the Department of Education. I am also 
heartened by his commitment to early childhood education and 
look forward to strengthening current programs like Head Start, 
CCDBG, and title I to benefit our children and their families. 
The Department of Education as well as the Department of Health 
and Human Services are collectively responsible for our early 
childhood education. These two agencies must work in a 
cooperative and coordinated manner to comprehensively address 
the needs of our children. We know that investing in our 
youngest Americans pays off in their readiness for school, 
their health, job creation now and in the future, and the need 
for fewer social services later in a child's life.
    In the last Congress, I introduced the Early Childhood 
Investment Act to establish public-private partnerships to 
strengthen existing investments in early childhood development 
by awarding grants to local community initiatives and programs 
that serve young children and their families. We see many low-
income children entering Kindergarten behind their peers. 
Already, by the age of five, there is a documented achievement 
gap in education.&
    We must do a better job of investing our time, money, and 
energy in strengthening and expanding programs that help our 
youngest children enter school healthy and ready to learn, and 
I look forward to working with you to ensure we do.
    Of course, once these students enter kindergarten, our work 
is far from over. Reforming No Child Left Behind is long 
overdue--the law has been implemented in a manner that is 
inflexible, and many times, unreasonable.
    No one argues with the basic tenets of the law. No one 
argues that providing a high quality education for all students 
is our highest priority. No one suggests that the importance of 
closing the achievement gap across demographic and 
socioeconomic lines is critical to our future.
    We have failed to give States and districts the tools and 
resources they need to help students be successful. Instead, No 
Child Left Behind has become confusing and even daunting to 
many teachers, schools, and States who are doing heroic work to 
make a difference in students' lives under often extraordinary 
and difficult circumstances.&
    Mr. Duncan, I look forward to working with you and my 
colleagues to reform No Child Left Behind. As I have outlined 
in the No Child Left Behind Reform Act, I believe it is 
important that we consider the best ways to support students, 
teachers, and schools. Schools should not simply be permitted 
to use added academic measures in assessing student 
improvement--they should be encouraged to do so.
    Assessment is critically important. But, in the process of 
assessing the performance of our students in the classroom, we 
should not forget to assess what really counts. Whether they're 
learning in the classroom.
    In my view, we ought to examine implementing growth models 
into the legislation and provide support to schools and 
students who fail to meet adequate yearly progress.
    In the 2006-2007 school year, 315 of Connecticut's 
schools--nearly a third--did not make adequate yearly progress. 
Instead of penalizing schools that are identified as needing 
improvement, we should put a system in place that invests in 
them. I look forward to working together to expand and 
strengthen programs that have already made a positive 
difference in the lives of students, such as afterschool 
programs.
    Additionally, I am pleased that President-elect Obama has 
nominated someone who has worked so closely with teachers. In 
such a critical moment for the future of education, we must put 
aside our ideological differences and focus on programs and 
ideas that work. You and I both know that supporting teachers 
will be central to improving our Nation's schools--they are the 
single most underutilized resource in reforming our education 
system.&
    I have stood with teachers throughout my entire career in 
public service, because I know that they work tirelessly to 
support and educate children across America. The debate ought 
not to be about the quality of teachers in the workforce--as 
far as I am concerned, no one works harder and gives more than 
our public school teachers.
    Rather, our policies should be about identifying where 
teachers need the most help and, for a change, giving them that 
help. I am sure that, given your reputation as a collaborator, 
you will do the same in the coming months.
    Lastly, I look forward to working together, Mr. Duncan, to 
helping make college accessible and affordable for all 
Americans. If you talk to families today, among their primary 
concerns in this economy is their ability to provide for their 
children's education. American families know that education, 
particularly a college education, is vital to their children's 
lifelong success. According to the most recent statistics, a 
college education can increase an individual's earnings by as 
much as $800,000 over a lifetime. Higher education is the key 
not only to the economic security of individuals, but to the 
economic security and global competitiveness of our Nation as a 
whole. Yet, American families today are greatly concerned about 
their children's prospects for a higher education--specifically 
as it relates to the cost of tuition. Today's tuition levels 
are, in many cases, spiraling beyond the reach of many hard-
working Americans. Clearly, we must do more to ensure that 
skyrocketing tuition rates do not put out of reach the dream 
and ability of obtaining a college degree.
    It is clear, Mr. Duncan, that we have much work to do. At a 
time when many States, including my State, are slashing 
education budgets, and our country faces extraordinary 
challenges, we must commit to reinvesting in our Nation's 
future--we have no other choice. I believe you have the 
experience and heart needed to excel as Education Secretary, 
Mr. Duncan, and I look forward to working with you, Chairman 
Kennedy, and my colleagues on the committee to provide a 
quality education to all children.

                           LETTERS OF SUPPORT
   Association of California School Administrators 
                                            (ACSA),
                                      Sacramento, CA 95814,
                                                  January 12, 2009.
Hon. Edward M. Kennedy, Chairman,
U.S. Senate,
Committee on Health, Education, Labor, and Pensions,
428 Senate Dirksen Office Building,
Washington, DC 20510.

    Dear Chairman Kennedy: We are writing in support of Mr. Arne 
Duncan, nominee for U.S. Secretary of Education. As an education 
association of over 17,000 school administrators from throughout 
California, we are pleased to support an educator with the depth of 
experience held by Mr. Duncan.
    With the many challenges facing our public schools, Mr. Duncan is 
well positioned to embrace them and work with the education community 
to move forward on the goal of providing a superior education for all 
students. As the chief executive officer of the Chicago Public Schools, 
Mr. Duncan has first-hand experience in working with a diverse student 
population with below average test scores and a high dropout rate and 
working tirelessly to boost scores and decrease the dropout rate.
    Through his work in the third largest school system in the country, 
Mr. Duncan understands the hard work necessary in turning around low-
performing schools, raising graduation rates, and the challenges of 
sustaining these successes. From this practical experience, he has done 
the work to improve teacher quality and understands the importance of 
school site leadership and district leadership in these efforts.
    We look forward to working with Mr. Duncan as he leads the Federal 
department of education and moves forward on an ambitious agenda of 
improving achievement for all students.
            Sincerely,
                                                 Bob Wells,
                                                Executive Director.
                                 ______
                                 
                                 Adler Planetarium,
                                         Chicago, IL 60605,
                                                   January 9, 2009.
Hon. Edward M. Kennedy,
U.S. Senate,
317 Russell Senate Building,
Washington, DC 20510.
Hon. Michael B. Enzi,
U.S. Senate,
379A Russell Senate Building,
Washington DC 20510.

    Dear Senator Kennedy and Senator Enzi: It is my pleasure to endorse 
the nomination of Arne Duncan for the position of U.S. Secretary of 
Education. Most likely you are already aware of much of Arne's history. 
A magna cum laude Harvard graduate who has been involved in Chicago 
education programs since 1992, Arne was named CEO of Chicago Public 
Schools by Mayor Richard M. Daley in 2001.
    In 2006, Arne joined the Adler Planetarium Board of Trustees. The 
Adler Planetarium's mission to Inspire the next generation of explorers 
is one that Arne wholeheartedly embraces. More than simply a name on 
the Trustee roster, Arne has been an active Board member, serving on 
the Education Committee and hosting meetings focusing on the Adler's 
efforts to improve math and science education in Chicago Public 
Schools. Arne's practical approach to education and his strong advocacy 
for excellence and accountability in the Chicago Public School system 
has been evident through his Education Committee work. Arne has been 
instrumental in supporting our successful partnerships with the CPS 
offices of Early Childhood, Bilingual, Math and Science, and more 
recently our After School Science enrichment programming. His 
facilitation of these partnerships with the Adler resulted in hundreds 
of teachers and thousands of students positively impacted by our 
collaborative programming.
    Arne has a talent for creating positive partnerships, advocating 
forward-thinking programs, and promoting progressive teamwork. His role 
as an Adler Trustee has been a natural extension of his leadership 
efforts in reforming CPS, helping to improve student performance and 
lower the dropout rate.
    For the United States to remain competitive in the global 
marketplace, it is imperative that its citizens be sufficiently 
educated and encouraged to embrace learning. Arne Duncan is eminently 
qualified to spearhead such efforts throughout our country. In 
endorsing Arne for this position, I echo the sympathies of Rufus 
Williams, President of the Chicago Board of Education, in saying that 
Chicago's--and the Adler's--loss is the Nation's gain. The Adler 
Planetarium endorses without qualification this nomination, and we wish 
the Senate all goodspeed in ratifying Arne Duncan as the next U.S. 
Secretary of Education.
            Sincerely,
                         Paul H. Knappenberger, Jr., Ph.D.,
                                                         President.
                                 ______
                                 
                                  Advance Illinois,
                                         Chicago, IL 60602,
                                                   January 8, 2009.

    Dear Senator Edward Kennedy and Senator Michael Enzi: It is an 
honor to write this letter in support of Arne Duncan's nomination to 
become Secretary of the U.S. Department of Education. I have known Mr. 
Duncan for close to 20 years and believe him to be a man of 
extraordinary character and intelligence. He has a demonstrated ability 
to work with people of all backgrounds and a commitment to keeping the 
best interests of children front and center in all that he does.
    I first met Mr. Duncan when he was heading the I Have A Dream 
program for the Ariel foundation, a job that involved shepherding a 
group of children through school and into college. My family and I had 
``adopted'' a group of students through the I Have A Dream program in 
Chicago as well, and had the opportunity to collaborate with Arne on a 
number of substantive projects, including starting a charter high 
school on the city's west side. In tackling these efforts, as well as 
in working with his Dreamers, Arne displayed quiet determination and a 
willingness to find creative ways around entrenched problems.
    I was delighted when Arne was selected to serve as Chief Executive 
Officer of the Chicago Public Schools. As trustee of a family 
foundation actively engaged in improving educational outcomes for 
students on the west side of Chicago, and now as Executive Director of 
Advance Illinois--a statewide education policy and advocacy 
organization--I have been involved in school reform efforts for going 
on 20 years. Arne's ability to galvanize and engage community and civic 
leaders in the city's public schools has been nothing short of 
remarkable. He has sought out innovative ideas to vexing problems and 
been willing to tackle some of the most complex challenges facing our 
schools.
    During Arne's tenure the Chicago Public Schools has focused 
intensively on improving literacy, on recruiting, supporting and 
retaining effective teachers and principals, and on expanding school 
choice to families that have historically had few options. Having 
invested in National Board Certification training, literacy coaches in 
schools across the district, performance pay plans, and an ambitious 
program to close and ``turnaround'' chronically failing schools, Arne 
can point to a number of critical successes. The number and caliber of 
people interested in teaching in Chicago public school classrooms has 
swelled, as have the number of quality school options in historically 
underserved communities. In addition, graduation rates and dropout 
rates are each moving in the right direction, and elementary reading 
and math scores have been steadily rising. In short, while there is 
much work left to be done, Arne has put Chicago Public Schools on the 
path of meaningful growth and change.
    In addition to my professional commitment to public schools, it is 
worth noting that my three children attend Chicago public schools. As a 
parent and as someone deeply involved in public school policy in 
Illinois, I will miss Arne's leadership. He has brought confidence in 
the system to a new high, and leaves behind an inspiring and productive 
tradition of inside-outside partnership.
    As a longtime friend and someone who cares about the future of our 
economy and our citizenry, I applaud his nomination and think that 
President-elect Obama could not have chosen someone with a stronger 
skill set, a deeper commitment, or a more compelling vision to fill 
this position.
    I wholeheartedly support this nomination and am happy to provide 
whatever further information or insight might be desired.
            Sincerely,
                                           Robin M. Steans,
                              Executive Director, Advance Illinois.
                                 ______
                                 
                  American Osteopathic Association,
                                      Washington, DC 20005,
                                                  January 16, 2009.
Hon. Edward M. Kennedy, Chairman,
HELP Committee,
428 Dirksen Senate Office Building,
Washington, DC 20510.

Hon. Michael B. Enzi, Ranking Member,
HELP Committee,
428 Dirksen Senate Office Building,
Washington, DC 20510.

    Dear Chairman Kennedy and Ranking Member Enzi: On behalf of the 
American Osteopathic Association (AOA), I am pleased to offer our 
endorsement of Arne Duncan to serve as Secretary of the Department of 
Education. Secretary-designee Duncan is a demonstrated leader in 
education, having served in significant leadership positions throughout 
his career in the Nation's third largest public school system.
    As the U.S. Congress and the Obama administration examine and 
address our Nation's education issues, it is imperative that the 
government has leaders that can seek bipartisan solutions and provide 
leadership and guidance on important education policy issues. Secretary 
designee Duncan has developed the necessary experience and skills in 
his career managing a large, complex public school system.
    The U.S. Department of Education recognizes the AOA as the 
accrediting association for osteopathic medical education in the United 
States. We encourage the Secretary-designee to address Federal 
financial aid and student debt issues. We urge the Senate to confirm 
Mr. Duncan's nomination quickly so that these and other important 
education issues can begin to be addressed by the Department.
            Sincerely,
                                      Carlo J. DiMarco, DO,
                                                         President.
                                 ______
                                 
                                 Ariel Investments,
                                               Chicago, IL,
                                                  January 11, 2009.

    Dear members of the HELP Committee: My personal journey from the 
youngest of 6 raised by a single mother, to the presidency of one of 
the largest minority-owned mutual fund companies in America is powerful 
proof that education is the key to hope as well as the path to success 
for low-income children.
    With that in mind, I want to offer the strongest possible 
endorsement for Arne Duncan for Education Secretary of the United 
States. I know Arne as a friend, as a colleague, and as a public 
official and in every role he embodies integrity, courage, insight and 
honesty. His low-key but determined style of leadership effectively 
brings together people with opposing viewpoints and always finds a way 
to advance broader goals. He is neither intimidated by power nor 
seduced by it and he is equally comfortable taking direction or giving 
it. He is the rare leader who also listens.
    Arne Duncan's only interest is children. It has been his life work, 
and I am absolutely confident he will help our country meet its solemn 
obligation to educate this most precious resource.
            Sincerely,
                                            Mellody Hobson,
                                      President, Ariel Investments.
                                 ______
                                 
        Association for Supervision and Curriculum 
                                       Development,
                                 Alexandria, VA 22311-1714,
                                                  January 15, 2009.
Health, Education, Labor, and Pensions Committee,
U.S. Senate,
Washington, DC 20510.

    Dear Senator: The Association for Supervision and Curriculum 
Development (ASCD), representing over 175,000 educators from all 
aspects of the profession, requests your support to confirm President-
elect Barack Obama's nomination of Arne Duncan as Secretary of 
Education.
    During his tenure as the chief executive officer of Chicago Public 
Schools, Secretary-designate Duncan's reform efforts transformed a 
struggling large urban school system into a national model of 
innovation and improvement. We believe that his experience in making 
schools the center of their communities, recruiting and retaining the 
best and brightest teachers and educational leaders, and effectively 
intervening in low-performing schools will prove invaluable as the 
Nation's premier educational leader.
    ASCD members agree wholeheartedly with Mr. Duncan's beliefs that a 
student's education begins even before entering school. Staffing 
schools with the most effective teachers and educational leaders is key 
to the success of all learners, and every child deserves a 
comprehensive and well-rounded education.
    Toward that end, we appreciate the Secretary-designate's commitment 
to focus greater attention on access to and quality of early childhood 
education, recruit and retain the best and brightest teachers and 
education leaders, and advocate the need for educational programs and 
services that support the whole child.
    Based on his 7 years leading Chicago's public schools and from his 
testimony before the Senate Education Committee, it is clear that Arne 
Duncan has a commitment, passion, and record of success in ensuring 
that every child is healthy, safe, engaged, supported, and challenged.
    Our Nation is facing one of the greatest economic hardships in our 
history and education is one of the primary means by which we will 
return to prosperity. Arne Duncan will be the kind of partner that 
educators, parents, and students can rely on to help improve our public 
schools and the kind of national leader we need in these challenging 
times.
    We hope that the Senate will unanimously support Mr. Duncan and 
strongly encourage you to vote for his confirmation as Secretary of 
Education. Should you have any questions, please contact Tina Dove, 
ASCD legislative advocate, at 1-703-575-5641 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="92e6f6fde4f7d2f3e1f1f6bcfde0f5bc">[email&#160;protected]</a>
            With warmest personal regards,
                                     Gene R. Carter, Ed.D.,
                                        Executive Director and CEO.
                                 ______
                                 
                  The Aspen Institute Headquarters,
                                 Washington, DC 20036-1133,
                                                   January 8, 2009.
    Dear Senators Kennedy and Enzi: I am writing to support the 
confirmation of Arne Duncan as Secretary of Education. I know Arne 
through the Aspen Urban Superintendents Network, which for 8 years has 
brought together about a dozen superintendents for semi-annual 
professional development retreats. Arne has been a Network member since 
taking on leadership of the Chicago Public Schools. I have also had the 
opportunity to work with a number of Arne's senior staff through 
Aspen's networks for chief academic officers and central office 
literary and mathematics leaders.
    In these settings, I have found Arne to be extremely thoughtful, 
open to learning about new approaches, and committed to examining and 
responding to data and evidence. Perhaps most striking is Arne's 
consistent focus on Chicago's young people and what they need to 
succeed despite the inevitable distractions and political pressures in 
leading the third largest district in the Nation.
    In pursuit of his goals, Arne has been a pragmatic leader willing 
to try a range of approaches to get the job done. For example, the 
quality of new teachers has risen dramatically under his tenure as a 
result of aggressive recruiting from traditional teacher education 
programs as well as from non-traditional sources such as Teach for 
America and the cutting-edge Chicago urban teacher residency program. 
The district is developing and improving retention of excellent 
teachers by heavy support for National Board Certification and through 
a pilot pay-for-performance initiative. Importantly, his commitment to 
exploring new approaches has been coupled with an equal commitment to 
gathering data about results, recognizing missteps, and making needed 
mid-course improvements. Moreover, perhaps because of his ability to 
listen and his pragmatic nature, while leading sometimes controversial 
teacher reforms, Arne has still earned a reputation with the teacher 
union as an honest and trustworthy partner.
    Arne has also recruited a great deal of new talent into the 
district's central office. It is worth noting that district staff I 
have worked with think the world of Arne. He is praised for his 
consistent leadership, commitment to students, and his generosity in 
giving support and credit to those who work for him.
    I believe that Arne is poised to be an excellent Secretary of 
Education. He comes to the position with an in-depth understanding of 
the realities of urban communities and schools and the credibility 
gained from success in Chicago. His effective leadership of a large 
school system bureaucracy augurs well for the management of the U.S. 
Department of Education. These attributes, in addition to his 
recognized integrity and commitment to better life chances for 
children, make him a superb nominee.
    I respectfully encourage you to confirm Arne Duncan as the next 
Secretary of Education.
            Sincerely,
                                              Judy Wurtzel,
                              Co-Director, Aspen Education Program.
                                 ______
                                 
                                Board of Education,
                                 City of Chicago, IL 60603,
                                                   January 9, 2009.
Senator Edward M. Kennedy,
Senator Michael B. Enzi,
Committee on Health, Education, Labor, and Pensions,
428 Senate Dirksen Office Building,
Washington, DC 20510.

    Dear Senator Kennedy and Senator Enzi: It is my pleasure to 
recommend to you Chicago Public Schools Chief Executive Officer Arne 
Duncan as the next U.S. Secretary of Education in the administration of 
President-elect Barack Obama.
    During his tenure as CEO of the Chicago Public Schools, Arne has 
demonstrated, an extraordinary ability to create an environment of 
collaboration within the school district while fostering outside 
partnerships with the business, philanthropic, religious and grassroots 
communities. It is this exceptional quality that has helped him 
accomplish what many school district chiefs have failed to do in the 
past--focus and engage a wide variety of people on the issues of 
education.
    Most important, Arne has been a courageous and innovative reformer, 
bringing about changes in a school system once labeled ``the worst in 
the Nation.'' Having come from a family that holds dear the importance 
of offering a quality education to all children, Arne has long been 
dedicated to improving the lives of our students, from the time he 
helped start a small school in an impoverished neighborhood of Chicago 
to the last 7 years in which he led the third-largest district in 
America.
    Arne also has provided steadfast leadership throughout the district 
and will leave behind a legacy of lowering the district's dropout rate, 
increasing the graduation rate, improving student and teacher 
attendance, elevating test scores and creating better educational 
options for children in each neighborhood of our city.
    While our work in Chicago is not done, the district has made 
substantial improvement during Arne's tenure and we will continue in 
his quest to challenge the status quo and to bring equity throughout 
our school system.
    Our entire district is very excited about the prospect that Arne's 
experience, perspective, and passion for education reform and 
innovation can finally be realized at a national level. It is for these 
reasons that I urge you to approve the nomination of Arne Duncan for 
U.S. Secretary of Education.
            Sincerely,
                                            Rufus Williams,
                                                         President.
                                 ______
                                 
                                      Bill Bradley,
                                        U.S. Senator, Ret.,
                                                   January 6, 2009.
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Dirksen 428,
Washington, DC 20510.

Attention: Joe Kolinski

    Dear committee members: I have known Arne Duncan for over 10 years. 
I have watched him work. I have watched him grow. I have watched him 
lead. I strongly support his confirmation as our Nation's Secretary of 
Education. I urge the Senate Committee on Health, Education, Labor, and 
Pensions to approve his nomination.
    As the head of the Chicago public school system, he has been a 
successful reformer--he has turned around and rebuilt a broken and 
highly troubled educational system. Arne's commitment to our children's 
educational needs remains unsurpassed.
    I can think of no finer public servant in this position than Arne 
Duncan. On the day he is confirmed, all Americans should feel lucky.
            Sincerely,
                                              Bill Bradley.
                                 ______
                                 
                              The Broad Foundation,
                                     Los Angeles, CA 90024,
                                                   January 6, 2009.
Hon. Edward M. Kennedy,
317 Russell Senate Office Building,
Washington, DC 20510.

Hon. Michael B. Enzi,
379A Russell Senate Office Building,
Washington, DC 20510.

    Senator Kennedy and Senator Enzi: I extend my strong support for 
Senate confirmation of Arne Duncan as U.S. Secretary of Education.
    Over the course of the last 6 years, we have worked closely with 
Arne on our mutual efforts to improve student achievement in Chicago 
Public Schools.
    We have been more than impressed with his strong leadership skills, 
strategic vision, openness to employ innovative approaches that work 
for students and commitment to get the job done. Indeed, his leadership 
in overseeing tens of thousands of district employees while remaining 
squarely focused on systematic changes necessary for students to 
succeed was central to my decision to invest more than $7 million in 
Chicago's education reform efforts.
    Arne also enjoys a strong reputation across the American 
educational community. His leadership has resulted in consistent 
student achievement gains in an era when students in far too many large 
urban districts are falling through the cracks. And, similar to 
President-elect Obama, he is known for having a leadership style that 
has been effective in dealing with a wide variety of interest groups 
that will be ever- present on the national level.
    Finally, Arne's deep practical experience at the top of the 
Nation's third largest school district--particularly as it relates to 
education issues of great importance to the Nation, such as 
accountability, teacher quality and high-quality charter schools--will 
be of great benefit to the Department as he moves forward to enforce 
Federal education policy.
    Without reservation, I encourage you to confirm Arne Duncan as U.S. 
Secretary of Education.
            Sincerely,
                                                 Eli Broad.
                                 ______
                                 
                                   City of Chicago,
                                    Office of the Chairman,
                                                   January 5, 2009.
Senator Edward M. Kennedy (MA),
Senator Michael B. Enzi (WY),
Committee on Health, Education, Labor, and Pensions,
U.S. Senate, Dirksen 428,
Washington, DC 20510.

    Dear Senators and members of the committee: As Chairman of the 
Finance Committee of the Chicago City Council I have had a close 
opportunity to study and observe the leadership abilities and personal 
character of Arne Duncan, who has been nominated as Secretary of 
Education by President-elect Barack Obama. During his 8 years of 
leadership, I have seen Arne bring about an educational miracle here in 
the Chicago Public Schools (CPS). Chicago can truthfully boast of this 
educational turn-around that has become the hallmark of urban education 
in our Nation. I believe this outstanding accomplishment has been a 
very natural outgrowth of Arne's character and professional abilities. 
He is a man of honor and one who is genuinely engaged in both the 
theory and praxis of urban education. He has always demonstrated a 
powerful understanding of his responsibility to the students within the 
CPS system. His efforts have always been centered on those whose 
futures are defined in Chicago's urban classrooms. Of course, he is 
bright and intelligent--Harvard educated and possessed of a refined 
educational inheritance set by his talented parents. He has all the 
educational and practical experience to lead the Nation educationally, 
as he has done across the urban landscape of our city. But he also 
brings something just as necessary to the task--the personal, emotional 
and spiritual commitment to educational excellence for students and 
teachers alike.
    During his years of leadership with the CPS, Arne has demonstrated 
a very savvy understanding of the mechanics of the educational system. 
He saw the CPS in planes of thought in multi-dimensions--something that 
was revolutionary here in Chicago. He understood what was wearing away 
at educational effectiveness and saw, at the same time, the complex 
geography of what was so desperately in need of repair.
    Arne had the ability to perceive fresh approaches to everyday life 
in our schools, and he came to discover what was so necessary for real 
change to occur. This was an enormously complex undertaking of, not 
only an educational issue, but of a political, social and cultural one 
as well. He engaged all of these components with strength, a sense of 
fearlessness and an intense human understanding. He pushed for 
aggressive reforms that shaped new paths for the CPS, often with the 
reticence of Chicago's educational establishment. Today, the 
correctness of his foresight is both acknowledged and applauded. 
Without him we would never have known the extraordinary advantages of 
integrated family and community involvement in our schools.
    Arne always has had the big picture before him. He had the wisdom 
to invite outstanding educational leaders to share in his dream and 
vision for the CPS. He built a team of such integrity and energy that 
it was possible to make huge leaps in the manner in which our schools 
were administered. He gained the confidence of Chicago political 
leaders; the trust of union leaders; the support of Illinois 
legislative leaders; and the loyalties of Chicago teachers. This was, 
in itself, a profound and renewing miracle.
    I am delighted to have this opportunity to speak on behalf of my 
colleagues in the Chicago City Council who certainly join me in 
supporting Arne's nomination for Secretary of Education. I am confident 
that he will carry with him, to this responsibility, the same values 
and virtues that he displayed so generously here in Chicago. He will 
bring honor and accomplishment with him to Washington. While we are 
saddened to see him leave Chicago at this time, we recognize our larger 
responsibility of sharing his educational leadership with the rest of 
the Nation. If I can be of any further assistance to your committee, 
please do not hesitate to contact me.
            Yours truly,
                                           Edward M. Burke.
                                 ______
                                 
                                      City Council,
                                         Chicago, IL 60620,
                                                  January 14, 2009.
Senator Edward M. Kennedy,
Senator Michael B. Enzi,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Dirksen 428,
Washington, DC 20510.

Re:  Congratulatory for Arne Duncan, Secretary of Education.

    Dear Senators: I am honored to have had the opportunity to work 
with and follow the distinguished career of the U.S. Secretary of 
Education, Arne Duncan. During my years of collaboration with Secretary 
Duncan on educational issues facing Chicago's young people, I found him 
to be one of the most involved and invested administrators to ever 
service the residents of our great city. He not only brought a love of 
education and a concern for the welfare of people whom a lack of 
education was negatively affecting.
    His Ivy League experience at Harvard University provided him with 
some of the country's finest educational perspectives. His role as co-
captain of Harvard's basketball team and designation as a First Team 
All-American was testament to his commitment to being the best--a 
testament to overcoming the many challenges he accepted as a student-
athlete. Even as he played professional basketball in Australia after 
college, he took the time to work with children who were wards of the 
State. Arne has never confused his ``profession'' and his ``passion''; 
he has never forgotten his sociological perspective and calling to the 
service of people.
    Once he joined the Ariel Education Initiative in 1992, inner-city 
children on Chicago's South Side would realize greater access to 
educational opportunity through his work. Seeking to have an even 
greater positive impact on young people across the city, he joined the 
Chicago Public Schools in 1998. Three years later, Mayor Richard M. 
Daley named Duncan Chief Executive Officer of Chicago Public Schools.
    Mr. Duncan's dream of building better schools, better teachers and 
better students had reached new heights, but there would still be 
greater work to perform in the service of young people and families. 
When President-elect Barack Obama stood before the throngs amassed in 
Chicago's Grant Park on Tuesday evening in November 2008 after becoming 
America's first African-American Commander in Chief, Arne Duncan had to 
know that he may soon be facing the greatest challenge of his 
professional career.
    He has served on many prestigious boards, received numerous 
honorary degrees and been recognized in every sector of Chicago's 
business, educational, political and philanthropic communities. One of 
the things that I admire most about him, however, is his unadulterated 
humility and grounded spirit. He is a man with clear purpose, and his 
willingness to sacrifice for the good of the least fortunate of us has 
resulted in consistent advances in the educational performances of our 
city's schools . . . and our future leaders.
    I stand proud and unyielding in my support of our U.S. Secretary of 
Education-Designate, Arne Duncan, and wish him his greatest success 
yet. I pray for his success because his triumph in this position, and 
the policies he will promote during these troubled times--times that 
have seen mega-corporations filing for bankruptcy and national 
dependence on foreign oil fueling worldwide terrorism, while millions 
starve at home and abroad--will serve to educate our Nation's children, 
and may prove to be as vital to our country's future as Brown vs. Board 
of Education.
    On behalf of the entire city of Chicago, I congratulate U.S. 
Secretary of Education-Designate Duncan and wish him Godspeed as he 
receives the keys to steer our country's children bravely into the 21st 
century. May he keep his vision to help build a generation of young 
scholars that will be the envy of this rapidly changing world.
            Sincerely,
                                         Latasha R. Thomas,
                               Chairperson, Committee on Education,
                                              Chicago City Council.
                                 ______
                                 
                       The Chicago Community Trust,
                                         Chicago, IL 60601,
                                                   January 6, 2009.
Hon. Edward M. Kennedy,
Hon. Michael B. Enzi,
U.S. Senate,
Washington, DC 20510.

    Dear Senator Kennedy and Senator Enzi: I write this letter to you 
in support of Mr. Arne Duncan's nomination for Secretary of Education. 
I have had the privilege to work with Mr. Duncan for 8 years. He was 
appointed as CEO for the Chicago Public Schools just months after I 
began work at The Chicago Community Trust to craft our Education 
Initiative which provided a $100 million commitment to support Mr. 
Duncan's agenda to improve student achievement. This partnership 
between metropolitan Chicago's community foundation and the school 
district is, in itself, a testament to the character and quality of Mr. 
Duncan's leadership.
    Under Mr. Duncan's leadership, the Chicago Public Schools district 
has achieved a record of continuous progress spanning 7 years which is 
unmatched by other urban districts. Key to this success is his 
understanding that educational improvement requires the collaborative 
efforts of many stakeholders--and his commitment to building 
collaborative partnerships focused on students and their needs. From 
the beginning of Mr. Duncan's tenure he focused on the goal of 
preparing students for postsecondary education and work by achieving 
excellent instruction. The bottom line is that Mr. Duncan is pragmatic 
and driven by results, not ideology.
    Mr. Duncan fundamentally transformed the culture of this large 
urban school bureaucracy. He opened up the system and invited parents, 
business leaders, community leaders, nonprofit leaders, and foundation 
leaders to join with him. Almost overnight he tapped a wellspring of 
goodwill and expertise eager to tackle the seemingly intractable 
challenge of improving the educational outcomes for poor and minority 
students. Hundreds of civic leaders now feel a direct stake in the 
success of Chicago's students and schools.
    His successful strategies are tightly focused on transforming the 
quality of teaching and learning in the classroom, introducing 21st 
century standards (including expansion of world language programs), 
closing failing schools, and creating new and innovative schools.
    The core strategy for improving student achievement is to 
strengthening teachers' knowledge and school leaders' abilities to 
tackle and raise the collective performance of entire schools and to 
recruit talented new teachers. This strategy is supported by the 
creation of exemplary curriculum offices and the mobilization of 
university supports inside schools and classrooms, and an active 
partnership with the Consortium on Chicago School Research that 
provides real-time and longitudinal research studies to guide 
decisionmaking. As a result, Chicago has experienced a remarkable 
turnaround of classrooms, school climates, and an invigorated 
workforce, not only in the new schools but also in existing 
neighborhood schools. This work has led to major innovations in how 
universities and schools work together; work that translates into 
higher achievement by all children.
    Above all, under Mr. Duncan's leadership, the Chicago Public 
Schools system is courageous and steadfast in its commitment to close 
failing schools each year through a fair and objective process. This 
process has invited and increased parent engagement and community 
involvement in the process of school closing decisions and the 
selection of new school operators and leaders.
    In concert with school closings, Mr. Duncan set an ambitious agenda 
to open new schools and built a process to incubate, evaluate and 
launch an impressive number of innovative new schools that meet the 
diverse learning needs of students and increase the opportunities for 
public school choice. As a result of this work, the district developed 
a ``turnaround'' strategy that enables students to remain in place 
while new leadership and teachers are brought in with a plan to 
dramatically improve the school.
    What sets Mr. Duncan apart from other superintendents is his 
reinvention of the role of the superintendent to that of a manager of a 
portfolio of schools--with the work designed to continually improve the 
mix of schools to benefit the maximum number of students. In this 
regard, his agenda is to provide the best schools for the district's 
students, whether the school is a charter school, contract school, or 
traditional neighborhood school. His decisions to award new schools are 
based on evidence and performance--not ideology.
    Critical to the success of these strategies is his insistence on 
the development and use of data and evidence to guide decisionmaking.
    If I can be of further assistance, please do not hesitate to 
contact me. I can be reached at (312) 616-8000.
            Sincerely yours,
                                              Terry Mazany,
                                                 President and CEO.
                                 ______
                                 
               The Campaign for Educational Equity,
                                        New York, NY 10027,
                                                   January 8, 2009.
Hon. Edward M. Kennedy,
Hon. Michael B. Enzi,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Dirksen 428,
Washington, DC 20510.

Re: Nomination of Arne Duncan

    Dear Senators Kennedy and Enzi: I am writing to convey my 
enthusiastic support for the nomination of Arne Duncan as U.S. 
Secretary of Education. I think that Mr. Duncan is exceptionally well 
suited to undertake the challenging responsibilities of this position 
at this particular time. Throughout his career, he has demonstrated a 
unique ability to bring people together and to solve difficult problems 
in a bipartisan way.
    Mr. Duncan's remarkable success in bringing innovations and 
substantial educational success to the Chicago schools is a matter of 
record, and others who are closer to that scene can speak about the 
specifics of these accomplishments better than I. What stands out for 
me in this record is the fact that he was able to accomplish striking 
reforms, like implementing a performance pay plan and closing down 19 
schools for academic failure and dismissing the entire staff, while 
maintaining good relations with the teachers union and avoiding any 
labor strife during his entire long tenure in office.
    My personal involvement with Arne Duncan has centered around three 
critical issues: fiscal equity reform, community schools and revisions 
of the No Child Left Behind Act. I will briefly discuss my interactions 
with him regarding each of these important subjects and explain why I 
think he is uniquely qualified to lead the Federal Government's policy 
initiatives in each of these areas.
    Before assuming my present position at Teachers College, I was lead 
counsel for the plaintiffs in a major litigation, CFE v. State, that 
successfully challenged New York State's system for financing public 
education. I also head the National Access Network, a grouping of most 
of the attorneys and advocates around the country who are involved in 
fiscal equity and education adequacy reform movements. Last year, Mr. 
Duncan asked me to come to Chicago to discuss with him and the members 
of the Chicago Board of Education our experience with fiscal equity 
reform in New York and the relevance that experience might have for 
promoting similar reforms in Chicago.
    I was impressed with two aspects of his reaction to my 
presentation. First, he quickly comprehended the complex legal story I 
laid out and honed in on some strategic factors that might be relevant 
to the difficult legal landscape regarding this issue in Illinois. 
Second was his passion for the well-being of Chicago's public school 
children and his genuine distress at the fact that they were receiving 
significantly fewer resources than their peers in New York City. He has 
kept in touch with me since that time to prod me for ideas and 
assistance on how to rectify the fiscal inequities in Illinois. I am 
convinced that, as Secretary, he will also be a committed champion for 
fiscal equity reform on a national level and that he will find 
pragmatic ways to make progress on this issue by ``leveling up'' the 
resources available to children who are presently underserved without 
diminishing the educational opportunities of those who presently are 
being well served.
    Increasingly, policymakers at both the national and the State 
levels are understanding that in order to make serious inroads on 
eliminating the current achievement gaps between advantaged and 
disadvantaged children, we need to confront the socioeconomic barriers 
to school success that impede educational opportunity for students from 
backgrounds of concentrated poverty. Arne Duncan has been the national 
leader on taking concrete policy steps to provide the health, 
nutrition, family support and preschool opportunities these children 
need to succeed. He has done so by initiating the establishment of 
community schools in Chicago--not merely as pilots or demonstrations, 
but on the large scale needed to make a significant impact on urban 
education.
    In Chicago, fully 25 percent of all the public schools are now 
``community schools'' that are open every day well into the night and 
provide a range of important services to students and their families. 
Mr. Duncan has been generous with his time in providing guidance for 
efforts that my colleagues and I are now undertaking to promote a 
similar community school reform effort in New York City. He 
accomplished this impressive innovation in Chicago with very limited 
resources by husbanding and carefully prioritizing the public funds 
available to him and by motivating many individuals and foundations in 
the private sector to support this effort. Mr. Duncan's ability to find 
the means to implement a major innovation in the face of serious 
resource scarcity will obviously serve him well in helping the 
President-elect implement his ambitious education agenda during the 
current economic downturn.
    One of the first major tasks that the new Secretary of Education 
will face is dealing with the long-delayed reauthorization of the No 
Child Left Behind Act. Arne Duncan has mined and utilized the many 
positive possibilities for reform provided by that statute and, for the 
past 7 years (as long as the law has been in effect), has also wrestled 
with the implementation difficulties the law presents in a number of 
areas. Mr. Duncan also has a deep understanding of the complex 
interplay of the legal and policy perspectives and the political 
compromises that went into the law's enactment and will be well-
situated to consider and work out agreements on necessary revisions. I 
recently coedited a book that examines the theoretical underpinnings of 
the law and presents a variety of perspectives on how NCLB should be 
revised in order to accomplish the goal of truly overcoming the 
achievement gaps. Mr. Duncan agreed to review this work and gave us 
some very insightful comments on its themes. He clearly has the right 
mix of practical experience and theoretical understanding of NCLB to 
lead the Department's efforts to build on the law's accomplishments and 
strengthen those aspects of the law that have proved problematic.
    In sum, I think Arne Duncan, by temperament, intellect and 
experience, is superbly qualified to carry out the responsibilities of 
the U.S. Secretary of Education. I appreciate your considering my views 
on this important matter. Please let me know if I can provide any 
further information or be of any further assistance to the committee in 
the confirmation process.
            Sincerely yours,
                                         Michael A. Rebell,
               Executive Director, Campaign for Educational Equity 
                       and Professor of Law and Education Practice.
                                 ______
                                 
                 Council of the Great City Schools,
                                      Washington, DC 20004,
                                                   January 8, 2009.
Hon. Edward M. Kennedy, Chairman,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.
Hon. Michael B. Enzi,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.

    Dear Mr. Chairman and Senator Enzi: I am writing on behalf of the 
Council of the Great City Schools, the Nation's primary coalition of 
large urban public school systems, to enthusiastically endorse the 
appointment of Arne Duncan as U.S. Secretary of Education.
    Arne Duncan is one of the finest educational leaders in the country 
and is eminently qualified to lead the Nation's schools and colleges as 
Secretary of Education. Mr. Duncan has led the third largest school 
system in the Nation since 2002, a tenure well beyond the average in 
urban education today. His leadership has been marked by innovation, 
collaboration, determination, and skill. He has been at the forefront 
of important high school reforms and has championed improvement and 
accountability for results at every turn. The results of his efforts 
can be seen in better schools and significantly enhanced student 
achievement and opportunity.
    In the process of leading the Chicago Public Schools, Arne Duncan 
exhibited all of the skills that a Secretary of Education will need in 
order to be successful: honesty, integrity, transparency, 
thoughtfulness, and political acumen. He is well known as a leader who 
will listen to all sides of a debate and make up his mind based on the 
best available data and research. He widely consults parents and 
unions, teachers and principals, municipal leaders and the broader 
community. And he is bipartisan and relentless in the pursuit of better 
education and greater opportunity for the Nation's children.
    The Council of the Great City Schools is pleased and proud to give 
its wholehearted support behind Arne Duncan and urge the U.S. Senate to 
confirm his appointment at the earliest moment. Thank you.
            Sincerely,
                                          Michael Casserly,
                                                Executive Director.
                                 ______
                                 
           The Chicago Principals & Administrators 
                                       Association,
                                         Chicago, IL 60601,
                                                   January 9, 2009.
Hon. Edward M. Kennedy,
U.S. Senate,
Washington, DC 20510.

    Dear Senator Kennedy: The Chicago Principals & Administrators 
Association (CPAA) is honored to send this letter of support for the 
confirmation of Mr. Arne Duncan for the position of Secretary, U.S. 
Department of Education. Our Association has enjoyed a productive 
relationship with Mr. Duncan during his tenure as CEO of the Chicago 
Public Schools. Mr. Duncan has extended an open-door policy to us at 
his downtown office, additionally, providing his home telephone number 
for discussions at anytime necessary.
    We have monthly meetings with Mr. Duncan and his senior staff to 
bring issues of concern for resolution. The meetings also afford 
opportunities to explore innovative ideas for collaboration around 
improving management and instruction at the local school level.
    We are very grateful that Mr. Duncan has supported and continued a 
long standing (53 years) joint professional development initiative 
between CPAA and CPS. Each year local school administrators are given 
permission to attend a 2-day conference that features top senior staff 
from Chicago Public Schools, national speakers and educational experts.
    The Chicago Principals & Administrators Association has worked 
under the guidance of CPS to provide other professional development to 
Chicago administrators with funding by the Chicago Public Schools. We 
believe the articulation and collegial planning between our 
organizations has created an atmosphere that encourages innovative 
change and thinking ``outside the box.'' We are proud to recommend our 
CEO, Arne Duncan, to the rest of the Nation as their new education 
leader.
            Sincerely,
                                             Clarice Berry,
                                                         President.
                                 ______
                                 
                 The Chicago Public Education Fund,
                                         Chicago, IL 60606,
                                                   January 9, 2009.
Senator Edward M. Kennedy, Chairman,
Senator Michael B. Enzi, Ranking Member,
U.S. Senate,
Committee on Health, Education, Labor, and Pensions,
428 Senate Dirksen Office Building,
Washington, DC 20510.

    Dear Senators Kennedy and Enzi: It is my great honor to offer this 
letter of support for my friend and colleague, Arne Duncan, CEO of 
Chicago Public Schools, on his nomination by President-elect Obama for 
U.S. Secretary of Education. As the Nation's longest-serving urban 
school system superintendent, Arne's unique talents have translated 
into real results for children. I know from working with Arne over many 
years that he will set aggressive goals and will engender a spirit of 
collaboration that will simply get things done.
    I always think of Arne as an athlete, as he brings the consummate 
athlete's style to his work. He is a team-builder, a first among 
equals, someone who shares the credit, the type that does what he says 
he is going to do. He is a humble man, but with a deeply held 
competitive spirit that gives him tenacious focus and drive to tackle 
the toughest challenges. And after a win, he wants to know what's next. 
There is no finish line.
    Thanks to Arne, Chicago has been on a tremendous winning streak. 
Arne was one of the first big-city schools' chiefs to identify 
principal and teacher talent as the greatest lever we can pull to 
improve schools. In partnership with The Chicago Public Education 
Fund--made up of Chicago's eminent business leaders who have had the 
confidence in Arne to commit nearly $50 million of their personal money 
to improve the city's schools--Arne has dramatically increased the 
quality of human capital in this, the Nation's third largest school 
system.
    Arne's success lies in his fair and disciplined leadership, embrace 
of innovation, and solutions-oriented management. I want to give you 
three brief examples of these qualities, which will serve the Nation 
well.
    On leadership, Arne was pivotal in creating in Chicago some of the 
toughest eligibility requirements for principals in the Nation. He was 
a key member of the Leading to Great Principals Task Force, chaired by 
Fund Director and Chicago-based businesswoman Penny Pritzker and 
including prominent corporate, foundation and school district leaders. 
Arne not only attended every meeting as promised, he steadfastly 
implemented the Principals Task Force recommendations, which ultimately 
boosted eligibility requirements to the point that the pool of 
principal candidates reduced by nearly two-thirds. Despite losing 
principal candidate supply, Arne's determined leadership focused 
relentlessly on quality.
    On innovation, in collaboration with The Fund, Arne brought to 
Chicago and developed leading-edge principal preparation programs. 
These programs have become a model of innovation in school leadership 
preparation, by blending management and instructional leadership 
training, providing a strong, year-long internship experience, and 
attracting non-traditional leadership talent to education.
    On management, Arne is collaborative yet decisive. In partnership 
with The Fund, Arne has made National Board Certification a signature 
human capital initiative for Chicago. Indeed, under his leadership, and 
with financial and strategic assistance from The Fund, Chicago has 
become the fastest growing big-city school district for National Board 
Certified Teachers. When Arne recently learned that recruitment for 
teachers to pursue the certification process had slumped, jeopardizing 
Chicago's momentum in boosting teacher quality, he quickly assembled 
the program management team and The Fund and developed an immediate 
action plan. He was thoughtful and deliberative, but ultimately 
resolute.
    In a system of more than 400,000 students, 24,000 teachers, and 650 
schools, the challenges of achieving high performance are as immense as 
they are intricate. Yet, Arne's results, driven in large measure by his 
leadership, innovation and management, speak for themselves. He has 
demonstrated the right mix of traits to succeed as head of a large, 
complex organization. And he has done so with great humility and 
affability.
    Working side-by-side with Arne has been one of the great pleasures 
of my career. I have the utmost confidence that he will serve his 
country with as much distinction as he has his city. I ask that your 
committee and the full Senate vote to confirm Arne as our next 
Secretary of Education.
            Sincerely,
                                            Janet M. Knupp,
                                        Founding President and CEO.
                                 ______
                                 
                      Chicago Public Schools (CPS),
                                         Chicago, IL 60603,
                                                   January 7, 2008.
Hon. Edward Kennedy,
Hon. Michael B. Enzi.

    Dear Senators Kennedy and Enzi: It is an honor and privilege to 
have the opportunity to collectively write in support of the nomination 
of Mr. Arne Duncan as Secretary of Education.
    Transformation is an overused word. However, it is, if anything, an 
understatement to describe how Mr. Duncan has affected the Chicago 
Public Schools. Since his appointment in 2001 as Chief Executive 
Officer, Mr. Duncan has changed, for the better, the lives of hundreds 
of thousands of our most deserving children. Over the last 7 years, 
student achievement in the Chicago Public Schools has improved to 
historic levels. As you may imagine this has been a difficult path, as 
he has often had to take the necessary risks as a leader to create 
change in an enormous, school district. Since 2001, standardized test 
scores have risen dramatically and consistently. Prior to Mr. Duncan's 
leadership, roughly 40 percent of Chicago Public School elementary 
students met or exceeded Illinois State Learning Standards. Today, 70 
percent have reached that same standard. High School students have made 
similarly spectacular gains, moving from an ACT average of 16.1 to our 
current average of 17.3
    Mr. Duncan has guided us to look substantially further, and to set 
goals that were simply unimaginable even 5 years ago. He has helped us 
to look beyond our school or our grade level. Our long-range goals of 
reducing the poverty rate in Chicago, and preparing every student for 
success, has forced us to understand that our vocation plays a singular 
role in the success of our neighborhoods and our city. By strategically 
looking at data, and openly seeking information that will objectively 
guide our work, we have tossed aside assumptions that were built over 
generations. Because of his leadership, we now clearly see a path to 
success.
    Mr. Duncan's accomplishments are substantial and deep. Under his 
leadership, we have developed a theory of change that provides us 
focused guidance. The theories are simple: provide excellent 
instruction, attract and develop talented people, and expand 
opportunities and options for all students. We have seen teacher 
quality rise exponentially, along with teacher satisfaction and 
effectiveness. Recognizing that great teachers make great schools, Mr. 
Duncan has made National Board Certification a priority, and worked 
with the private sector to ensure that these great teachers are 
rewarded for their efforts. He has recognized that great leaders are 
essential to every school, and has developed Principal Competencies, 
ensuring that principals are prepared for the enormity of their task. 
He created autonomy options for great leaders, and closed schools that 
were not properly serving the needs of our children. He has also 
developed an array of choices for parents, ensuring that the need of 
every child is met.
    However in Chicago, our focus has been so much more than just 
improving test scores. Mr. Duncan has repeatedly shown the courage to 
argue for increased funding for our schools, with the understanding 
that all must be held accountable. He has worked closely with our 
unions to ensure continued labor peace so the focus remains on 
children. Furthermore, Mr. Duncan has worked tirelessly with local and 
State agencies, community and faith-based organizations to combat the 
tide of violence affecting the lives of our students and their 
families. Mr. Duncan has repeatedly challenged us with these words, 
``If in the end we have just improved test scores and have not moved 
more children from poverty through education--we have failed!''
    We serve as Area Instruction Officers, supervising the 600-plus 
Chicago Public Schools. Prior to Mr. Duncan's organizational 
leadership, our function was to supervise the operational activities of 
schools, with little influence over instruction. One of Arne's first 
acts was to reorganize our roles so that the majority of our time would 
be spent working toward improved instruction. He clearly recognized 
that, if true change was to occur, it would happen at the classroom and 
school level. His focus on instruction has been maintained throughout 
his tenure as CEO.
    It is, of course, impossible to list all accomplishments of Mr. 
Arne Duncan. It's easy, however, to state that the education of the 
children of Chicago has been immeasurably improved by his courageous 
leadership. It's equally easy to say that he is, in the minds of many, 
irreplaceable. However, it is with immeasurable pride that we write in 
support of Arne's appointment. We are certain that what he has done at 
the local level can be replicated nationally. We're certain that No 
Child Left Behind will become much more than an empty phrase. We're 
certain that lives will change because of this appointment. He will be 
deeply missed.
            Sincerely,

    Thomas Avery, Cynthia Barron, Analila Chico, James Cosme, Rebecca 
de los Reyes, Carolyn Epps, Deborah Esparza, Stephen Flisk, Annette 
Gurley, Jerryelyn Jones, Joe Kallas, Olga Laluz, Delena Little, Denise 
Little, Isabel Mesa-Collins, Rick Mills, Leonard Moore, Pamela Randall, 
Norma Rodriguez, Karen Saffold, Katherine Volk, Adrian Willis, Paul 
Zeitler,
          The 23 Area Instruction Officers, Chicago Public Schools.
                                 ______
                                 
                            Chicago Public Schools,
                                         Chicago, IL 60622,
                                                   January 9, 2009.
Hon. Edward Kennedy,
U.S. Senate,
Washington, DC 20510.

    Dear Senator Kennedy: As principal of Talcott Fine Arts and Museum 
Academy, with the Chicago Public Schools, I appreciate the opportunity 
to recommend Mr. Arne Duncan for the appointment of Secretary of 
Education. Talcott Fine Arts and Museum Academy's profound growth is 
consistent with the significant improvement many Chicago schools have 
experienced under Mr. Duncan's exemplary leadership. His city wide 
initiatives as the Chief Executive Officer for the Chicago Public 
Schools created the context and foundation for Talcott Academy's 
dramatic improvement.
    Arne Duncan supports and validates the belief that our greatest 
resources to children are the very adults who commit to serve them as 
educators. This human capital has been nurtured and developed by 
creating and sustaining multilevel partnerships, holding high 
expectations for teachers' higher education, and being an embedded, 
inspirational leader who understand the underpinnings and implications 
of educational reform.
    Mr. Duncan has shown commitment to build collaborative and long-
term partnerships among organizations such as National Boards, Chicago 
Community Trust, Illinois State Board of Education, Chicago Public 
Education Fund and the Chicago Teachers Union in order to substantially 
support deep and reflective student learning.
    Mr. Duncan is steadfastly dedicated to developing highly skilled 
and qualified teachers. He has nurtured and developed the National 
Board Certification within the city, and as a result the Chicago Public 
Schools are at the forefront nationally for teachers achieving National 
Board Certification. At Talcott Academy 30 percent of our staff (nine 
teachers) have achieved National Board Certification within the past 4 
years. These teachers have demonstrated a profound impact schoolwide in 
creating a culture of instructional excellence and professional 
accountability.
    Arne Duncan has also supported several graduate degree programs to 
continue teachers' professional development and growth. Mr. Duncan 
understands and acts on the belief that in order for our children to 
learn and achieve at increasingly higher levels, they must have highly 
qualified, motivated and dedicated teachers throughout their entire 
school career. Over the course of his tenure as Chicago Public Schools 
CEO, Mr. Duncan has envisioned, created, developed and sustained an 
environment where the bar for Chicago's teachers can be set at a high 
level.
    Mr. Duncan is an inspirational leader who respects and appreciates 
the spirit of our children. He completely understands that the very 
strength and soul of Chicago and the rest of the United States of 
America is our families' cultural diversity. He takes a personal 
interest in the achievement of all students as he understands that 
collective success is measured by every group of students, including 
children of poverty and children who are often overlooked by the rest 
of society. He has challenged schools to set the bar high for students 
because he truly believes in their capability to become truly amazing 
citizens.
    Mr. Duncan expects high-level instructional programs to be offered 
to every child. This is evident in Talcott Academy's ability to 
implement programs such as high school algebra for 8th grade students. 
His leadership conveys the very message that a high level of success is 
necessary for every child.
    Finally, Arne Duncan actively leads innovative educational reform 
for children. While supporting the need to have students achieve in 
core subjects such as reading, writing, math and science in order that 
they may be prepared for college and the 21st century global workforce, 
he also understands the importance of the fine arts and physical 
education. In addition to rigorous academics, all Talcott students 
routinely have theater, music and visual arts to inspire their 
creativity and strengthen personal discipline. As a result of Chicago 
School reform, the amount of students who have achieved Illinois State 
norms in core subject areas such as reading, math and science has 
dramatically increased at Talcott Academy. For example, 40 percent of 
the students met State standards in Science 4 years ago, while 83 
percent do now, a rate that exceeds the Illinois State average.
    Keeping with his impressive knowledge of educational reform, Arne 
Duncan is well known as being a relentless advocate for the community 
school model. Talcott developed an after-school program with the Union 
League Boys and Girls Club that serves hundreds of students and 
provides extended opportunities for athletics, academics, theater, 
dance, music, band, recreation and meals. Additionally, Mr. Duncan has 
supported innovative educational partnerships for Talcott students with 
some of Chicago's world class museums. Students view the Art Institute 
of Chicago, Field Museum of Natural History and National Museum of 
Mexican Art routinely as extensions of their classrooms.
    In conclusion, Mr. Duncan is a strong leader who is dedicated to 
serving children. Mr. Duncan's leadership has helped our teachers to 
grow and our students to achieve at high academic levels. As a 
principal of an urban school that has made dramatic gains, I respect 
and am inspired by his commitment to educational reform. I am confident 
that our children and schools will benefit from his leadership as 
Secretary of Education. Thank you for your dedication to our country's 
educational system and your consideration for Mr. Arne Duncan.
            Sincerely,
                                               Craig Benes,
                                  Principal, Talcott Fine Arts and 
                                 Museum Academy, M.S., M.A., C.A.S.
                                 ______
                                 
                      Chicago Public Schools (CPS),
                                         Chicago, IL 60620,
                                                   January 7, 2009.

    Dear Mr. Edward Kennedy (MA) and Mr. Michael B. Enzi (WY): Please 
accept this letter of support on behalf of Mr. Arne Duncan, CEO Chicago 
Public Schools who has been nominated to serve as the Secretary of 
Education for President-elect Barack Obama.
    I have worked under Arne's leadership for the past 7 years. During 
this time, he has been relentless in his quest to improve Chicago 
Public Schools. His vision has become a way of life for our system. He 
has been supportive of citywide initiatives to improve instruction as 
well as increase student attendance.
    Under his leadership, the district won a grant for the Teacher 
Advancement Program (TAP). This initiative has brought a sense of 
community, collaboration, and support to our school. While we have a 
long way to go, the structures that are evident within the TAP program 
will prove to bear great results. With 10 schools being selected 
initially, there is now room to add 30 more schools over the next year.
    Arne Duncan is an excellent choice for the office of the Secretary 
of Education. His commitment, dedication and hands-on approach is 
definitely needed to ensure that all children in the United States of 
America have access to an equal and quality education regardless of 
their economic status.
            Educationally committed,
                                        Monique N. Dockery.
                                 ______
                                 
         (CPS) John J. Pershing West Middle School,
                                         Chicago, IL 60616,
                                                   January 8, 2009.
Hon. Edward Kennedy (MA),
317 Russell Senate Office Building,
Washington, DC 20510.
Hon. Michael B. Enzi (WY),
379A Senate Russell Office Building,
Washington, DC 20510.

    Dear Senators Kennedy and Enzi: I am honored to submit this letter 
in support of Mr. Arne Duncan as Secretary of Education for the United 
States of America. What a privilege it is to be asked to share 
information about Arne (as he likes to be called by all) in order to 
help create a complete composite of an individual who has impacted 
education within the city of Chicago in such a profound way.
    As an instructional leader in an urban district, I am often faced 
with dismal information about the academic success of our students. The 
media fills the airwaves and print media with negative, albeit factual, 
statistics and prognoses about children whose faces and situations 
categorize them as minority. When Mayor Richard M. Daley appointed Arne 
as Chief Executive Officer, a positive outlook emerged. Within a short 
period of time, he applied a uniquely innovative approach to 
leadership, proving that he was more than able to handle the tough task 
of making our district one that would stir a sense of pride across the 
Nation. No longer are we seen as a district with no future. In fact, 
the Chicago Public School system is now referenced as a district of 
promise.
    I have two stories to share regarding Arne's personal commitment to 
Pershing West, where I have had the honor of serving as principal since 
2005. In the summer of 2005, we realized that our existing playground 
met neither the needs of the community nor of the school population. 
Arne, along with a bus load of volunteers that he garnered, sweated 
alongside parents, students, family members, and faculty to erect a new 
playground. He never complained about the work, or the heat, and 
labored from morning to evening with a smile on his face. The second 
scenario occurred 2 years later when he attended a principals' meeting 
hosted by our school. Teachers were excited at the thought that he 
would walk into classrooms, as he is prone to do. The day stretched on, 
and it soon looked like the classroom visits would be impossible due to 
his full schedule. Nevertheless, I appealed to him to accompany me 
briefly into classrooms. He did without pause or hesitation. I share 
these stories to add a stroke to the portrait being painted of Arne. 
While building the playground, he remained focused on the task, but 
also engaged in dialogue with everyone. It was clear that each 
individual present mattered equally to him. After the principals' 
meeting, he could very easily have exited the building without 
considering my request, but he didn't. He willingly honored my request. 
These anecdotes speak volumes about Arne's character. He is a 
personable, attentive, driven visionary. Of paramount importance is the 
fact that he is guided by a vision that has children and the support of 
teaching and learning at its foundation.
    Finally, as the principal of a performance model school under 
Chicago Public Schools' Renaissance 2010 initiative, I can tell you 
that Arne is a risk taker for education. Critics may attempt to vilify 
him for making bold decisions to close underperforming schools. 
However, for taking a stance on creating schools with varying 
opportunities for students, for daring to hold principals and teachers 
accountable, and for creating an avenue for new schools to be 
developed, I contend that he has done as he promised 7 years ago: he 
has kept children's needs at the top of his ``to-do'' list. His efforts 
prove that ``Children First'' is not just rhetoric or a meandering 
slogan, but a motto by which all educators should work. I am confident 
that Arne will be committed to placing the educational needs of all 
children across the country first.
    Thank you for allowing me this opportunity to share a little about 
Mr. Arne Duncan. I know that the Nation will be positively impacted by 
President Obama's decision and I believe with all of my heart that this 
appointment will yield productive fruit for the country's most valuable 
asset--our children.
            Respectfully submitted,
                                         Cheryl D. Watkins,
                                                         Principal.
                                 ______
                                 
                  (CPS) Williams Multiplex Schools,
                                         Chicago, IL 60616,
                                                   January 9, 2009.
Hon. Edward Kennedy,
317 Russell Senate Building,
Washington, DC 20510.

    Dear Senator Kennedy: It is with great pleasure that we write a 
letter of support for Mr. Arne Duncan, for the position of U.S. 
Secretary of Education. Mr. Duncan has demonstrated integrity, 
trustworthiness, commitment and dedication to the students, staff and 
parents of the Chicago Public Schools and communities.
    Under his leadership Chicago Public Schools have experienced a high 
level of expectations. You will have a leader who is personable without 
being familiar, cheerful in the face of diversities and unflustered 
under stress. Mr. Duncan has been intuitive in formulating goals that 
prepare Chicago students for success in the global community,
    Mr. Duncan realized that not all students in the city of Chicago 
were receiving a quality education. He felt that it was time to make a 
change. After carefully analyzing the data, the vision and birth of 
Renaissance 2010 evolved. Renaissance 2010 is an initiative designed to 
create 100 high performing schools in targeted, underserved 
communities. Williams School was one of the first schools to close 
under this new initiative. This was indeed a difficult, bold and 
courageous step toward improving the quality of education in the 
Dearborn Homes Public Housing Complex. There was a great level of 
opposition from elected officials, community and faith-based leaders, 
parents, students and the Chicago Teachers Union. Mr. Duncan stood firm 
on his commitment and held community forums to listen to concerns of 
all stakeholders. He engaged the community throughout the process to 
create the type of school that would ensure that students obtain a 
quality education.
    Williams Multiplex reopened in 2003, The Multiplex consisted of 
four small schools within a school, serving children from pre-
kindergarten through high school. Under new leadership, the multiplex 
hosted a culture that embraced education. There was collaboration among 
all stakeholders, small class sizes and an environment conducive for 
learning. We partnered with Erikson Institute, world renown for early 
childhood education to offer onsite professional development for all 
staff. Funding was provided for an extended school day that afforded 
more time on task in the academics and daily professional development. 
Mr. Duncan embraced a culture that would concentrate on the entire 
child. The Responsive Classroom curriculum was utilized to address both 
social and emotional needs of our students. Various business and 
community partnerships were established to offer expertise and to serve 
as resources for our school.
    As instructional leaders, we can testify that Mr. Duncan is 
extremely committed in educating all children and seeking creative 
opportunities for them to be engaged in the process of learning through 
innovative programs during the day, after school programs and Saturday 
school. Mr. Duncan has given us the autonomy to think ``outside of the 
box,'' and we are now exploring the opportunity for Williams to become 
a school with the focus on engineering. Williams has risen from a 
school considered a failure, where little hope was seen for the future 
of the students to a place that is now considered a ``diamond in the 
rough.'' When Williams closed in 2002 data indicated that 17 percent of 
the students were meeting or exceeding State standards. Today, because 
of the support offered by Mr. Duncan and his team, 72 percent of the 
students are meeting or exceeding State standards. Parents from across 
the city are seeking to enroll their children in our school.
    Former Secretary of Education, William Bennett, once referred to 
Chicago Public Schools as ``the worse in the Nation.'' Under the 
leadership of Mr. Arne Duncan, the Chicago Public Schools is now 
considered as one of the models for the Nation when it comes to school 
reform. We feel that Mr. Duncan will be able to change the direction of 
education for all students.
            Sincerely yours,
                                          Kothyn Alexander,
                                Principal, Big Picture High School.

                                           Theresa V. Rhea,
                                 Principal, Williams Middle School.

                                     Marlene Pollard Heath,
                             Principal, Williams Elementary School.

                                           Frances M. Oden,
                                 Williams Multiplex Senior Advisor.
                                 ______
                                 
                                      Lester Crown,
                                         Chicago, IL 60601,
                                                   January 7, 2009.

Senate Committee on Health, Education, Labor, and Pensions,
428 Dirksen Senate Office Building,
Washington, DC 20510.

Re:  Recommendation of Arne Duncan as Secretary of Education

    Dear committee members: It is a privilege to have the opportunity 
to recommend Arne Duncan to the all-important position of Secretary of 
Education in President Obama's administration.
    Nothing is more essential for the long-term position of the United 
States in the complex world of today than a highly educated population. 
Colleges and universities throughout our country provide superb college 
and advanced education, but we must vastly improve education for all 
U.S. citizens at the K-12 level. There are few people better equipped 
to provide the leadership for this daunting task than Arne Duncan.
    After graduating magna cum laude at Harvard in 1987, where he was 
also co- captain of their basketball team and named to the Academic 
All-American first team all 4 years of his college career, he then 
played professional ball in Australia.
    Arne comes from an academic environment--his father was a professor 
at the University of Chicago and his mother ran tutoring programs for 
inner-city children. After spending 3 years in the non-profit 
educational world, Arne joined the Chicago Public School system as 
chief of staff and 3 years later was appointed chief executive officer 
succeeding Paul Vallas.
    During his 7-year tenure, he has instituted dramatic and effective 
improvements in the Chicago Public School system bucking entrenched 
bureaucratic obstacles, an intransient teachers union and a non-
cooperative inner-city environment. He has accomplished a great deal 
with ingenuity, thoughtful understanding of the complex problems, 
personal persuasion, perseverance and a tremendous number of hours of 
hard work.
    The inner-city problems of Chicago mirror those of most large 
cities in the country making the delivery of quality education 
difficult. Over the past 7 years, Arne has presided over an improvement 
in standard test scores at the elementary and high school level, the 
percentage of high school graduates who go on to college, the 
institution of a performance-based pay program for teachers and has 
backed the establishment of charter schools to create competition in 
the school system. He has opened a record number of new schools and 
closed underperforming schools while negotiating a long-term contract 
with the teachers union after many years of labor unrest and numerous 
strikes. In addition, he has provided prudent fiscal management.
    All told, I am convinced that Arne Duncan would make an excellent 
Secretary of Education.
            Sincerely,
                                              Lester Crown.
                                 ______
                                 
                               Office of the Mayor,
                                           City of Chicago,
                                                   January 9, 2009.
Hon. Edward M. Kennedy, Chairman,
Hon. Michael B. Enzi, Ranking Member,
Committee of Health, Education, Labor, and Pensions,
U.S. Senate,
Dirksen Senate Office Building SD-428,
Washington, DC 20510.

    Dear Mr. Chairman and Senator Enzi: As Mayor and on behalf of the 
city of Chicago, I write in support of the nomination of Arne Duncan to 
be the next Secretary of the U.S. Department of Education.
    As Chief Executive Officer of the Chicago Public Schools for the 
past 8 years, Arne Duncan has done a remarkable job improving the 
quality of education offered to all of our students. He has shown an 
openness to trying new, innovative approaches including closing 
underachieving schools, expanding charter schools, and rewarding 
teachers and principals for outstanding performance.
    The results of his efforts are clear. Elementary test scores are at 
an all-time high, our high school students' ACT scores have increased 
at a rate that is triple the national average, and this year our 
graduating seniors received a record $157 million in competitive 
college scholarships.
    Arne Duncan has brought a spirit of cooperation, achievement and 
hope for the future to all of our residents. I know he will bring the 
same spirit to the Department of Education and all Americans. I am 
pleased to support his nomination for this critical position.
            Sincerely,
                                          Richard M. Daley,
                                                             Mayor.
                                 ______
                                 
  Department of Education Recovery School District,
                                           New Orleans, LA,
                                                   January 7, 2009.
Hon. Edward Kennedy,
U.S. Senate,
Washington, DC 20510.

    Dear Senator Kennedy: Arne Duncan is an outstanding choice to 
become the next Secretary of Education. Not only is he one of the 
Nation's premiere education reformers, he is a man of great 
intelligence, compassion and common sense. He has initiated 
comprehensive, aggressive reforms while not becoming a polarizing 
figure--which is no easy feat. In Chicago, Arne closed failing schools, 
dramatically expanded charter schools, and promoted school choice and 
alternative certification programs that infused classrooms with the 
best and the brightest young teachers. Other school superintendents who 
have attempted these things have not done them nearly as well, while at 
the same time antagonizing the traditional education establishment.
    Arne is an education leader who supports No Child Left Behind and 
understands its strengths and the areas that need improvement. He is an 
individual who respects the traditional education establishment, but is 
not afraid to rock the boat (without throwing people off).
    I had the pleasure of working with Arne Duncan for 5 years in 
Chicago and believe that his honesty, integrity, respectfulness, work 
ethic and demeanor are ideally suited for the challenge ahead. While 
there were superb choices for the job, you could not do better than 
Arne Duncan.
            Sincerely,
                                            Paul G. Vallas,
                          Superintendent, Recovery School District.
                                 ______
                                 
                         Dodge Renaissance Academy,
                                         Chicago, IL 60612.
Senator Edward Kennedy,
Senator Michael B. Enzi.

    Dear Senators: Arne Duncan has been a champion for children in 
Chicago. He has placed great emphasis on turning around failing schools 
so that all children in Chicago can have a quality education, 
regardless of their zip code. Without Arne Duncan's leadership Dodge 
Renaissance Academy could not be the high performing school that it is 
today. In addition Arne Duncan was instrumental in helping AUSL develop 
the Urban Teacher Residency Model where Dodge Academy is now training 
men and women in a year-long residency program to become the school 
district's next generation of highly effective urban teachers. We are 
proud that his work has been recognized at the national level and look 
forward to his continued leadership. We think that Arne Duncan will be 
a great innovative Secretary of Education and that he will ensure the 
work towards bringing equity for children in education will continue in 
our Nation.
            Sincerely,
                                         Edward Morris Jr.,
                                                         Principal.

                                            Debra Moriarty,
                                                         Principal.
                                 ______
                                 
                                  The Field Museum,
                                         Chicago, IL 60605,
                                                   January 8, 2009.
Senator Edward M. Kennedy,
315 Russell Senate Office Building,
Washington, DC 20510.
Senator Michael B. Enzi,
379A Russell Senate Office Building,
Washington, DC 20510.

    Dear Senators Kennedy and Enzi: I am honored to write you today to 
endorse Mr. Arne Duncan as our new U.S. Secretary of Education. We need 
a Secretary of Education who has first-hand experience dealing with the 
challenges facing our schools. We need a leader who has a track record 
of accomplishment in education reform. We need a visionary who has an 
unwavering commitment to providing all of our citizens an equal 
opportunity to participate in high-quality learning experiences. Mr. 
Duncan has these qualities and qualifications. As Secretary of 
Education, he will work tirelessly to ensure that the United States 
regains its standing as the world's leader in providing exceptional 
educational opportunities for students of all ages and circumstances.
    As the CEO of one of the Nation's largest urban school systems, Mr. 
Duncan has demonstrated exceptional leadership. During his tenure, 
Chicago Public Schools (CPS) has opened 76 new schools, including 
charter and performance schools. These schools have provided Chicago 
families with valuable alternatives and choices. Mr. Duncan has 
initiated systemwide reforms, such as the Chicago Math and Science 
Initiative, that have provided consistency and focus in curricular 
choice and coordination across the system. His emphasis on teacher 
quality and professional development has resulted in increases in the 
number of highly qualified teachers and improvement in the quality of 
instruction in CPS classrooms. Mr. Duncan has also demonstrated a 
willingness to engage with and make tough decisions around hotly 
contested issues, such as closing poorly performing schools and 
implementing merit pay for teachers.
    Under normal circumstances, the qualifications I've outlined above 
would be sufficient to justify my endorsement of Mr. Duncan. However, 
given the state of our economy and the systemic nature of our education 
challenges, the next U.S. Secretary of Education must be committed to 
innovation and non-traditional solutions. Arne Duncan is such a person. 
During his tenure at CPS, he has consistently sought out advice from 
leaders in other sectors, secured funding from non-traditional sources, 
and established partnerships with a wide variety of organizations. 
Chicago's philanthropic, business and non-profit communities have 
rallied behind Mr. Duncan in a way that speaks volumes about his 
ability to engender interest and commitment to education reform.
    As a board member of the Chicago Public Education Fund, I can 
testify to his effectiveness in building alliances between local 
corporations and Chicago Public Schools. With his support, the Fund has 
secured new investments totaling $20 million in venture capital to 
build school leadership. Through Renaissance 2010, Mr. Duncan has 
introduced competition and innovation in school design to CPS. This 
initiative is supported by an alliance of grassroots organizations, 
education reformers, academic institutions and corporate leaders. 
Arne's commitment to diversity and quality in school choice has been 
unwavering.
    Mr. Duncan has also consistently encouraged Chicago's museum 
community to work with him on education reform. The Field Museum's 
partnership with CPS is extensive; we serve over 650,000 students, 
teachers, and families each year through education programs. We 
collaborate with Mr. Duncan on the High School Transformation Project 
by training high school science teachers on museum-based science 
curricular. We will launch an initiative next fall with the CPS Office 
of Math and Science to train 750 K-3rd grade teachers in scientific 
content and pedagogy using museum resources. Our partnership with the 
CPS Office of Early Childhood Education trains community pre-K teachers 
on early scientific skills. Mr. Duncan's success in securing diverse 
community resources, including museums, will serve him well as he 
develops an education strategy in these tough economic times.
    President-elect Obama has outlined an aggressive education agenda 
focused on learning outcomes, investment in teacher preparation and 
performance, early childhood education and second choice. Mr. Duncan 
has advocated successfully for similar reforms in Chicago, and has a 
solid record of success. Together, President-elect Obama and Arne 
Duncan will succeed in making dramatic improvements in educational 
opportunities for all. The Field Museum is ready and willing to assist 
in this work.
    Thank you for the opportunity to write in support of Mr. Duncan's 
appointment. If you should have questions or require additional 
information, please do not hesitate to contact me.
            Sincerely,
                                     John W. McCarter, Jr.,
                                                 President and CEO.
                                 ______
                                 
           Financial Investments Corporation (FIC),
                                           January 7, 2009.

    Dear Senator Edward Kennedy and Senator Michael Enzi: It is with 
great pleasure that I write this letter in support of Arne Duncan's 
nomination to become Secretary of the U.S. Department of Education. 
Having known Mr. Duncan for some 20 years, I can attest to his keen 
intellect, his unshakeable integrity and his unswerving dedication to 
advancing the best interests of children.
    I first met Mr. Duncan when he was heading the I Have A Dream 
program for the Ariel Foundation, a job that involved shepherding a 
group of children through school and into college. My family and I had 
``adopted'' a group of students through the I Have A Dream program in 
Chicago as well, and had the opportunity to collaborate with Arne on a 
number of substantive projects, including starting a charter high 
school on the city's west side. In tackling these efforts, as well as 
in working with his Dreamers, Arne displayed quiet determination and a 
willingness to find creative ways around entrenched problems.
    After successfully supporting his Dreamers, Arne went on to serve 
in various capacities at the Chicago Public Schools, including as Chief 
Executive Officer of a system responsible for educating over 400,000 
students. As a member of Chicago's business community and as the 
chairman of a family foundation actively engaged in improving 
educational outcomes for students on the west side of Chicago. I am 
deeply invested in and committed to our public schools. Under Arne's 
leadership, the business and philanthropic community has never been 
more deeply and seriously engaged in working together with educators to 
find new ways to strengthen teaching and learning. Arne's open and 
honest willingness to listen to good ideas, to collaborate with people 
across political and ideological lines, and his genuine focus on 
students have earned him not only the respect and partnership of people 
across the city, but have allowed him to lead the Nation's third 
largest school system in a number of pivotal new directions.
    Under Arne's steady hand the Chicago Public Schools have focused 
more strategically on recruiting, supporting and retaining effective 
teachers, working with the teachers' union, local foundations and 
outside providers to implement programs as diverse as performance pay 
initiatives, National Board Certification training, and the placement 
of literacy coaches in schools across the district. Among other 
encouraging results, a recent study demonstrated a marked improvement 
in the caliber of teachers working in Chicago classrooms, and the city 
now leads the Nation in master teachers.
    Unwilling to allow chronically failing schools to remain in 
business, Arne launched Renaissance 2010, an initiative that brought 
civic leaders together with the public schools to close or 
``turnaround'' chronically failing schools and replace them with more 
effective programs and options. The net result is that Chicago families 
now have more quality school choices than ever before, graduation rates 
and dropout rates are moving in the right directions, and elementary 
scores have been steadily rising. While no one, least of all Arne, 
believes the work is complete, his legacy of focus and commitment is 
clear and has redounded to the benefit of the city's students.
    As a member of the Civic Committee of the Commercial Club of 
Chicago, as the head of a local foundation that has spent over a dozen 
years and $20 million to help revitalize an isolated and impoverished 
community in the city, I am sorry to see Arne leave his position as 
head of the Chicago Public Schools. His quiet determination and child-
centered and bold leadership will be missed, as will his ability to 
work collaboratively and respectfully with a wide array of community 
and civic partners.
    As a longtime friend and someone who cares about the future of our 
economy and our citizenry, I applaud his nomination and think that 
President-elect Obama could not have nominated someone with a stronger 
skill set, a deeper commitment, or a more compelling vision to fill 
this position.
    I wholeheartedly support this nomination and am happy to provide 
whatever further information or insight might be desired.
            Sincerely,
                                        Harrison I. Steans,
                               Chairman of the Executive Committee.
                                 ______
                                 
            Office of the Illinois State Treasurer,
                                           January 9, 2008.
Hon. Edward Kennedy,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate, Dirksen 428,
Washington, DC 20501.

    Dear Senator Kennedy: It is my esteemed honor to formally and 
enthusiastically support Arne Duncan's nomination to serve as the U.S. 
Secretary of Education.
    Since being appointed Chief Executive Officer of the Chicago Public 
Schools in 2001, Mr. Duncan has utilized his experience in developing 
exemplary educational opportunities for the inner-city children of 
Chicago's south side with the Ariel Education Initiative to take on the 
arduous task of ensuring that every child in the City of Chicago has 
equal access to a quality education. In a city like Chicago, with its 
religious, ethnic, and socioeconomic diversity, this is not a simple 
responsibility to assume. Nonetheless, in the past 7 years, Mr. Duncan 
has successfully initiated structural improvement to dilapidated 
schools, reduced the amount of overcrowded classrooms, recruited and 
retained quality educators, increased community involvement in the 
education system, and increased the amount of students who graduate 
from high school and pursue higher education.
    While I have no doubt that Mr. Duncan's experience and 
accomplishments will make him an exceptional Secretary of Education, I 
also believe his leadership abilities and passion for improving the 
lives of children will make him one of the most outstanding public 
servants to ever serve this country. I have had the privilege to know 
Mr. Duncan personally and professionally and cannot think of another 
public servant with the same conviction to ensure that every child has 
access to a quality education. The dedication Mr. Duncan has to fulfill 
the mission of Chicago Public Schools has transcended throughout the 
entire agency, making it an example to all government agencies 
throughout Chicago and the State of Illinois. Mr. Duncan is one of the 
most committed, most intelligent, most passionate, and most effective 
individuals I have ever met.
    I recommend that Mr. Duncan be appointed the U.S. Secretary of 
Education without reservation. I am certain that he will have an 
extraordinary impact on the Department of Education and will redefine 
the role of future administrations.
            Sincerely,
                                         Alexi Giannoulias,
                                          Illinois State Treasurer.
                                 ______
                                 
                   George Westinghouse High School,
                                         Chicago, IL 60624.

Edward Kennedy,
U.S. Senator for Massachusetts,
317 Russell Senate Office Building,
Washington, DC 20510.
Michael Enzi,
U.S. Senator for Wyoming,
379A Russell Senate Office Building,
Washington, DC 20510.

    Dear Senators: I submit this letter to the Senate Committee on 
Health, Education, Labor, and Pensions to express my full support for 
the confirmation of Mr. Arne Duncan as Secretary of Education for the 
United States of America. Currently, I am principal of George 
Westinghouse High School in Chicago, IL. I have 10 years experience in 
Chicago Public Schools (CPS) as a teacher and administrator.
    My support for Mr. Duncan is based on the leadership that he has 
exhibited during his tenure as Chief Executive Officer (CEO) of CPS. I 
have participated in the transformation of CPS from what former 
Secretary of Education William Bennett called ``the worst in the 
Nation,'' to one of the leading large urban school districts in the 
country.
    Educational reform is not merely a buzz word in Mr. Duncan's 
administration; instead it is a theory of action. This is evidenced by 
the many change-oriented initiatives that we have witnessed in CPS, the 
strengthening of principal preparation requirements, teacher quality, 
selection of high quality curriculum, and human resource development 
which has resulted in a dramatic increase in National Board Certified 
teachers in CPS. All of these initiatives led to improvements in 
literacy and math instruction that resulted in increased student 
achievement from approximately 40 percent of Chicago Public School 
students meeting or exceeding State standards to 68 percent in 2008. 
These improvements have also led to higher attendance rates, an 
increase in the number of freshmen on-track to graduate, higher student 
retention rates, and a decrease in the high school drop-out rate.
    The most notable of Mr. Duncan's leadership was the unprecedented 
and courageous step to close underperforming schools. During his tenure 
he has closed many underperforming schools that have failed students, 
families, and society for years and replaced them with viable education 
options. For the first time in Chicago Public School history there is a 
system of choice for poor and minority students. These choices include 
CPS partnered chartered schools, contract schools, and small schools as 
well as new neighborhood schools.
    Mr. Duncan has been successful because of his unique ability to 
engage all of the stakeholders involved in the educative process of 
children. He successfully collaborates with parents, students, 
teachers, administrators, politicians, and policymakers to ensure that 
the Chicago Public School system continues to make substantive 
improvements in teacher quality, human resource development, and 
educational funding support and reform in Illinois.
    I wholeheartedly recommend Mr. Duncan for the cabinet position of 
Secretary of Education. I know that this will allow the entire country 
to benefit from decisive policy improvements, post-modern strategic 
thinking, and courageous leadership in the area of education.
            Sincerely,
                                         Janice K. Jackson,
                                                         Principal.
                                 ______
                                 
                           Harvard Business School,
                                           January 7, 2009.

    Dear Senators Kennedy and Enzi: I am writing to express my 
enthusiastic support for the nomination of Arne Duncan as Secretary of 
Education.
    The Chicago Public School System (CPS) was an original participant 
in the 7-year old Public Education Leadership Project (PELP), a 
partnership among the Harvard Graduate School of Education, the Harvard 
Business School and nine urban districts. As co-chair of this project, 
I have worked closely with Mr. Duncan since its inception. The purpose 
of the project was to build leadership and managerial capabilities in 
urban districts that would focus all of their resources on improving 
student performance. We adopted the best ideas from business and the 
nonprofit sectors and then adapted them to the unique environment of 
complex public education systems. The approach was based on the 
hypothesis that this knowledge was essential for any organization to 
attain high performance and that it did not exist in any coherent form 
for the public education sector.
    Mr. Duncan was highly engaged and a major contributor to every 
aspect of the project from its design, to participating with his 
leadership team in four on-campus executive education programs, to 
planning how the ideas might be spread to other urban districts. Most 
importantly, under Duncan's leadership, Chicago embraced and 
implemented a number of organizational reforms that contributed to 
material gains in student achievement. I have attached a November 2006 
Harvard Business Review article that describes some of the significant 
changes that the district implemented. (See pages 62-63.)*
---------------------------------------------------------------------------
    * The article referred to may be found at http://hbr.org/2006/11/
how-to-manage-urban-school-districts/ar/1.
---------------------------------------------------------------------------
    I also had the opportunity to co-author two cases about the CPS. In 
doing so, I interviewed dozens of people including teachers, 
principals, regional managers and district personnel. A few themes were 
common across all of my conversations.

    <bullet> The activities and projects that were being implemented 
throughout the district evolved from a strategy of continuous 
improvement with student learning at its core.
    <bullet> Despite continuing budget constraints and the difficulty 
of implementing and sustaining improvement, the strategy in place would 
not be compromised.
    <bullet> There was a sense of optimism and high expectations of 
performance that permeated the district.
    <bullet> CPS, which had been considered by many as hopeless in the 
past, was making major improvements and was capable of effectively 
educating all of its 434,000 students.
    <bullet> There was no ideology behind decisions made by the 
leadership of the district other than to improve teaching and learning. 
This meant embracing any innovation that helped drive their strategy, 
regardless of its origin, and included charters and a national 
nonprofit organization that trained principals.
    <bullet> Arne Duncan was a strong and effective leader who could 
make the needed tough decisions in a way that did not polarize the 
factions that were usually at odds over change.

    As our project evolved, we observed that, of the limited number of 
urban districts in the country that had measurably turned the tide in 
recent years and whose student performance was on an upward trajectory, 
most of them had embraced concepts similar to those advocated by the 
PELP project. In March 2006, Mr. Duncan hosted a dinner in Chicago for 
some of the key leaders of the project to discuss ways to spread these 
ideas to other districts around the country. We have undertaken 
initiatives to impact other districts but have come to realize that in 
order to have a more rapid and broad-based impact, a national platform 
has to be in place.
    Mr. Duncan understands what it takes to effect sustained change in 
the classroom, the only place in the end that it really matters. Unlike 
some in the field who advocate that we need to start from scratch and 
redesign our public school systems, Mr. Duncan has proved that he can 
effectively reframe both the dialogue and the reality of a school 
district. I am confident that he has the capabilities, determination 
and the care for the young people of this country to accomplish the 
needed changes on a national level.
    Please contact me if I can provide any additional information.
            Yours truly,
                                            Allen Grossman.
                                 ______
                                 
              Harvard Graduate School of Education,
                                       Cambridge, MA 02138.
Senator Edward Kennedy,
Senator Michael B. Enzi,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Dirksen 428,
Washington, DC 20510.

    Dear Senator Kennedy and Senator Enzi: I write to endorse Arne 
Duncan's appointment as U.S. Secretary of Education. I have known Arne 
for the past 5 years, primarily through his involvement with the Public 
Education Leadership Program (PELP), a joint initiative between the 
Harvard Graduate School of Education and the Harvard Business School. I 
co-direct this program and, for the past 5 years, have participated in 
a week-long summer seminar with teams from urban school districts 
across the country, including the Chicago Public Schools. The program 
is intense and requires considerable preparation and participation by 
all members of the districts' teams, especially the superintendents.
    Arne Duncan has been a central contributor to the program and 
served as a model for other school superintendents. He is deeply 
committed to the education of all children, particularly low-income, 
minority, and second-language learners, who are enrolled in the 
Nation's large, urban school districts. Through participating in the 
program, Arne has advanced the knowledge and understanding, not only of 
himself and his team from Chicago, but also of superintendents and team 
members from districts across the country.
    Although I am not directly involved in the Chicago Public Schools, 
I know that Arne has made important progress there in improving the 
learning of students. I appreciate his readiness to draw upon a variety 
of programs and approaches (charter schools, community schools, 
National Board for Professional Teaching Standards, Teach for America) 
and to find ways of working constructively with leaders of the Chicago 
teachers union on progressive reforms such as Peer Assistance and 
Review.
    From a national perspective, Arne Duncan has the capacity to bridge 
differences between the two education interest groups that were 
prominent throughout the election. He clearly believes that improving 
student performance through improved teaching and accountability 
remains the school district's primary responsibility. However, he is 
not so single-minded in this regard as to discount the need for 
students, families. and educators to have additional supports if 
children are to truly learn.
    I strongly support Arne Duncan's candidacy and would be happy to 
respond to any questions.
            Sincerely yours,
                                       Susan Moore Johnson,
                    Pforzheimer Professor of Teaching and Learning;
            Co-director of the Public Education Leadership Program.
                                 ______
                                 
              Harvard Graduate School of Education,
                                       Cambridge, MA 02138.

    Dear Committee: I am writing this letter in strong support of Arne 
Duncan's nomination to the position of U.S. Secretary of Education. I 
am an Associate Professor at the Harvard Graduate School of Education 
and focus on the areas of leadership and organizational change. Prior 
to joining Harvard's School of Education, I was on the faculty of 
Harvard Business School (HBS) for 11 years. In both contexts, I have 
worked with Arne and his senior leadership team when he participated in 
the Public Education Leadership Program (PELP), a joint initiative 
between Harvard Business School and Harvard Graduate School of 
Education.
    By way of background, the PELP program is one in which urban 
districts bring senior leadership teams to Harvard for a week to work 
on problems of strategic importance to their districts. In this 
context, we engage in case discussions and group work in which the 
district teams meet with a facilitator to work on their strategic 
issues. Over the past 3 years, I have been the Harvard facilitator for 
the Chicago team's work and in this context have seen Arne in action 
with his team, in the larger collective context of the classroom, and 
beyond--for example, at Chicago Public Schools (CPS) in their annual 
leadership conferences (in which I was also a facilitator). I offer the 
following observations based upon my interactions with Arne in these 
contexts and also as a professor of leadership and organizational 
behavior.
    Several key leadership characteristics stand out that I believe 
make Arne Duncan an excellent choice for Secretary of Education. First, 
unlike many superintendents, Arne truly believes and practices 
leadership that is based upon collective, rather than individual 
authority. He is clearly ``the man'' and in charge at CPS, but at the 
same time, he constantly pushes those around him to forward their best 
thinking. He not only seeks out others' opinions, he expects and 
invites challenge as well. I can hear the echo of Arne's voice in the 
team meetings--``tell me, what do YOU [guys] think?'' This kind of 
leadership, a style that balances top down with bottom up 
decisionmaking, will serve him well as he tackles the large-scale 
issues in education that this country faces.
    Related to this, Arne is a leader who is passionate about pursuing 
smart solutions that will help ``all kids.'' Period. I recall his own 
presentation at the end of one week-long session where there was barely 
a dry eye in the room; he moved all of us to want to help solve the 
pressing problems of leadership and education in this country. Not just 
for CPS, but for all districts. For all kids. If there is another 
answer, a better answer, Arne is open to it. He understands the merits 
of keeping what works in a system, which has been important in a strong 
cultural context such as CPS. At the same time, Arne remains open to 
new ideas and options. I saw this respect for history married with 
respect for innovation alive and well in our discussions at Harvard. 
For example, while discussing one of the Chicago cases that was 
developed for PELP, Arne openly shared what his district had done and 
learned--but not as a fait accompli; rather, he presented these ideas 
as an ongoing learning process. That key insight--that having the right 
answer is a moving target and can never be totally ``planned for in 
advance''--remained with the group for the duration of our discussions. 
Arne is persistent.
    Finally, Arne is a leader who will lead by creating capacity in his 
department so that others can do their best work. While charismatic, he 
leads from a humble, honest stance. This engenders a tremendous amount 
of respect for him. He draws others into his cause, rather than takes a 
command and control stance from above. This leadership approach 
inspires others to lead as well. It also resonates quite well with the 
approach taken so far by President-elect Barack Obama as he seeks to 
rebuild this country's infrastructure. And, given the extent and 
severity of the problems facing our education sector today, this 
approach to leadership is not only useful, it's appropriate. Arne 
Duncan will not simply look for right answers; he will find ways to 
make those answers right by focusing on implementation, too.
    Thank you for your thoughtful consideration. I strongly support 
Arne Duncan for the position of U.S. Secretary of Education, and if I 
can provide additional information that would be helpful, I would be 
happy to do so.
            Sincerely yours,
                                            Monica Higgins.
                                 ______
                                 
              Harvard Graduate School of Education,
                                          January 12, 2009.

    Senator Edward M. Kennedy: It is with great pleasure and enthusiasm 
that I write this letter of recommendation for Arne Duncan to support 
his appointment and confirmation as the Secretary of Education for the 
U.S. Department of Education. I have known Arne for 5 years through his 
participation in the Public Education Leadership Project at Harvard 
University (PELP). I serve as a faculty member for the PELP initiative.
    I have been impressed with Arne's deep commitment to the delivery 
of high quality education to all of America's children. He is 
passionate about creating a U.S. education system where the color of 
one's skin and/or their economic circumstance does not dictate the 
level or quality of education they obtain. Arne has demonstrated, 
through his words and deeds, his commitment to social justice, equity 
and fairness.
    I am most excited about his appointment because, in this secretary, 
we will have someone who has done the hard work of improving schools in 
one of the toughest environments in the country. Through his integrity, 
his quiet but focused leadership, and his ability to reach across the 
aisle and build partnerships with diverse stakeholder groups, Arne has 
championed solid improvement in the Chicago Public Schools.
    I can think of no better candidate for the position of Secretary of 
Education in the Obama administration. I strongly endorse Arne Duncan's 
confirmation.
            Sincerely,
                                      Karen L. Mapp, Ed.D.,
                          Lecturer on Education, Program Director, 
                Educational Policy and Management Master's Program.
                                 ______
                                 
              Harvard Graduate School of Education,
                                           January 8, 2009.

Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Dirksen 428,
Washington, DC 20510.

Attention: Joe Kolinski

    Dear Senator Kennedy: I am delighted to write this letter 
supporting the confirmation of Mr. Arne Duncan for the position of 
Secretary of Education. I have known Mr. Duncan since he began his work 
as Superintendent of Chicago Public Schools. At that time I was the 
Superintendent of the Boston Public Schools and welcomed Mr. Duncan as 
a colleague engaged in the Council of Great City Schools and the Aspen 
Urban Superintendents Network. Since retirement from the 
superintendency in 2006, I have been at the Harvard Graduate School of 
Education as a Professor of Practice. Mr. Duncan has invited me to do 
some executive coaching with two of his Area Instructional Officers and 
his Chief for the Office of High Schools. I also have participated in a 
retreat for his senior leadership team and selected principals and 
teacher leaders. This has provided me with the opportunity to observe 
the amazing work he has done to reform and improve the Chicago Public 
Schools.
    Mr. Duncan will be an outstanding Secretary of Education. He has an 
unwavering commitment to educating all children, to ensure that they 
will graduate from high school ready without remediation for some type 
of postsecondary education which is essential to access opportunity. He 
is a leader who is a continuous learner and models the behavior he 
expects those he leads to follow. He understands leaders must hold 
accountable those they lead and provide them with the support necessary 
to be effective in their work. He listens, observes, and asks probing 
questions. He is not afraid to give others the permission to tell him 
what he may not want to hear. He embraces data and understands the 
importance of using data to make good decisions. He is not afraid to 
make difficult decisions and he is willing to take calculated steps to 
try new approaches to improve teaching and learning in schools and 
classrooms.
    Mr. Duncan has excellent political skills. His experience in 
working at the State and local levels with the executive and 
legislative branches of government have prepared him for his work with 
the executive and legislative branches at the Federal level. As a 
practitioner he will bring great insight to the impact of policy on 
practice and will be able to make the connections for policymakers and 
practitioners in school districts and schools.
    I know that Mr. Duncan will select a talented group of people to 
join his team of leaders in the Department of Education, will work with 
the many constituent groups to build support for education in America, 
and will be a champion for equity to ensure that those who need the 
most support receive it.
            Sincerely,
                                         Thomas W. Payzant,
                                             Professor of Practice.
                                 ______
                                 
              Harvard Graduate School of Education,
                               Office of the Academic Dean,
                                                   January 7, 2009.

    Dear Senators Kennedy and Enzi: I am writing in support of 
President-elect Obama's nomination of Arne Duncan as the next Secretary 
of Education. I have known Arne in two capacities: first, in my role as 
co-chair of The Aspen Institute Program on Education and Society; and 
second, as a faculty member and administrator at the Harvard Graduate 
School of Education.
    At Aspen I co-facilitate a small network of about a dozen urban 
superintendents that has been meeting in semi-annual professional 
development retreats for the last 8 years. Arne joined this network 
shortly after his appointment as CEO of the Chicago schools and has 
over the years become one of its leaders. He impressed me from the 
outset by his eagerness to learn from others who had been at this work 
for much longer, his openness to new ideas, and his thoughtfulness 
about his own work.
    In 2004 Arne and his senior leadership team joined a new executive 
leadership program jointly sponsored by Harvard's Business and 
Education Schools, and for the last five summers I have had the 
opportunity to observe Arne in action with his own leadership team and 
similar teams from several other large urban districts. Additionally, 
over these last several years, I have periodically visited schools in 
Chicago, met with his leadership team, and consulted with knowledgeable 
foundation officials, university researchers, and other community 
leaders in Chicago. As a consequence of these interactions, I have 
developed an enormous respect for Arne's steady, thoughtful, committed 
leadership style. He has somehow managed to initiate very bold, 
potentially controversial initiatives while maintaining strong 
political support in an education community that was intensely 
polarized prior to his administration. I think the keys to his success 
have been his unquestioned integrity, his relentless focus on data and 
evidence, his willingness to listen to competing views, and--above 
all--his insistence that the interests of the kids in his care must 
take precedence over the interests of the adults in the system.
    While there are no guarantees that people who have been effective 
leaders at the district level will be equally successful in Washington, 
I think Arne Duncan has the potential to be a great Education 
Secretary. In addition to the personal qualities I just cited, he is a 
fast learner, picks good people and gives them lots of running room, is 
quick to take personal responsibility for mistakes, and could not have 
survived and flourished in Chicago without very good political 
instincts. While the press has in my view exaggerated the tensions in 
the reform community among the different camps competing for the 
President-elect's ear on education policy, a very significant benefit 
of this appointment is that Duncan commands respect across the entire 
reform spectrum, including the leadership of at least one of the 
national teacher organizations. I might also note that Duncan's 
personal relationship with the President-elect cannot help but enhance 
the status of education in this administration. For all these reasons, 
I strongly encourage you to confirm his appointment as the next 
Secretary of Education.
            Sincerely,
                                           Robert Schwartz,
                                                 Academic Dean and 
                     William Henry Bloomberg Professor of Practice.
                                 ______
                                 
               Illinois Education Association--NEA,
                                Springfield, IL 62704-1999,
                                                   January 9, 2009.
Hon. Edward M. Kennedy,
U.S. Senate,
317 Russell Senate Office Building,
Washington, DC 20510.
Hon. Michael B. Enzi,
U.S. Senate,
379A Russell Senate Office Building,
Washington, DC 20510.

    Dear Senator Kennedy and Senator Enzi: I am writing in strong 
support of the nomination of Arne Duncan as the next U.S. Secretary of 
Education. As the executive director of the Illinois Education 
Association--NEA, I have worked with Mr. Duncan on a number of 
occasions in efforts to improve the public schools in Illinois.
    Arne is particularly committed to high-quality education for all 
students. He believes this is the civil rights issue of our generation. 
He is extremely effective in bringing together people with various 
expertise and points of view and forging strong working relationships 
to try new ways to reach students we have not been effectively 
educating. He is also committed to learning from these efforts and 
understands the importance of research and evaluation as critical tools 
in redesigning the entire public education system.
    I believe that Arne Duncan's vision and passion, and his skill at 
bringing people together around this vision of success for all 
students, will make him an exceptional Secretary of Education.
    I strongly endorse his nomination.
            Sincerely,
                                           Jo Anderson Jr.,
                                                Executive Director.
                                 ______
                                 
        Illinois Network of Charter Schools (INCS),
                                         Chicago, IL 60604,
                                                  January 12, 2009.
Hon. Edward M. Kennedy,
2400 JFK Building,
Boston, MA 02203.

    Dear Senator Kennedy: On behalf of over 20,000 public school 
students, 3,000 public school teachers, 500 civic and community leaders 
innovating and creating new models of public education, I write to 
strongly recommend Arne Duncan as U.S. Secretary of Education. As the 
Executive Director of the Illinois Network of Charter Schools (INCS), I 
have had the honor of working with Mr. Duncan for the past 4 years. I 
had the pleasure of going to elementary and high school with Arne, so 
my knowledge of his character, judgment and values date back more than 
30 years.
    Mr. Duncan is rightly recognized as a courageous leader of 
fundamental transformation of urban education in the Chicago Public 
Schools. Widely recognized as the lowest performing urban school system 
a decade and a half ago, Mr. Duncan has presided over an aggressive and 
visionary transformation of the public schools. Mr. Duncan embraced a 
vision of a system of schools that work for students rather than the 
tired old model of a school system. In transforming Chicago's schools, 
Mr. Duncan has made tough decisions, down to the ultimate decision of 
refusing to tolerate low expectations and closing schools that are 
failing. That decision is too often avoided, to the determent of 
students and teachers.
    Nevertheless, Mr. Duncan is especially skilled at recognizing the 
viewpoints and needs of all public education stakeholders and has built 
meaningful avenues of input for everyone. First and foremost, Mr. 
Duncan is honest and rigorous about data. He is unfailing in expecting 
and using objective and rigorous data to make decisions. His work 
forging a strong, on-going and symbiotic relationship with the 
University of Chicago's Consortium on Chicago School Research is an 
excellent example of this intellectual rigor and honesty. Similarly, 
Mr. Duncan has forged direct policy conversations with rank and file 
teachers, students and parents so that he can make decisions with 
maximum reliable information. He has a unique ability to synthesize 
disparate viewpoints and move the policy agenda.
    On a personal note, I have been especially moved by Mr. Duncan's 
grace in addressing the terrible toll violence, in our society, is 
taking on Chicago's students. Mr. Duncan goes above and beyond public 
leadership and takes a personal interest in the loss of every single 
child who was enrolled in a public school. His compassion to parents 
and guardians is unparalleled and beyond any professional obligations. 
At the same time, he has worked hard, and successfully, at 
significantly reducing violence in Chicago's schools.
    I am honored to have the opportunity to endorse Mr. Duncan as U.S. 
Secretary of Education. I know he has all of the resources, talent, 
experience and vision to be an exemplary Secretary of Education. His 
leadership will undoubtedly bring exponential positive changes to the 
students, teacher and American education system.
            Sincerely,
                                        Elizabeth A. Evans,
                                                Executive Director.
                                 ______
                                 
                 Illinois State Board of Education,
                                    Chicago, IL 60606-1698,
                                                   January 9, 2008.
Hon. Edward M. Kennedy,
U.S. Senate,
317 Russell Senate Office Building,
Washington, DC 20510.

Hon. Michael B. Enzi,
U.S. Senate,
279A Russell Senate Office Building,
Washington, DC 20510.

    Dear Senators Kennedy and Enzi: As Chairman of the Illinois State 
Board of Education, it has been my privilege and honor to work with 
Arne Duncan for over 4 years, and I gladly write to you in support of 
his nomination by President-elect Barack Obama to be the next U.S. 
Secretary of Education.
    Mr. Duncan has served as Chief Executive Officer of the Chicago 
Public Schools since 2001. During this time he has worked diligently to 
increase the level of student achievement in the Nation's third-largest 
school district. Indeed, the standardized test scores of Chicago Public 
School students have increased steadily during his tenure.
    He has achieved these impressive results by taking bold steps, such 
as closing failing schools, replacing ineffective teachers, and 
launching a performance-based compensation plan for teachers. Mr. 
Duncan understands the critical role teachers play in student learning 
and development, and is a strong proponent of teacher training and 
mentoring efforts, and supports programs designed to bring individuals 
with strong academic records from non-traditional backgrounds into the 
teaching profession. He has worked with colleges and universities to 
help them better prepare the teachers our students need. Mr. Duncan 
also understands when it comes to education, one-size-does-not-fit-all, 
and has championed the creation of new charter schools and affinity 
schools in Chicago, so that each and every child may find the 
appropriate learning environment to help them all succeed.
    Mr. Duncan supports accountability for our Nation's schools, but 
also understands the effects that Federal laws, such as the No Child 
Left Behind Act, have on schools, students and teachers. His experience 
as the chief executive officer of a large urban school district has 
given him unique insights that will serve him well as he leads the U.S. 
Department of Education, and help our Nation's schools better serve all 
our students.
    Mr. Duncan knows that a child's learning begins at birth, and has 
been very supportive of the Illinois State Board of Education's efforts 
to expand our nationally-recognized Preschool for All program. He has 
worked to expand early childhood education opportunities in the Chicago 
Public Schools, by increasing the enrollment of preschool students by 
over 1,000 students each year.
    Mr. Duncan also understands all too well how socio-economic factors 
impact student learning. He has attended the funerals of a number of 
Chicago Public School students who were victims of violence, and has 
personally visited the homes of countless students to implore them to 
return to school. He has looked to ensure that his students who might 
otherwise go hungry have three nutritious meals at school, and meals to 
take home over the weekend. He has worked hard to find mentors for his 
students, and patrons for his schools. He has also partnered with 
nonprofits and foundations to provide additional after school programs 
and resources for his students, teachers, and schools.
    Arne has always been driven by his sincere desire to help children 
and students achieve their full potential, and this motivation has 
served the Chicago Public Schools extremely well. He understands that 
providing all students in America with access to high quality 
educational opportunities, from preschool to graduate school, is a 
national imperative. For these reasons, his impeccable credentials and 
qualifications, and the many other fine qualities that Arne possesses, 
I wholeheartedly and enthusiastically support the nomination of Arne 
Duncan to become our next U.S. Secretary of Education.
            Very truly yours,
                                             Jesse H. Ruiz,
                       Chairman, Illinois State Board of Education.
                                 ______
                                 
                      Jobs for America's Graduates,
                                           January 8, 2009.
Hon. Edward M. Kennedy,
U.S. Senate,
317 Russell Senate Office Building,
Washington, DC 20510-2101.

Hon. Michael B. Enzi,
U.S. Senate,
379A Russell Senate Office Building,
Washington, DC 20510-2101.

Attn: Roberto Rodriguez; Beth Buehlman.

    Dear Senator Kennedy and Senator Enzi: On behalf of our entire 
Board of Directors and our Chairman, Governor John Baldacci, it is my 
pleasure to write this letter of enthusiastic support for the 
confirmation of Arne Duncan as Secretary of Education.
    We have worked closely with Arne both in the highly successful 
implementation of JAG in many of the Chicago high school and middle 
schools, as well as at the national level on critical educational 
issues.
    In our view Arne has shown truly remarkable insights into both the 
practical aspects of the effective delivery of education and, at the 
same time, the design of the critical policies that support the 
practical execution on the ground that result in real gains in academic 
achievement. Those are very rare skills in our experience.
    As important to us is his deep dedication to young people and, in 
our case, those most at-risk. That is what attracted us to him to 
partner in the implementation of JAG in the Chicago schools.
    Finally, our experience demonstrates that Arne is a man of the 
highest integrity and personal character. He is someone we believe our 
country will be especially proud and grateful to have as Secretary of 
Education in one of the most challenging times in our history.
    We therefore urge your full support and that of your committee for 
his confirmation.
    Please don't hesitate to let us know of any questions.
            Sincerely,
                                          Kenneth M. Smith,
                                                         President.
                                 ______
                                 
                            Rainbow PUSH Coalition,
                                           January 9, 2009.

Mr. Joe Kolinski,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate, Dirksen 428,
Washington, DC 20510.

    Dear Mr. Kolinski: Providing a high-quality education for all 
children is by far the pre-eminent, civil rights issue of our era. 
Every year, more than 1 million students in this country drop out of 
high school without a diploma and are subsequently ill-prepared for 
work or postsecondary education. As I reflect on the great work of Arne 
Duncan in the realm of education, I am reminded of a powerful quote 
from my mentor, the Reverend Dr. Martin Luther King, Jr.:

        ``The function of education is to teach one to think 
        intensively and to think critically . . . Intelligence plus 
        character--that is the goal of true education.''

    Mr. Arne Duncan is best described through these four components: an 
intensive thinker, a critical thinker, a man of intelligence, and a man 
of character. Therefore, as President and Founder of the Rainbow PUSH 
Coalition, it is with great honor that I write to support Mr. Arne 
Duncan's nomination as U.S. Secretary of Education. During Mr. Duncan's 
tenure as Chief Executive Officer of Chicago Public Schools, he has 
been a social engineer for much-needed reform. His passion for 
providing a high-quality education for all children has propelled him 
to take risks and challenges and to think ``outside of the box'' to 
close the achievement gap by improving teacher quality, closing failing 
schools, increasing advance placement courses, and so much more.
    He has demonstrated through his efforts of reform that he believes 
that children have the inherent right to reach their full potential as 
citizens. He has demonstrated through his mobilization efforts to 
equalize funding for all students that it is morally wrong to have a 
two-tiered education system. He has a record of putting students first 
above politics. Arne has seen the impact and effect of education reform 
firsthand and, under his leadership, he has demonstrated a keen ability 
to do what is right and fair versus what is political and not. 
Additionally, he has
proven, as a leader of the third largest school district in the United 
States, that he has the right temperament to make effective change by 
building bridges with unions, community organizations, foundations, 
corporations, and parents.
    During these times of uncertainty on every front, I am convinced 
that the next Secretary of Education calls for a person of heroic 
imagination and determination. I believe that Mr. Duncan is uniquely 
qualified for this position because he has been on the ground level 
fighting for equality and bringing change to its fruition. I am 
confident that Mr. Duncan will continue to build bridges but, more 
importantly, make significant change in education reform so that all 
students' dreams can be actualized.
    Keep Hope Alive!

                            Reverend Jesse L. Jackson, Sr.,
                                             Founder and President.
                                 ______
                                 
                              The Joyce Foundation,
                                           January 9, 2009.
U.S. Senator Mike Enzi,
379A Senate Russell Office Building,
Washington, DC 20510.

U.S. Senator Edward M. Kennedy,
317 Senate Russell Office Building,
Washington, DC 20510.

    Dear Senators Enzi and Kennedy: I am writing to support the 
nomination of Arne Duncan as Secretary of the U.S. Department of 
Education.
    As president of a large nonpartisan foundation focused on public 
policy, I have worked closely with many elected and appointed 
officials. Arne is among the very finest public officials I have 
encountered. I believe he will be an excellent Secretary for several 
reasons:

    <bullet> He has a bedrock commitment to kids, and a relentless 
focus on results. He believes in using data to track student and school 
performance, and is not shy about reporting results to parents, to 
educators, and to the community at-large.
    <bullet> Student performance in Chicago is up. Students have shown 
improvements in both reading and math--elementary test scores have 
risen to 67 percent of students meeting State standards up from only 38 
percent 7 years ago. High school graduation is up from 47 to 55 
percent, and more students are going to college.
    <bullet> He can change tough bureaucracies. For example, he 
established systems to improve teacher and principal quality. He 
increased teacher recruiting efforts so that there are now 10 
applicants for every spot up from two a few years ago; he raised the 
eligibility bar for principals; he expanded support for new teachers; 
he increased the number of Nationally Board Certified Teachers from a 
handful in 2001 to 1,160 in 2008; he introduced a new performance pay 
system (made possible through the Federal Teacher Incentive Fund); he 
overhauled teacher evaluation; and he worked for a teachers union 
contract that preserves a principal's ability to hire the best 
instructional team for that particular school.
    <bullet> He is an innovator:

        <bullet>  Launched Renaissance 2010, an initiative to open 100 
        new, innovative schools in a 6-year period to replace low 
        performing schools.
        <bullet>  Established a rigorous system for granting and 
        overseeing charter schools in the country. For example, a 2008 
        RAND study found that Chicago's charters have high school 
        graduation rates that are 7 percentage points higher than 
        regular public schools, and college-going rates that are 11 
        percentage points higher.
        <bullet>  Pioneered what is perhaps the most ambitious approach 
        in the country to turning around failing schools with teams of 
        skilled principals and teachers.

    In addition to these achievements, Arne's respectful, inclusive 
style has made it possible to make changes without making enemies in a 
highly politicized environment. He has the strong support of the 
business and philanthropic community, and he has remarkable coalition-
building skills. Speaking for the Joyce Foundation, I believe he will 
continue to attract support for his innovations and reform ideas in a 
new position.
    I urge you to support Arne's nomination, and would be pleased to 
provide further information if it would be helpful.
            Sincerely,
                                        Ellen S. Alberding,
                                                         President.
                                 ______
                                 
                      Roberto Clemente High School,
                                         Chicago, IL 60622,
                                                   January 9, 2009.
Senator Edward M. Kennedy, Chairman,
Senator Michael B. Enzi, Ranking Member,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Dirksen 428,
Washington, DC 20510.

    Dear Senators Kennedy and Enzi: My name is Leonard Kenebrew, 
Principal of Roberto Clemente Community Academy (RCCA) in Chicago 
Public Schools (CPS). I am writing this letter of support for Mr. Arne 
Duncan with whom I have had the honor of working with as his assistant.
    I was appointed by Mr. Duncan as Principal of a Small Learning 
Community school (South Shore Community Academy, Simeon Career Academy 
and currently contracted at RCCA). His leadership and collaboration 
creates opportunity for growth and shared leadership within the 
organization. He is a forward thinker about improving academic 
achievement for all students while connecting meaningful engaging 
activities for all constituents. I believe the changes that have taken 
place within the CPS system, are due to his proactive thinking and 
evolving partnerships within the neighborhoods, the research community 
and corporate America. I would define his leadership as 
transformational, his character with full of integrity and 
insightfulness, and his overall effectiveness with subtle dynamics and 
humanitarianism.
    I have become a better leader for being part of a variety of 
initiatives during his tenure as CEO that have challenged and improved 
the system. His appointment is appropriate and will transform the state 
of education across the country.
            Cordially,
                                          Leonard Kenebrew.
                                 ______
                                 
                                 Martin J. Koldyke,
                                    Chicago, IL 60603-4131,
                                                   January 8, 2009.
Hon. Michael B. Enzi,
379A Senate Russell Office Building,
Washington, DC 20510.

    Dear Senator Enzi: I am writing in support of the President-elect's 
nomination of Arne Duncan for Secretary of Education. I have known Arne 
for more than a decade, working closely with him and Mayor Daley on K-
12 school reform in Chicago where I have been active for more than 25 
years.
    Arne Duncan is an extraordinary school leader. As CEO of Chicago 
Public Schools he created a remarkable assemblage of talented 
individuals and organizations in a working unit, thus enabling 
Chicago's 500 public schools to move forward in a positive way. For 
example, for school principal selection and training, he involved New 
Leaders for New Schools, an organization founded in New York by 
Jonathan Schnur, and the Doctoral Program for School Leadership at the 
University of Illinois at Chicago. Perhaps the most important 
undertaking of Arne's stewardship has been to develop the brilliant, 
two-pronged pincer movement in Chicago comprised of the charter schools 
movement and AUSL (the Academy for Urban School Leadership). The 
charter schools and the AUSL movement, made up of resident teacher 
training for staffing turnaround schools, have together had a major 
effect on radical school reform in Chicago's most demanding 
neighborhoods. This two-pronged effort is transforming Chicago's worst 
performing schools. It's only a matter of time. And, Arne Duncan is 
responsible for making this possible.
    One can only hope that he will find a way to replicate this dual 
movement of charter schools coming from the outside and AUSL-like 
models working within the system to turn American public schools into 
models for improving student outcomes. Arne Duncan is a treasure. I 
urge you to confirm his nomination with deliberate speed.
    Thank you.
            Sincerely,
                                         Martin J. Koldyke,
                                     Founder and Chairman Emeritus,
                               Academy for Urban School Leadership.
                                 ______
                                 
                             Illinois State Senate,
                                           January 9, 2009.
Hon. Edward Kennedy,
317 Russell Senate Office Building,
Washington, DC 29510.

Hon. Michael B. Enzi,
379A Senate Russell Office Building,
Washington, DC 20510.

    Dear Senators Kennedy and Enzi: I take genuine pleasure in 
providing a letter of recommendation for Arne Duncan as he seeks your 
confirmation of his appointment as the next Secretary of Education. I 
have known Arne for over 30 years personally and professionally. I have 
watched him demonstrate his remarkable leadership skills as a 
classmate, teammate, civic leader and friend.
    As a classmate and teammate of Arne's at the University of Chicago 
Laboratory Schools, I observed his unselfish leadership, as he always 
strove to uplift the performance of other students or athletes in lieu 
of simply displaying his superior skills and talent. As an advisory 
board member and mentor at the Ariel Education Initiative (formerly the 
Ariel Foundation), I witnessed Arne reveal his passion and desire to 
educate disadvantaged students who faced complex challenges, as he 
served as executive director. As a legislator, I was impressed at how 
Arne, as Chief Executive Officer of the Chicago Public Schools, was 
able to utilize his unique communication and motivation skills to bring 
traditional adversaries to common ground and convince many resistant 
parties to accept the innovative changes he has employed to 
dramatically improve the quality of an otherwise troubled school 
system.
    Arne is an individual of irreproachable moral fiber and integrity. 
Even those who might disagree with Arne's policy decisions would never 
challenge his honesty or character. I know of nobody whom I would have 
more confidence recommending to a position of such significant 
responsibility than Arne Duncan.
    If you should have any further questions regarding my knowledge of 
Arne's reputation or qualifications, please feel free to contact me at 
773-363-1996.
            Very truly yours,
                                               Kwame Raoul.
                                 ______
                                 
             Leadership Conference on Civil Rights,
                                      Washington, DC 20006,
                                                  January 13, 2009.
Hon. Edward M. Kennedy, Chairman,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.

Hon. Michael Enzi, Ranking Member,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.

    Dear Chairman Kennedy and Ranking Member Enzi: On behalf of the 
Leadership Conference on Civil Rights (LCCR), the Nation's oldest, 
largest, and most diverse civil and human rights coalition, with nearly 
200 member organizations, we are writing to express our strong support 
for President-elect Obama's designee Arne Duncan for U.S. Secretary of 
Education. As the long-tenured and widely respected Chief Executive 
Officer of the Chicago Public Schools (CPS), the Nation's third largest 
school district, Mr. Duncan is uniquely qualified to lead the 
Department of Education.
    During Mr. Duncan's 7 years leading CPS, the system made steady and 
sustainable improvements by most academic measures, including both test 
scores and graduation rates, while also laying the foundation for 
continuing growth. It is clear from a review of his record and the wide 
variety of programs implemented in Chicago, Mr. Duncan's approach to 
improving schools was not driven by ideology, but rather by results. 
With the magnitude of the task awaiting the new Secretary of Education, 
no other approach is likely to succeed.
    Among his achievements in Chicago, Mr. Duncan instituted 
significant reforms for the Chicago teachers' corps, including pay-for-
performance salary incentives and increasing the number of master 
teachers from 11 to over 1,100. Most notably, he implemented these 
reforms in cooperation with the teachers union, rather than in combat 
with it. Mr. Duncan and the Chicago Teachers Union have proven that an 
inclusive approach to school reform works best to create well-designed 
programs that will work when taken from the drawing board to the black 
board. Mr. Duncan's track record at bridging the divide between so-
called ``reformers'' and ``traditionalists'' will serve the Department 
well, especially during the upcoming reauthorization of the Elementary 
and Secondary Education Act.
    As much of the Nation's attention is turned to the immediate 
economic crisis, Congress cannot lose sight of the fact that there can 
be no long-term solution to our economic problems without systemic 
education reform. America's public education system has fallen far 
behind our industrial competitors and without systemic reform and 
significant increases in funding, our children will not be prepared to 
compete in the 21st Century economy.
    We urge you to support Arne Duncan for Secretary of Education and 
to ensure that education reform and funding remain a priority issue in 
Congress going forward. We thank you for considering our views. If you 
have any questions, please contact David Goldberg, Senior Counsel, at 
(202) 466-0087 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f5b29a999197908792b5969c839c99">[email&#160;protected]</a>
rights.org, regarding this or any issue.
            Sincerely,
                                            Wade Henderson,
                                                   President & CEO.

                                              Nancy Zirkin,
                                          Executive Vice President.
                                 ______
                                 
    The John D. and Catherine MacArthur Foundation,
                                           January 8, 2009.
Hon. Edward Kennedy,
U.S. Senate,
317 Russell Senate Building,
Washington, DC 20510.

    Dear Senator Kennedy: I write in connection with your consideration 
of the confirmation of Arne Duncan as Secretary of the U.S. Department 
of Education. While I make these comments in my personal capacity, my 
experience with Mr. Duncan has been through my role as president of the 
John D. and Catherine T. MacArthur Foundation and the Foundation's 
support of his efforts in Chicago as well as complementary investments 
in community revitalization that support and increase the likelihood of 
successful schools.
    In my view, Arne Duncan is the right man at the right time for what 
is certainly the most important issue for the long-term strength of 
American society. The tasks before him are formidable: making 
significant progress on closing the achievement gap; attracting and 
retaining high-quality teachers; assuring the promise and addressing 
the challenges in No Child Left Behind, and equipping graduates with 
the 21st Century skills required for success in a global economy.
    He is up to the task, and his successful--and long--tenure as 
superintendent of the Chicago Public Schools is tangible evidence. He 
is innovative, as the opening of close to 100 new schools offering a 
wide range of choice and curriculum proves. He is bold and not afraid 
to take on tough issues and critics. He closed underperforming schools 
and reopened them in refreshed buildings with entirely new leadership 
and faculty. He is experimental and has piloted pay-for-performance to 
reward the best teachers and keep them in the schools that need them 
the most. He has done all of this and more while working hard to keep 
the teachers union a constructive partner and the business community an 
avid and involved supporter.
    Despite his success as a leader and the school district's progress, 
he is humble about that progress and acknowledges how much further he 
and others in education have to go to achieve the goal of truly every 
child educated, productive and prepared for whatever the future brings.
    If confirmed, President Obama will be able to put Arne Duncan's 
considerable expertise, creativity, drive and integrity to work on 
behalf of America's children.
            Sincerely,
                                        Jonathan F. Fanton,
                                                         President.
                                 ______
                                 
                                   Mikva Challenge,
                                         Chicago, IL 60602,
                                                   January 9, 2009.

    Dear Senators Edward Kennedy and Michael Enzi: On behalf of Arne 
Duncan's Student Advisory Council alumni, we are writing this letter to 
support the nomination of Arne Duncan for Secretary of Education.
    Where does one begin in attempting to list the contributions Arne 
Duncan has made to the educational system in Chicago? Mr. Duncan is 
truly a leader and is both known and respected for his original and 
unparalleled approach to improving the Chicago Public Schools and 
challenging the status quo.
    Arne Duncan's appointment is truly exciting news for students like 
us who embody the potential of all Chicago Public School students. As 
Chicago Public School graduates and college students at various 
universities across the Nation, we can attest to the difficulties 
facing urban school districts, especially the Chicago Public School 
system. However, we have also witnessed the courageous decisions that 
Mr. Duncan made that not only improved our former high schools, but 
schools all across Chicago. Mr. Duncan's common sense approach to 
revamping the Chicago Public School system has fundamentally changed 
the way administrators, principals, teachers and students approach 
education.
    The Chicago Public School's Educational Plan, ``Children First,'' 
could not have been better illustrated than through how Mr. Duncan 
sought the collective counsel from teachers, parents and, most 
importantly students. We were a part of a group of 20 students who had 
the privilege to serve on Mr. Duncan's Student Advisory Council. With 
the help and vision of the Mikva Challenge organization, Mr. Duncan 
became the first superintendent of the Chicago Public School system to 
establish a student advisory council. This council has been effective 
in providing the ``inside the classroom'' perspective that Duncan was 
unable to experience, but which we lived on a daily basis. Mr. Duncan 
supported the highly controversial request from his Student Advisory 
Council to allow students to train the 1,200 Chicago Public School 
Security Officers. The student trainings proved to be highly 
successful, so Duncan and the Chief of Security took the unprecedented 
step of making the trainings annual. Mr. Duncan has also sought the 
students' perspective on the best way the school district should tackle 
other critical hurdles such as school funding reform, violence, 
improving test scores and attendance rates, lowering dropout rates and 
increasing graduation rates.
    Mr. Duncan understands that there is no survey or any other 
indicator of progress more valuable than the opinions of students, and 
in our humble opinion, such commitment to student voice and engagement 
is one of the many factors responsible for the school district's steady 
progress in each of the aforementioned areas. Mr. Duncan even invited 
students to address every high school principal in the district at a 
conference during the past school year. This is but a taste of the many 
core strategies and innovative approaches that Mr. Duncan utilized for 
causes greater than himself.
    Mr. Duncan understands that the challenges facing the educational 
system in America are complex. Appointing Arne Duncan as the Secretary 
of Education is an investment in our collective future, and we are 
absolutely convinced that there is no one more competent to serve as 
the Nation's Secretary of Education than Mr. Duncan.
    Mr. Duncan's noteworthy commitment to education and service reveals 
a tireless and exceptional energy, and for that Mr. Duncan has our 
unqualified endorsement and the personal respect from Chicagoans and 
educators across the country.
            Best Regards,
                                             Arne Duncan's 
                           Student Advisory Council Alumni.

                                            De'Rell Bonner,
                                                 Howard University.

                                               Paul Krysik,
                                                   Oberlin College.

                                           Jennifer Osagie,
                                        Cleveland State University.

                                               Samuel Ryan,
                                                 DePaul University.
                                 ______
                                 
                    Museum of Science and Industry,
                                          January 12, 2009.

Hon. Edward Kennedy,
Hon. Michael B. Enzi.

    Dear Senators Kennedy and Enzi: It is my great honor to support 
Arne Duncan's nomination for the U.S. Secretary of Education. As the 
President and CEO of the Chicago Museum of Science and Industry, I have 
had the pleasure of working closely with Arne on a variety of Museum 
initiatives to inspire our Chicago Public School students and improve 
the skills of our city's science teachers. In each and every case, Arne 
has been an exceptional leader and innovator who is passionate about 
our students' learning opportunities and our public school teachers.
    Arne is singularly focused on the best interests of students and 
has worked tirelessly to maximize their opportunities for achievement 
in school as well as their daily lives outside of school. His hands-on 
approach to management and his continuous push to improve the Chicago 
Public School system, the country's third largest, makes him an 
outstanding candidate to be our Secretary of Education. His 
collaborative approach has proven how he can work with both teachers 
and school administrators to drive improvements in learning outcomes, 
finding creative solutions that all can support and that get results.
    He is also one of the smartest, most thoughtful and most decent 
public administrators you will ever meet. I urge the Senate to confirm 
his nomination as quickly as possible.
            Sincerely,
                                           David R. Mosena,
                                                 President and CEO.
                                 ______
                                 
         National Association of Elementary School 
                                Principals (NAESP),
                                      Alexandria, VA 22314,
                                                   January 9, 2009.
U.S. Senate,
Washington, DC 20510.

    Dear Senator: On behalf of the National Association of Elementary 
School Principals (NAESP), representing more than 28,000 elementary and 
middle-level principals, I would like to extend our support for the 
confirmation of Mr. Arne Duncan as U.S. Secretary of Education. Mr. 
Duncan's commitment to education is to be applauded and NAESP looks 
forward to working with him on issues of importance to principals and 
children.
    Mr. Duncan's recent hands-on experience dealing with issues facing 
Pre-K-12 educators makes him an ideal candidate for Secretary of 
Education. He's dealt with the implications of current Federal 
education laws at the local level and has a broad understanding of 
their successes and limitations. In testimony before the U.S. House 
Education and Labor Committee regarding the Elementary and Secondary 
Education Act (currently known as NCLB), Mr. Duncan asserted his 
support for accountability but called on Congress to provide local 
districts with greater flexibility in order to meet the individual 
needs of the schools and students. NAESP was particularly grateful for 
Mr. Duncan's call to double ESEA funding within 5 years and to shift 
the law's focus to individual student achievement over time.
    NAESP looks forward to working collaboratively with Congress and 
the Secretary of Education in reauthorizing the ESEA and ensuring that 
the voices of elementary and middle-level principals are represented. 
We urge Congress to abandon the current law's overreliance on 
standardized testing and instead focus on student growth over time with 
the proper use of multiple measures. Additionally, NAESP calls on 
Congress to prioritize its focus on serving the whole child, including 
meeting the nutritional, academic, social, and emotional needs of 
students. Principals understand that no child can be expected to learn 
if their basic needs are not being met, and we will continue to work 
with Congress to make this a priority in the reauthorization.
    Should you have any questions or concerns about NAESP's position on 
education-related issues, please do not hesitate to contact me or 
members of our advocacy staff: Dr. Michael Schooley, Dr. Sally 
McConnell and Abbie Evans. Educating all children to be highly adaptive 
learners in a rapidly changing and highly complex world demands our 
very best efforts as educators and legislators working together for the 
greater good of our country.
            Sincerely,
                                             Gail Connelly,
                                                Executive Director.
                                 ______
                                 

               For Immediate Release--December 17, 2008.*

             Obama Names Duncan as New Education Secretary
    (Washington, DC).--Educators across the country are praising 
President-elect Barack Obama's choice of Chicago public schools chief 
Arne Duncan as his nominee for the Cabinet post of Secretary of 
Education.
---------------------------------------------------------------------------
    * (For more information contact Bryan Jernigan, (202) 624-5455)
---------------------------------------------------------------------------
    ``We're very excited about working with Mr. Duncan and continuing 
our longstanding relationship with the Department of Education,'' said 
John B. Forkenbrock, executive director of the National Association of 
Federally Impacted Schools (NAFIS). ``Mr. Duncan has demonstrated his 
ability to raise the standards of a large school district like Chicago, 
and we're more than willing to help him reach out to rural schools as 
well as he recognizes the needs of federally connected school districts 
throughout this country.''
    The 44-year-old Harvard graduate has been called a ``champion'' by 
principals. Charter school leaders touted him as a ``national leader'' 
in innovation. And Rep. George Miller, D-CA, chairman of the committee 
that will oversee reauthorization of No Child Left Behind next year, 
called his track record ``bold''--the same word teachers and even a 
former Bush administration education official used to praise his work 
in Chicago.
    ``I am also eager to apply some of the lessons we have learned here 
in Chicago to help school districts all across our country,'' Duncan 
told reporters gathered at Dodge Renaissance Academy on December 16 in 
Chicago for Obama's announcement. ``We have worked with a tremendous 
sense of urgency because we can't wait.''
    ``Duncan has headed the Nation's third-largest school system for 7 
years and, during his tenure, he has raised elementary school scores, 
reduced dropouts and improved college-entry rates,'' Obama said.
    According to Obama, ``He's worked tirelessly to improve teacher 
quality, increasing the number of master teachers who've completed a 
rigorous national certification process from just 11 to just shy of 
1,200, rewarding school leaders and teachers for gains in student 
achievement.''
    ``He's championed good charter schools, even when it was 
controversial. He's shut down failing schools and replaced their entire 
staffs, even when it was unpopular.''
    Last July, Duncan testified to the Education and Labor Committee 
that he had raised scores in Chicago using several strategies including 
prohibiting the promotion of students who fail courses; making summer 
school mandatory for those kids; aggressively closing failing schools; 
investing more money in preschool, after-school and summer school 
programs; raising standards for school principals; and assigning a 
mentor to every new teacher.
    However, teachers across the country have historically opposed an 
approach touted by Duncan and Obama: pay-for-performance, sometimes 
known as merit pay.
    But Duncan told the congressional committee last summer that he had 
created the bonus system in Chicago by working successfully with the 
teachers union. And teachers apparently agree.
    ``Mr. Duncan has tremendous experience working with large public 
school districts,'' said Dr. John Deegan, NAFIS President and 
Superintendent of Bellevue Public Schools in Bellevue, Nebraska. ``I am 
impressed that his first order of business is to travel the country to 
meet with various stakeholders. It is important for him to listen to 
various interests that provide educational services to our Nation's 
children. I am more than willing to participate in any National 
Advisory Boards or task forces on education that will be established by 
the President-elect's administration.''
    The National Association of Federally Impacted Schools looks 
forward to working with the new Secretary of Education and his staff to 
ensure federally impacted school districts nationwide continue to 
receive adequate funding they need to operate their schools.
                                 ______
                                 
 National Association of State Boards of Education 
                                           (NASBE),
                                      Alexandria, VA 22314,
                                                   January 9, 2009.
Hon. Edward Kennedy, Chairman,
Health, Education, Labor, and Pensions Committee,
U.S. Senate,
Washington, DC 20510.

Hon. Michael Enzi, Ranking Member,
Health, Education, Labor, and Pensions Committee,
U.S. Senate,
Washington, DC 20510.

    Dear Chairman Kennedy and Senator Enzi: On behalf of the National 
Association of State Boards of Education (NASBE), representing the 
Nation's State and territorial boards of education, I want to commend 
the nomination of Arne Duncan for Secretary of Education and to urge 
his swift and unanimous confirmation for this critically important 
cabinet position in the Obama administration.
    Arne Duncan is a proven education reformer who has committed 
himself to improving public schools and increasing the achievement of 
all students. As Chicago superintendent for the past 7 years, Duncan 
has seen firsthand the challenges facing public schools, particularly 
those in urban settings, and understands the mix of policies, 
resources, and effort necessary to overcome these problems.
    Arne Duncan will bring a broad vision and practical experience to 
the position of Education Secretary. His understanding of the No Child 
Left Behind Act, which he was charged with implementing in Chicago, 
will be invaluable in improving Federal education policies to align 
with and complement State and local reforms while maintaining his long-
standing and absolute focus on doing what is in the best interests of 
children.
    As an organization in the vanguard of education reform, NASBE is 
pleased that President-elect Obama has selected someone of Arne 
Duncan's expertise and vision to help improve our schools at the 
Federal level. And as the entities ultimately responsible for 
establishing high academic standards and rigorous accountability 
measures in the States, State board members applaud the high 
expectations and impressive gains Arne Duncan created in Chicago and 
look forward to a dynamic Federal-State-local partnership to make U.S. 
schools the best in the world.
    We commend President-elect Obama for his thoughtful choice as 
America's ``top teacher.'' The future success of our Nation lies in our 
ability to educate our children. In Arne Duncan, America's students, 
teachers, and parents have a leader worthy of that responsibility.
    Again, we strongly encourage the committee's unanimous endorsement 
of Arne Duncan's nomination and his expeditious confirmation as the 
next U.S. Secretary of Education.
            Sincerely,
                                 Brenda Lilienthal Welburn,
                                                Executive Director.
                                 ______
                                 
                           New Life Covenant (NLC),
                                         Chicago, IL 60647,
                                                   January 7, 2009.
Hon. Edward Kennedy,
Hon. Michael B. Enzi.

    Dear Senator: It is my privilege to compose this correspondence in 
support of Arne Duncan, President-elect Barack Obama's nominee for 
Secretary of Education of the United States of America, for the Cabinet 
position.
    I commend the selection of the Chicago Public Schools' CEO for the 
national position. I met Arne 10 years ago when we worked together at 
the Board of Education. At the time, I served as Executive Assistant to 
the former CPS-CEO and Arne as the Deputy to the CEO. We have 
maintained our relationship since; working together on several city-
wide initiatives in Chicago.
    Arne has supported New Life Covenant Ministries' efforts in 
addressing educational concerns throughout the city's communities. He 
has marched in anti-violence events to encourage safer environments for 
our youth. Arne has demonstrated ongoing concern for the educational 
welfare of the children of Chicago. His participation in various 
incentive activities that reward our school children's efforts as they 
pursue academic success is evident of Arne's heart. In addition, he has 
donated school supplies and book bags showing children and families 
that he truly cares about being equipped for educational achievement.
    Arne Duncan has done a great job in working with communities of 
faith in the city of Chicago. He demonstrates his support for unified 
efforts in addressing concerns by meeting with religious community 
leaders in response to public needs. I am certain that Arne will be 
more than capable of imparting his vision regarding the education of 
our children at the national level. I look forward to the impact Mr. 
Arne Duncan will have on the educational system nationwide.
    I sincerely appreciate the importance of the U.S. Senate's decision 
and pray that it is one that will successfully address the needs 
expressed across the country.
    Sincerely,
                                         Wilfredo De Jesus,
                                                            Pastor.
                                 ______
                                 
         National School Boards Association (NSBA),
                                      Alexandria, VA 22314,
                                                   January 7, 2009.
Hon. Edward M. Kennedy, Chairman,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.

Re:  Senate Confirmation Hearing on Mr. Arne Duncan as U.S. Secretary 
of Education, January 13, 2009

    Dear Chairman Kennedy: The National School Boards Association 
(NSBA), representing 95,000 school board members through our State 
school boards associations across the Nation, is pleased to support the 
nomination of Mr. Arne Duncan as the next Secretary of the U.S. 
Department of Education. In our view, Mr. Duncan has demonstrated 
exemplary performance in addressing the many challenges facing local 
school districts across the Nation.
    As we have outlined in our paper ``A New Era in Education: 
Redefining the Federal Role for the 21st Century,'' in selecting his 
Education Secretary, President-elect Obama has chosen a leader who has 
demonstrated expertise and effectiveness in managing and leading one of 
the Nation's largest school districts; in addressing the challenges 
facing America's public schools; and successfully leading initiatives 
with demonstrated and significant increases in student achievement. We 
believe that Mr. Duncan represents a realistic view about what is 
possible in our schools and what will lead them into the future.
    We expect that Mr. Duncan will depart from the Federal ``top-down 
approach'' that has been the norm for most of the past decade, and 
instead sustain a culture of partnership and support for States, as 
well as local school districts. Further, we believe Mr. Duncan's 
approach to improving public education is very much consistent with our 
view that the Federal Government should ``facilitate, not dictate.'' 
This is particularly needed as we continue to improve the academic 
achievement of all students, narrow the achievement gap among student 
populations, increase our focus on improved professional development 
for our educators, and increase our use of research in order to 
identify ``best practices'' to strategically move our educational 
systems forward. Clearly, Mr. Duncan and the Chicago Board of Education 
have demonstrated that innovation can flourish when the school district 
puts student achievement first.
    We also recognize Mr. Duncan's outstanding leadership and 
consistency in ensuring that Chicago Public Schools are held to a high 
level of accountability for the academic performance of all students 
regardless of socio-economic conditions, race, ethnicity, or 
disability. Such demonstrated support has fostered renewed energy and 
innovation among the Nation's public school systems in delivering 
quality education to all students.
    The National School Boards Association is familiar with Mr. 
Duncan's accomplishments in leading the Chicago Public Schools, a 
member of our own Council of Urban Boards of Education (CUBE). With a 
solid background in public education and a commitment to improving 
teacher quality, Mr. Duncan is a natural choice to support President-
elect Obama's goals of increasing school funding, creating assessments 
that accurately measure student achievement, and recruiting, retaining, 
and rewarding effective teachers.
    We strongly urge Senate confirmation of Mr. Duncan's nomination and 
enthusiastically look forward to working with him as he assumes his new 
post in Washington.
            Sincerely,
                                            Anne L. Bryant,
                                                Executive Director.
                                          Barbara L. Bolas,
                                                         President.
                                 ______
                                 
                                New Teacher Center,
                                           January 8, 2009.

    Dear Chairman Kennedy and Ranking Member Enzi: I am pleased to 
submit this letter of enthusiastic support for Arne Duncan's nomination 
as U.S. Secretary of Education.
    The next Secretary of Education will confront a host of complex 
policy issues facing public education, including the reauthorization of 
the Elementary and Secondary Education Act and a focus on developing 
our students with 21st-century skills. We need adroit leadership to 
confront these challenges, and I believe Mr. Duncan is exactly the 
right person to direct this effort.
    The New Teacher Center has worked closely and collaboratively with 
Mr. Duncan in a partnership that provides robust induction support for 
beginning educators in some of the most challenging public schools in 
Chicago. Our work at the Chicago New Teacher Center would not be 
possible without his support and his very specific vision that focuses 
the district on teacher quality as the key to improving teaching and 
learning. As Chief Executive Officer of the Chicago Public Schools, we 
find Mr. Duncan to hold a clear, student-focused reform vision and to 
be a seeker of consensus-based solutions to vexing problems.
    As the Washington Post recently noted, Chicago--the Nation's third 
largest school district--has become ``a laboratory of reform during 
Duncan's tenure.'' Importantly, however, as a reform-minded educational 
leader, Mr. Duncan has not lost sight of the fact that quality teachers 
must be at the heart of any successful reform effort. In addition, he 
understands that the role of policy is not simply to identify the best 
teachers but to provide opportunities for every single educator to 
reach his or her fullest potential. That commitment and focus on human-
capital development explains a large part of the success of Chicago 
Public Schools under Mr. Duncan's leadership.
    I believe that Mr. Duncan has the expertise, the perspective, and 
the temperament to be an outstanding Secretary of Education. As part of 
his work in Chicago, he assembled a remarkable leadership team to 
support his efforts. He also embraced collaboration with universities, 
cultural institutions, foundations, entrepreneurial organizations, and 
the business community, rallying a city around its responsibility to 
improve schools. His eye for attracting and retaining innovative, 
dedicated and talented educators and managers and his years of on-the-
ground experience will serve the President and the Nation well.
    I am delighted that President-elect Barack Obama has nominated Mr. 
Duncan to fill this important position, and I strongly encourage the 
members of the Senate Health, Education, Labor, and Pensions Committee 
to approve his nomination. Thank you.
            Sincerely,
                                                Ellen Moir.
                                 ______
                                 
         The New York City Department of Education,
                                           January 6, 2009.
Hon. Edward Kennedy,
Hon. Michael Enzi,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.

    Dear Senators Kennedy and Enzi: I am pleased to write in support of 
Arne Duncan's nomination to be Secretary of Education. I currently 
serve as Chancellor of the New York City public schools and have been 
in that position for the past 6\1/2\ years, since Mayor Michael 
Bloomberg was granted control over the public school system and 
appointed me to that post. During that time, I have worked with Arne on 
numerous occasions, discussing policy, strategy and the challenges 
faced in seeking to bring major reform to troubled urban schools. I 
have come to know him well as a colleague and a friend and to admire 
his service in Chicago. Based on my personal knowledge as well as 
Arne's record of performance in Chicago, I have no doubt that he will 
make an excellent Secretary of Education. While I will elaborate on my 
reasons below, at its core my conclusion is based on the fact that, for 
Arne, it's all about helping children to succeed. In particular, he is 
a champion of the underprivileged and the underserved and, I have no 
doubt, he is an outstanding choice to lead the fight for educational 
excellence and equity in America.
    As an initial matter, I think it was wise for the President-elect 
to have selected a hands-on school superintendent, who has had lengthy 
experience dealing with the real-world challenges of educating students 
who come from every socio-economic background, many of whom are recent 
immigrants to our country. This experience will not only provide a 
future Secretary with the granular knowledge necessary to understand 
the complexity of the issues, but it should also enable him to deal 
with colleagues at the State and school district levels with the kind 
of sophistication needed to make sure that Federal-State-school 
district partnerships are positive and constructive. In my experience, 
different levels of government too often end up in ``compliance-
driven'' or ``personality-driven'' relationships that dissipate energy 
and resources. It doesn't have to be that way, and someone with Arne's 
background--and keen sensitivity--is most likely to ensure that it 
isn't that way.
    I am also familiar with Arne's accomplishments in Chicago, which 
should inspire anyone who cares deeply about urban school reform. 
Transforming large, complex, often bureaucratic organizations is no 
easy assignment. It requires leadership skills, management skills, the 
ability to work cooperatively with other stakeholders, patience and a 
willingness to accept the fact that, even as you make progress, there 
is so much more that needs to be done, and that there will always be 
those who are prepared to criticize virtually any bold decision, even 
though we all know that, given the state of public education in 
America, bold decisions are precisely what we need. Arne was able to 
navigate these roiling waters with great skill and to great effect for 
the students of Chicago's public schools. He made bold decisions, such 
as closing under-performing schools and supporting charter schools, 
even though these policies often provoked controversy. And he demanded 
that everyone in the system be held accountable for student outcomes. 
That sent a powerful and positive message to the entire school 
district.
    Most significantly, student performance in Chicago has improved 
under Arne's leadership. And, while I am sure Arne would be the first 
to say there is a lot more that needs to be done in Chicago, it's 
important to recognize that, in many places throughout our country, 
student achievement has stagnated. In fact, the sad story of school 
reform in America has too often been one of more money invested but no 
results to show for the investment. So, when one can honestly say that 
the glass is half full--as one can in Chicago--that's a big deal.
    Finally, let me say a word about the man and his values, the 
consideration that I believe to be perhaps the most important in 
evaluating this nominee. I have been privileged to serve in government 
at the Federal and city levels for 15 years and have met many talented, 
dedicated public servants. Few are as selfless as Arne Duncan or as 
passionate as he is about helping those who are less fortunate. Arne 
believes deeply that education changes lives, including--indeed, 
especially--for those who grow up in disadvantaged circumstances. And 
he is committed to making sure that the racial and ethnic achievement 
gaps that have plagued our country are tackled and, finally, 
eliminated. He knows how tough the challenges are but is not afraid of 
calling them out or doing the hard, sometimes controversial, things 
necessary to change a status quo that has disserved too many children. 
To me, the greatest heroes in public education are those who are the 
voice for the voiceless: those who will champion children who have no 
other champion. Arne Duncan is one of those and our Nation would be 
fortunate to have him as its Secretary of Education.
            Sincerely,
                                             Joel I. Klein.
                                 ______
                                 
                                   City of Chicago,
                                              City Council,
                                                   January 9, 2009.
Hon. Edward M. Kennedy, Chairman,
U.S. Senator (D-MA),
Health, Education, Labor, and Pensions Committee,
317 Russell Senate Building,
Washington, DC 20510.
Hon. Michael B. Enzi, Ranking Member,
U.S. Senator (R-WY),
Health, Education, Labor, and Pensions Committee,
379A Russell Senate Building,
Washington, DC 20510.

    Dear Senator Kennedy and Senator Enzi: I am honored to have been 
asked to write a letter to you regarding the nomination of Arne Duncan, 
who is being considered for the position of Secretary of Education by 
your esteemed committee.
    I have had the privilege of serving in the Chicago City Council for 
the past 26 years and as Chairman of the Committee on Education and 
Youth Services for 23 of those 26 years. I am keenly aware of the 
challenges faced by urban, public educational systems at present and 
can think of very few people as qualified as Arne Duncan to serve as 
Secretary of Education for the United States of America.
    There was a time in the history of the Chicago Public School system 
where one would not believe the administration of that system if they 
were reciting the Lord's Prayer. Through the efforts of Mayor Daley and 
the administrations of Paul Vallas and then Arne Duncan, the system has 
truly improved, existing for the benefit of the thousands of children 
it serves and educates, rather than supporting the bureaucracy which 
made up a large part of the system.
    Arne's tenure as Chief Executive Officer of the public schools in 
Chicago has been, in many ways, more difficult than his predecessor's 
in that the ``low hanging fruit'' had all been picked and the 
tightening economy threatened to bring our renovations and new school 
programs to a halt. Arne's efforts focused on providing proper 
educational environments and innovate school programs which, in my 
opinion, has kept Chicago on the forefront of public education reform 
in our Nation.
    Arne has the unique qualification of having run one of the Nation's 
largest school systems in the country, giving him a true appreciation 
of the strengths and weaknesses of the Federal Government's educational 
efforts as they affect students. He also has an appreciation of what 
smaller, non-urban systems contend with as a result of his 
groundbreaking efforts in Illinois to bring school administrators 
together to petition our State to accept its responsibility to our 
student population with regard to equitable funding, teacher pension 
issues and student achievement gaps.
    I do not believe that President-elect Obama could have made a 
better choice for this all-important position than Arne Duncan.
            Sincerely,
                                       Patrick J. O'Connor,
                                  Alderman (40th)--City of Chicago.
                                 ______
                                 
     Walter Payton College Preparatory High School,
                                         Chicago, IL 60610,
                                                   January 8, 2009.
Hon. Edward M. Kennedy,
U.S. Senate,
317 Russell Senate Office Building,
Washington, DC 20510-2101.

    Dear Senator Kennedy: It is my honor to recommend Arne Duncan to 
serve as the Secretary of Education for the United States of America 
under the leadership of President Barack Obama.
    I have worked with Mr. Duncan for 6 years as an administrator in 
Chicago Public Schools. Presently, I am the principal of Walter Payton 
College Preparatory High School, the No. 2 ranked school in the State 
of Illinois and noted as one of the 100 top high schools in the country 
by US News and World Report. During this time, Mr. Duncan has been at 
the helm of countless innovations in education for the city of Chicago.
    One such initiative that positively impacted Payton High School was 
the creation and development of the Post-Secondary Education 
department. This program has appreciably increased the numbers of 
students graduating from our city high schools by providing resources 
and personnel to guide students into college and careers. By focusing 
on increasing financial aid information to families, Payton students in 
the Class of 2008 alone were able to garner over $17 million in 
scholarships with the assistance of our postsecondary education coach.
    Chicago saw an unprecedented era of labor peace under Mr. Duncan's 
leadership. Due to his negotiating skills with the numerous unions 
representing Chicago Public Schools employees, he worked as 
collaborator, team player and modeled these skills to others. At the 
same time, his bold moves to guarantee that all Chicago students attend 
an effective school have led to courageous decisions from which he did 
not retreat.
    Offering options and opportunities to communities and families is a 
focus of his plan, providing the most meaningful educational experience 
possible to each individual Chicago student. Payton College Prep 
continues to grow as one of these options for high achieving students 
from across the city, drawing in over 7,000 applications per year for 
our 200-seat freshman class. The level of economic, ethnic and cultural 
diversity has been cited as one of the main reasons for our academic 
success. Our students thrive in a learning environment of all honors 
and advanced placement classes. Our math team placed first in the State 
competitions for 4 consecutive years. Upon leaving Payton, our students 
attend the top tier colleges and universities in the country. This year 
alone four of our students were admitted to Yale.
    As the CEO of the third largest public school system in the 
country, a native Chicagoan and a globally-aware Harvard graduate, Mr. 
Duncan combines a unique set of skills in his work with diverse groups 
of constituents. While aware of the sweeping complexities of a large 
urban district, he understands and responds at the local level. I am 
impressed by Mr. Duncan's personal accessibility to parents and 
students. Mr. Duncan not only listens; he builds effective teams to 
respond to the practical needs of principals and teachers, students and 
community members. He created the Office of Autonomous Schools, which 
reduced bureaucratic red tape for the district's high performing 
schools, such as Payton, and consequently freed up important resources 
and personnel to focus on struggling schools. With local school 
control, we are best able to meet the needs of our students and 
families. Payton created a unique schedule and school calendar to 
afford flexibility in our curriculum offerings.
    Mr. Duncan has demonstrated his support and knowledge of the need 
for students to be global citizens. Payton High School is proud to be 
part of what has become, under Mr. Duncan's leadership, the largest 
Chinese language program in the country. Walter Payton College Prep won 
the prestigious Goldman-Sachs Foundation Prize for International 
Education due to his support for innovative approaches to education at 
our school and the use of advanced technology with our sister schools 
around the world. The world is truly our classroom now!
    In conclusion, we are poised at an original juncture in history; 
2008 confirmed that America has come of age and the enduring hopes and 
dreams of people for decades are being realized. These hopes and dreams 
must now extend into our classrooms and far beyond as we prepare all 
students to thrive in the 21st century. We currently have the practical 
capability for students to teach and learn from each other around the 
world. Technology and meaningful educational practices are evolving 
past man-made boundaries and facilitating world-wide interaction in 
daily instruction in American schools. This is the roadmap for success.
    Mr. Duncan is prepared and able to guide our country in this new 
role. I wholeheartedly urge Congress to move swiftly on his appointment 
as Secretary of Education of the United States of America.
    Thank you for your attention and consideration.
            Respectfully submitted,
                                          Ellen C. Estrada,
                             Principal, Walter Payton College Prep.
                                 ______
                                 
To:  Senator Edward Kennedy (MA) and Senator Michael Enzi (WY)

    I am writing this letter in support of Arne Duncan to be Secretary 
of Education. I have known Arne Duncan for about 10 years and have 
worked closely with him in his role as CEO of Chicago Public Schools. I 
have continued to be impressed with his vision, integrity, and passion 
in providing excellence in education to all children in the city of 
Chicago. He has demonstrated a unique ability to set goals and 
standards for teachers, parents and students and been able to work with 
people in both the private and public school system.
    Mr. Duncan has demonstrated an ability to think ``outside of the 
box'' looking at new ways, ideas and possibilities to strengthen and 
develop stronger education systems that resulted in increased test 
scores and productivity. Mr. Duncan has shown a willingness to take on 
the tough issues of closing schools and turning around schools, and he 
has shown a commitment to dramatically improve education options for 
all Chicago families by aggressively seeking quality, innovative 
proposals for new schools, including charter and contract schools. Mr. 
Duncan has also been an outspoken and passionate voice to fight for the 
safety of children, not only in school but in coming to and returning 
from school to their homes.
    I believe Mr. Duncan's track record here in Chicago makes him an 
excellent choice to tackle one of the most important issues in our 
country and President Barack Obama's administration--education!
            In the Pursuit of Justice,
                                   Rev. Michael L. Pfleger,
                                                            Pastor.
                                 ______
                                 
                             Polk Bros. Foundation,
                                         Chicago, IL 60654,
                                                   January 7, 2009.
Hon. Edward M. Kennedy,
317 Russell Senate Building,
Washington DC 20510.
Hon. Michael B. Enzi,
379A Senate Russell Office Building,
Washington, DC 20510.

    Dear Senators Kennedy and Enzi: It is with enthusiasm and 
conviction that I write in support of the nomination of Arne Duncan to 
the post of Secretary of Education--enthusiasm for his passionate 
commitment to what is best for children and conviction that he has the 
leadership skills to implement the best plans and programs to achieve 
that goal.
    The grant-making foundation that I lead as CEO is one of the three 
largest private funders of public education in Chicago. In that role, I 
have worked with Arne Duncan for 10 years, first when he was chief of 
staff to then Chicago schools CEO Paul Vallas and for the more than 7 
years he has led the Chicago public school system. Chicago has an 
education funding community that is very collaborative, especially when 
the leadership of the school system is open and transparent and willing 
to work with external partners and listen to ``critical friends.'' Arne 
Duncan has done all that and more. We have worked collaboratively on 
reconstituting failing high schools, planning how to improve the 
leadership skills of principals, improving teacher quality and 
increasing the number of good school choices for Chicago parents and 
children.
    Mr. Duncan is not only passionate about improving education but has 
the skills to implement what needs to be done to effect that 
improvement. None of the projects mentioned above are small 
experiments. They may have started small but, based on early success, 
Arne Duncan has had the courage to take these successes to scale 
quickly. He is ever mindful that we lose a generation of high school 
students every 4 years. In Chicago's complex world of education, he has 
been able to work with the school bureaucracy, the teachers' union, the 
funding community, the business community and parents. His success 
comes about because everyone in Chicago understands that he has no 
hidden agenda, that in fact his only agenda is to make dramatic 
improvement in the quality of education for the children of Chicago.
    I am sure he will be no less passionate, courageous and strategic 
on behalf of students across our country.
            Yours truly,
                                         Sandra P. Guthman,
                                                     Chair and CEO.
                                 ______
                                 
                                    Penny Pritzker,
                                         Chicago, IL 60606,
                                                   January 9, 2009.
Hon. Edward M. Kennedy,
317 Russell Senate Building,
Washington, DC 20510.
Hon. Michael B. Enzi,
379A Senate Russell Office Building,
Washington, DC 20510.

    Dear Senator Kennedy and Senator Enzi: It is with pleasure that I 
write this letter in support of Arne Duncan's nomination as Secretary 
of Education in President-elect Obama's new administration.
    I have known Arne before and during his tenure as CEO of Chicago 
Public Schools. As a Co-Chair of the Chicago Public Education Fund as 
well as Chair of their Blue Ribbon Task Force, I have worked closely 
with Arne to improve the quality of leadership in the Chicago Public 
Schools. I was also a fellow member of the Board of Overseers for 
Harvard University with Arne, and our families are good friends. I have 
witnessed first hand his dedication to and success in improving the 
education system of Chicago, always focused on bettering the 
opportunities for the children of this city. With his education, 
demonstrated leadership capabilities and his experience as an inner 
city superintendent of a large, complex system, I can think of no one 
better suited to fill this Cabinet position at this time in our 
Nation's history.
    I strongly urge you and the Senate committee to confirm Arne 
Duncan's appointment as Secretary of Education.
            Very truly yours,
                                            Penny Pritzker.
                                 ______
                                 
                                 Ariel Investments,
                                               Chicago, IL,
                                                  January 12, 2009.

    Dear Members of the HELP Committee: I am the founder, chairman and 
CEO of Ariel Investments, a Chicago-based money management firm and 
mutual fund company. Additionally, I serve as the board president of 
the Ariel Education Initiative, an education foundation which serves 
inner-city children. I am also a lifelong friend of Arne Duncan.
    Two qualities define Arne Duncan: commitment to children and 
dedication to teamwork. While still in grade school, Arne began working 
with poor, neighborhood children at his mother's after-school tutoring 
program. He took a year off from college to work with her and wrote his 
Harvard senior thesis on the underclass. As a professional basketball 
player in Australia after college, Arne spent his off-court time 
working with underprivileged children and young people.
    When he returned to Chicago from abroad, Arne became the driving 
force behind the creation of Ariel Education Initiative which reflected 
our firm's social mission to help low-income, children of color become 
financially literate, build wealth and escape poverty. Initially, Arne 
spearheaded our adoption of a 6the grade class through the ``I Have A 
Dream'' program with the promise to make college affordable for those 
who graduated from high school. In an effort to make a broader impact, 
Arne next helped start an elementary school in Chicago, Ariel Community 
Academy, which offers a unique financial literacy curriculum that 
enables the children to manage real money--with each first grade class 
receiving a $20,000 portfolio. Today, Ariel Community Academy ranks 
among the top elementary schools in the city. As CEO of the Chicago 
Public Schools, Arne has embraced and expanded programs like ours and 
the system as a whole has improved dramatically under his leadership, 
earning Chicago a national reputation as a center of educational 
innovation.
    More than anyone I have ever known--whether in business or in 
basketball--Arne Duncan is a team player. Like all great athletes and 
leaders, he brings out the best in others. He gives credit generously 
to teammates and never seeks credit for himself. He believes deep down 
every challenge can be more easily overcome by working together instead 
of alone. He has the integrity, the discipline, the mental toughness 
and the insight to be a national leader and a partner with President-
elect Obama and Congress in reforming public education in America. He 
also has the experience and wherewithal to develop the right policies 
that will offer real and meaningful opportunities to children of every 
race and background.
    I offer my unqualified endorsement for my lifelong friend and 
teammate, Arne Duncan. No one will work harder and no one will work 
smarter.
            Sincerely,
                                       John W. Rogers, Jr.,
                              Chairman and Chief Executive Officer.
                                 ______
                                 
 Service Employees International Union (SEIU) CTW, 
                                               CLC,
                                      Washington, DC 20036,
                                                  January 12, 2009.
Hon. Edward Kennedy,
Senate Committee on Health, Education, Labor, and Pensions,
644 Dirksen Senate Office Building,
Washington, DC 20510.

Hon. Michael Enzi,
Senate Committee on Health, Education, Labor, and Pensions,
835 Hart Senate Office Building,
Washington, DC 20510.

    Dear Chairman Kennedy and Ranking Member Enzi: The Service 
Employees International Union (SEIU), on behalf of our 2 million 
members, is writing to express our strong support for the nomination of 
Arne Duncan to the position of U.S. Secretary of Education, and to urge 
you to swiftly vote for his confirmation.
    In SEIU's representation of thousands of school district employees 
in the city of Chicago, we have found Superintendent Duncan and his 
team to be both fair negotiators and strong partners for the delivery 
of quality public services in the city's schools. Duncan has shown 
himself to be a hands-on practitioner who will shape his strategy for 
change from lessons learned during his years of improving schools at 
the local level in one of the largest and most dynamic school systems 
in the United States. In his tenure as Superintendent, Duncan has been 
willing to take unpopular steps to identify and transform weak schools 
and improve teaching quality. While SEIU hasn't always agreed with 
every step taken in this process, we have never once doubted that 
Duncan was motivated by his drive to improve the city's schools.
    Duncan has clearly demonstrated his commitment to developing 
children's potential. This is crucial to SEIU because, in addition to 
representing many school employees, we represent hundreds of thousands 
of working people who are parents and grandparents of children in 
public schools. The children of our members frequently fall into the 
groups of children that our public schools are failing. In poll after 
poll, SEIU members rank the desire for a quality education for their 
children as one of their highest concerns. They know how important it 
is for their children to succeed in school. And they know that too many 
of them don't. The education and income level of a child's parents 
should not determine their success in school. Right now, it too 
frequently does. For that to change, we need visionary leadership 
rooted in day-to-day experience. We believe that Arne Duncan is a 
person who can lead that change.
    The Service Employees International Union urges you to vote for 
Secretary-Designate Duncan's swift confirmation as our country's 
Secretary of Education.
            Sincerely,
                                           Andrew L. Stern,
                                           International President.
                                 ______
                                 
                                      Sonnenschein,
                                            Chicago, IL 60606-6404,
                                                   January 9, 2009.
Hon. Edward Kennedy,
Hon. Michael B. Enzi,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate, Dirksen 428,
Washington, DC 20510.

    Gentlemen: I am pleased to endorse the nomination of Arne Duncan as 
Secretary of Education.
    Five years ago Mayor Richard M. Daley and Arne Duncan announced the 
Renaissance 2010 Program--an initiative to open 100 new charter, 
contract and performance schools in Chicago's underserved communities 
by the year 2010. The Mayor and Mr. Duncan turned to the Civic 
Committee, an organization of the CEOs of 
Chicago's leading business enterprises, to help raise the funds to 
finance the start up of these new schools. Thus was born the 
Renaissance Schools Fund, of which I am privileged to serve as Chairman 
and on whose board Arne has served since its inception.
    In this capacity and as a founder of a charter school, I have had 
the opportunity to work closely with Arne and observe his outstanding 
abilities and work ethic, as well as his devotion and dedication to the 
school children of Chicago. Largely through his leadership, a school 
system which not too long ago was considered one of the worst in the 
Nation, has begun a significant turnaround and is showing marked 
improvement.
    The Renaissance 2010 effort has already resulted in the creation of 
80 new schools and is well on its way to its goal of 100 new schools by 
2010. On the theory that ``one-size-does-not-fit-all,'' Arne has 
encouraged the development of schools of all types to meet the needs 
and interests of students, from science and math academies to a music 
and arts school, as well as single sex schools and schools with a 
vocational focus. New schools are being operated by national 
educational organizations, local charter operators and leading private 
institutions, creating a portfolio of schools which the district 
oversees. Arne's efforts have fostered a substantial number of 
collaborative relationships between the business community, foundations 
and universities on one hand and the school district and individual 
schools on the other. With Arne's active participation, more than $70 
million of private funding has been generated for our school district 
and our new schools.
    Arne was the first superintendent in Chicago to have the courage to 
face up to the problem of persistent seriously underperforming schools, 
and despite strong community and political opposition, close them and 
give their students the opportunity to attend better performing 
schools. He has also undertaken the difficult process of reconstituting 
a failing school by replacing its administration and faculty. He 
constantly pushes for new ideas and encourages innovative approaches 
both within and outside the system.
    The accomplishments of the Chicago Public School System have been 
many during his tenure:

    <bullet> Elementary test scores hit an all time high with more than 
65 percent of students meeting or exceeding State standards--Chicago's 
seventh consecutive gain.
    <bullet> Over the past 5 years, Chicago high school students gained 
twice as much as the State and three times as much as the Nation on the 
ACT test.
    <bullet> Over the past 5 years, the number of CPS high school 
students taking advanced placement classes more than doubled.
    <bullet> The graduating class of 2008 received a record $157 
million in competitive college scholarships.
    <bullet> The number of teacher vacancies at the start of the school 
year hit an all-time low of 3 percent.

    Arne is smart, thoughtful, effective and dedicated to our students 
and to the improvement of our education system. His loss to Chicago 
will be a gain to the Nation.
            Sincerely,
                                           Donald G. Lubin.
                                 ______
                                 
                                               UNO,
                                         Chicago, IL 60607,
                                                   January 7, 2009.
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Dirksen 428,
Washington, DC 20510.

Attention: Joe Kolinski

    To the Senate Committee on Health, Education, Labor, and Pensions: 
As Chief Executive Officer of Chicago Public Schools for the past 7 
years, Arne Duncan and his vision have been instrumental in this city's 
ongoing process of school reform. Under Mr. Duncan's direction, 
Chicago's education system has undergone a significant transformation 
which promotes accountability, transparency, and data-driven 
decisionmaking in our schools.
    His innovative decisions to support community and charter schools, 
such as the UNO Charter School Network, have resulted in the creation 
of higher-quality educational options while alleviating overcrowding in 
neighborhood schools for tens of thousands of students across Chicago.
    I am honored to extend my support of Arne Duncan's appointment to 
Secretary of Education based on his demonstration of leadership and an 
innovative revitalization of our schools. I know he will only continue 
to succeed in education reform at the national level.
            Sincerely,
                                               Juan Rangel,
                       Board President, UNO Charter School Network.
                                 ______
                                 
           Williams Multiplex Local School Council,
                                         Chicago, IL 60616,
                                                   January 9, 2009.
Hon. Michael B. Enzi,
379A Russell Senate Building,
Washington, DC 20510.

    Dear Senator Enzi: The parents of Williams Multiplex had the 
opportunity to work closely with Mr. Arne Duncan when it was announced 
that Williams would close under the Renaissance Initiative. Initially 
we were very upset and felt that our school was selected to close 
because we were in a socially, economically deprived community adjacent 
to a public housing complex. We began to rally and even made a human 
chain around the school to protest its closing. There were public 
hearings, marches and rallies at Chicago Public Schools board meetings.
    Mr. Duncan assured us that when Williams reopened we would have a 
new school that would provide a quality education for our students 
while promoting community and business partnerships. Mr. Duncan kept 
his word and worked diligently with parents and community to create our 
model school. When Williams reopened our children had new books, 
computers, a brighter building, a longer school day, a parent center, 
dedicated teachers and an atmosphere that embraced parental 
involvement. Workshops provided opportunities to bridge the gap between 
home and school. Mr. Duncan has been accessible to parents and 
community members on a consistent basis.
    We are happy, yet saddened to see Mr. Duncan leave Chicago Public 
Schools, but we will remember what he has taught us, to always strive 
for excellence and in order for our children to compete globally we 
must continue to take it to the next level.
            Sincerely yours,
                                     Valorie Wright, Chair,
                                    Williams Elementary School LSC.
                              Dianna Smith Phillips, Chair,
                                        Williams Middle School LSC.
                                         Kim Davis-Ambrose,
                                                Parent Coordinator.
                                            Alexander Hall,
                                                            Parent.

    [Whereupon, at 12:04 p.m., the hearing was adjourned.]




</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
